<html>
<title> - FOSTERING ECONOMIC GROWTH: MIDSIZED, REGIONAL, AND LARGE INSTITUTION PERSPECTIVE</title>
<body><pre>[Senate Hearing 115-106]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-106


 FOSTERING ECONOMIC GROWTH: MIDSIZED, REGIONAL, AND LARGE INSTITUTION 
                              PERSPECTIVE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

     EXAMINING THE CURRENT STATE OF MIDSIZED, REGIONAL, AND LARGE 
   INSTITUTIONS, INCLUDING THEIR REGULATORY REQUIREMENTS, IMPACT ON 
          CLIENTS, AND THEIR ROLE IN PROMOTING ECONOMIC GROWTH

                               __________

                             JUNE 15, 2017

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                 Available at: http: //www.fdsys.gov/


                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-425 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
  















            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                      MIKE CRAPO, Idaho, Chairman

RICHARD C. SHELBY, Alabama           SHERROD BROWN, Ohio
BOB CORKER, Tennessee                JACK REED, Rhode Island
PATRICK J. TOOMEY, Pennsylvania      ROBERT MENENDEZ, New Jersey
DEAN HELLER, Nevada                  JON TESTER, Montana
TIM SCOTT, South Carolina            MARK R. WARNER, Virginia
BEN SASSE, Nebraska                  ELIZABETH WARREN, Massachusetts
TOM COTTON, Arkansas                 HEIDI HEITKAMP, North Dakota
MIKE ROUNDS, South Dakota            JOE DONNELLY, Indiana
DAVID PERDUE, Georgia                BRIAN SCHATZ, Hawaii
THOM TILLIS, North Carolina          CHRIS VAN HOLLEN, Maryland
JOHN KENNEDY, Louisiana              CATHERINE CORTEZ MASTO, Nevada

                     Gregg Richard, Staff Director

                 Mark Powden, Democratic Staff Director

                      Elad Roisman, Chief Counsel

                      Jared Sawyer, Senior Counsel

                      Travis Hill, Senior Counsel

                Graham Steele, Democratic Chief Counsel

            Laura Swanson, Democratic Deputy Staff Director

                 Elisha Tuku, Democratic Senior Counsel

                       Dawn Ratliff, Chief Clerk

                     Cameron Ricker, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)























                            C O N T E N T S

                              ----------                              

                        THURSDAY, JUNE 15, 2017

                                                                   Page

Opening statement of Chairman Crapo..............................     1

Opening statements, comments, or prepared statements of:
    Senator Brown................................................     2

                               WITNESSES

Harris H. Simmons, Chairman and Chief Executive Officer, Zions 
  Bancorporation, on behalf of the Regional Bank Coalition.......     4
    Prepared statement...........................................    27
Greg Baer, President, The Clearing House Association.............     6
    Prepared statement...........................................    32
Robert R. Hill, Jr., Chief Executive Officer, South State 
  Corporation, on behalf of Mid-Size Bank Coalition of America...     7
    Prepared statement...........................................    51
    Responses to written questions of:
        Senator Brown............................................    96
        Senator Sasse............................................    99
        Senator Tillis...........................................   100
Saule T. Omarova, Professor of Law, Cornell University...........     9
    Prepared statement...........................................    52
    Responses to written questions of:
        Senator Brown............................................   102
        Senator Sasse............................................   104
        Senator Reed.............................................   108

              Additional Material Supplied for the Record

Statement submitted by the Independent Community Bankers of 
  America........................................................   111
Statement submitted by the American Bankers Association..........   116
Statement submitted by Fifth Third Bank..........................   123
Statement submitted by the Institute of International Bankers....   127
Statement submitted by Texas Capital Bank........................   130
GSIB scores......................................................   133

                                 (iii)

 
 FOSTERING ECONOMIC GROWTH: MIDSIZED, REGIONAL, AND LARGE INSTITUTION 
                              PERSPECTIVE

                              ----------                              


                        THURSDAY, JUNE 15, 2017

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 9:49 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Mike Crapo, Chairman of the 
Committee, presiding.

            OPENING STATEMENT OF CHAIRMAN MIKE CRAPO

    Chairman Crapo. This hearing will come to order.
    Last week, we received testimony on the role financial 
institutions play in fostering economic growth in local 
communities. The hearing focused on community lenders, and we 
heard about the need for additional tailoring, the increasing 
cost of compliance, and common-sense reforms to rules such as 
QM, TRID, HMDA, and Volcker.
    Today we will hear about the regulatory framework that 
midsize banks, regional banks, and larger financial 
institutions face. Midsize and regional banks are often 
subjected to costly post-crisis rules designed for the most 
systemically important banks. Many of these rules are applied 
based on asset thresholds that do not reflect the underlying 
systemic risk of financial institutions.
    While the size of a bank is one factor in measuring 
systemic importance, there are many other aspects of an 
institution that are relevant to how difficult the company 
would be to resolve and how consequential its distress or 
failure would be to financial markets.
    The result is a regulatory regime that is insufficiently 
tailored for many of the firms subject to it, for example, 
stress testing. Former Fed Governor Tarullo is among those who 
have stated that the $10 billion threshold for company-run 
stress tests is too low. Additionally, CCAR is a very costly, 
time-consuming process that is overly burdensome, especially 
for noncomplex regional banks. Another example is the Volcker 
rule, which has proven far too complicated to implement and 
incredibly difficult to comply with.
    One of my key priorities this Congress is passing 
legislation on a bipartisan basis to improve the bank 
regulatory framework and stimulate economic growth. In March, 
Senator Brown and I began our process to receive and consider 
proposals to help foster economic growth, and I appreciate all 
the valuable insights and recommendations that we have 
received. Also in March, the Federal banking agencies issued 
their EGRPRA report to Congress with their recommendations.
    And earlier this week, the Treasury Department issued the 
first of its reports examining how best to improve our 
regulatory framework. The report focused on banks and credit 
unions and provided a substantial number of helpful regulatory 
and legislative suggestions corresponding to the President's 
Executive Order on ``Core Principles for Regulating the 
Financial System''.
    I commend Secretary Mnuchin and his staff at Treasury for 
all the work that went into this report and for the thoughtful 
recommendations they have provided.
    I am particularly encouraged by a number of specific 
recommendations for midsize and regional banks, including 
changing the $50 billion SIFI threshold; exempting midsize 
banks from company-run stress tests; exempting banks without 
significant trading activity from the proprietary trading 
prohibition of the Volcker rule; and improving the transparency 
and process of CCAR and living wills.
    With the hundreds of recommendations that we have received 
through our economic growth submission process, the testimony 
we are receiving at these hearings, the EGRPRA report, and this 
Treasury report, the Committee has no shortage of ideas to 
consider as we work to improve our regulatory framework.
    As this process continues, I look forward to working with 
all Members of the Committee from both sides of the aisle to 
bring strong, robust bipartisan legislation forward.
    Senator Brown.

               STATEMENT OF SENATOR SHERROD BROWN

    Senator Brown. Thank you, Mr. Chairman. Thanks for holding 
today's hearing. Thank you to the four witnesses for joining us 
today.
    Based on the current Wall Street reform debate, the 
activity in the House and the report put out by Treasury 
earlier this week, I am concerned that some seem to have 
forgotten that we even had a financial crisis a decade ago. I 
can assure you that families in my home State still remember 
and continue to live with the consequences of the crisis. I 
have told this Committee before, but my Zip code in Cleveland 
where my wife and I live, 44105, in the year 2007, the first 
half of that year, had more foreclosures than any Zip code in 
the United States, and I see what a foreclosure on a home means 
to my neighbors.
    That crisis of a decade ago, when the unemployment rate for 
our Nation reached more than 10.5 percent, we had 14 
consecutive years of increasing foreclosures, some 400,000 
homes lost in 5 years at the height of the housing crisis in my 
State. That is to say nothing of the psychological damage 
caused by lost jobs and children being forced to move away from 
their friends and families.
    Just one example, 17 percent of Ohio homeowners still owe 
more on their mortgages than their home is worth--the second 
highest rate in the Nation behind the States of two Members of 
this Committee, Senator Cortez Masto and Senator Heller.
    With these experiences fresh in our mind, Congress passed 
Wall Street reform, including some of the most sweeping changes 
to financial regulation in 70 years. Wall Street and its allies 
are attacking rules like living wills and orderly liquidation 
that are meant to ensure that a $1 trillion megabank can fail 
without bringing down the economy with it. At the same time, 
they attack the capital rules that are meant to reduce the 
likelihood that banks will fail in the first place.
    Let me be clear. Proposals to weaken oversight of the 
biggest banks have no place in this Committee's process. Wall 
Street banks caused a financial crisis that cost our economy up 
to $14 trillion and took $160 billion in taxpayer bailouts. 
They made the market for the late and unlamented predatory 
lenders that have left more than one-fifth of Cleveland 
homeowners still underwater. One-fifth. Letting them run wild 
again will not help economic growth. It will just put our 
economy at risk once again.
    Having said that, I am optimistic there is room for 
agreement on a modified regime for overseeing regional banks. 
This will be the fifth hearing dedicated to the issue of these 
enhanced prudential standards since July of 2014. The last 3 
years, I have been encouraged by steps that the agencies have 
taken to better tailor standards like stress tests and living 
wills. We have heard that these two rules plus liquidity 
requirements may impose the most burdens with the least amount 
of benefits to financial stability when they are applied to 
regional banks. I think we all understand that.
    We have heard from both midsize banks and their regulators, 
as the Chairman cited, that changes should be considered to the 
Dodd-Frank-required stress tests. I look forward to working 
with the Chairman and our colleagues to explore what might make 
the oversight regime work better for both midsize and regional 
banks as long as financial stability and safety and soundness 
and consumer protections are not compromised.
    Let me close with a different topic, if I could, Mr. 
Chairman, in the last couple of minutes. Wall Street reforms' 
opponents accuse the law of being too partisan despite the fact 
that it received Republican votes in both the House and Senate 
and that it included 15 Republican-sponsored floor amendments. 
They say it was not well conceived even though we held more 
than 30 Committee hearings and Chairman Dodd spent months 
discussing the bill with Republicans on this Committee, some of 
them still on this Committee. The bill spent more than a month 
on the Senate floor.
    Contrast that, Mr. Chairman, and I want to point out that 
right now a small group of Republican Senators--maybe a dozen, 
we read; we do not really know--is crafting a health care bill 
behind closed doors. They are doing it with no participation 
from Democrats. As the case with Dodd-Frank, contrast how 
Democrats passed the Affordable Care Act a number of years ago. 
It took more than a year, dozens and dozens of hearings in my 
Committee alone, then the Health, Education, Labor, and Pension 
Committee. We accepted 150 Republican amendments, open process, 
lots of debate. But look at what has happened now with the 
Affordable Care Act.
    The Chairman of the Finance Committee--Senator Crapo and I 
both sit on that Committee, as does Senator Scott. That 
Committee has no plans to hold even a single hearing on the 
bill. Both Dodd-Frank and the Affordable Care Act were the 
product of painstaking legislative work. We were doing our job 
bipartisanly. We put those together. It put money back in the 
pockets of American families through lower health care costs 
and lower credit card and mortgage fees. We owe it to these 
families on that issue and other issues to have an open and 
honest debate about the Republican health care bill. There is 
no sign that Senator McConnell is going to do that. No sign at 
all.
    Nothing could be more important to economic growth than 
safeguarding the health and the financial well-being of working 
families. This Committee can play a role in that. I am hopeful 
that we will.
    Thank you.
    Chairman Crapo. Thank you.
    At this point we will move to the testimony of our 
witnesses. Before we do so, however, I want to alert both the 
witnesses and the Members that we have three votes scheduled at 
11 o'clock, so we are going to need to wrap this hearing up by 
11 o'clock, which means to my colleagues the 5-minute rule 
really must be honored, and I will honor it strictly with you. 
And to our witnesses, sometimes a question comes in right in 
the last few seconds of the 5 minutes. Please keep your answers 
brief to that so we can move on and let every Senator have an 
opportunity to ask questions.
    As each of you know, you have been allocated 5 minutes for 
your oral remarks, and we welcome them. You will also have 
plenty of opportunities to enhance your testimony in response 
to questions.
    Finally, I wanted to indicate to everyone, I have to 
testify in the Judiciary Committee in just a few minutes, so I 
will step out. But I will be back, and I look forward to 
reviewing and listening to all of your comments.
    With that, first we will receive testimony from Mr. Harris 
Simmons, chief executive officer and chairman of Zions 
Bancorporation, on behalf of the Regional Bank Coalition.
    Following him we will hear from Mr. Greg Baer, president of 
The Clearing House Association.
    Then we will hear from Mr. Robert Hill, chief executive 
officer of South State Corporation, on behalf of Mid-Size Bank 
Coalition of America.
    And, finally, we will hear from Ms. Saule Omarova--did I 
get that right?
    Ms. Omarova. Yes, you did.
    Chairman Crapo. Thank you. Professor of law at Cornell 
University.
    Mr. Simmons, you may proceed.

 STATEMENT OF HARRIS H. SIMMONS, CHAIRMAN AND CHIEF EXECUTIVE 
 OFFICER, ZIONS BANCORPORATION, ON BEHALF OF THE REGIONAL BANK 
                           COALITION

    Mr. Simmons. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to present some views to the 
Committee this morning. I am Harris Simmons. I am the chairman 
and CEO of Zions Bancorporation. We are a $65 billion in assets 
regional bank headquartered in Salt Lake City. We operate 
across the Western United States, including in the Chairman's 
home State of Idaho. We particularly focus on small, medium, 
and mid-market kinds of businesses. We do a lot of commercial 
lending, the kind of lending that we believe creates a lot of 
jobs and supports a great deal of economic activity in the 
Western United States. We serve these businesses, their 
employees, their owners, and a number of municipalities across 
the West, many in rural locations, particularly in the 
Intermountain West.
    For the past several years, Zions Bancorporation has been 
the smallest of the systemically important financial 
institutions as defined by the Dodd-Frank Act. Sometimes we 
joke about ourselves as being an ``itty-bitty SIFI.'' And we 
have felt, I think, perhaps disproportionately, the brunt of 
the burden of complying with the enhanced prudential standards 
and other requirements of Dodd-Frank that are applicable to the 
SIFI group. But that is the common lot of the regional banks 
generally.
    It has forced us to hold capital that is at the north end 
of our peer group. It has retarded our growth and has hampered 
the ability of relationship managers, those on the front lines, 
to serve customers in the manner that they used to be able to 
do.
    In particular, the Comprehensive Capital Analysis and 
Review process, or CCAR as it is known, has been costly, it has 
been frustrating, and perhaps most of all, it has been 
incredibly opaque, and challenging to understand what the 
evolving requirements have been and what kind of standard is 
required of us as we think about the economics of our own 
business. It creates uncertainty, which in turn stifles 
planning and prudent risk taking.
    The liquidity coverage ratio is another feature that is 
applicable to the SIFI group. In the case of banks under $250 
billion but over $50 billion in size, a modified liquidity 
coverage ratio will become a constraint. I think it has not 
been particularly constraining. Over the past few years, the 
industry has been awash in liquidity. But it will become a 
constraint, and it will become a constraint at the worst 
possible time. And at a time when liquidity is at a premium, we 
will find ourselves as an industry withdrawing, and that will 
not be good for the economy.
    Finally, the banking regulatory apparatus has become a Rube 
Goldberg contraption with overlapping regulators, redundant 
regulations, such as the various capital regimes, scores of 
compliance trip wires that cumulatively are overly expensive, 
sometimes conflicting in their objectives, and they consume an 
enormous amount of management and board time and resources.
    They also have produced a lot of growth in the shadow 
banking system outside of the regulated banking system. They 
have, I believe, slowed the housing recovery and resulted in 
slower capital formation and small business credit 
availability.
    The Treasury Department's outline for reform provides, I 
think, a great blueprint for beginning to tackle many of these 
issues, and we look forward to working with other financial 
institutions and with members of Congress and Members of this 
Committee in trying to come with solutions that will leave the 
industry safer and sounder but that will foster economic 
growth.
    Thank you very much.
    Senator Scott [presiding]. Thank you, Mr. Simmons.
    Mr. Baer, you may proceed.

     STATEMENT OF GREG BAER, PRESIDENT, THE CLEARING HOUSE 
                          ASSOCIATION

    Mr. Baer. Thank you, Senator Scott, Ranking Member Brown. I 
am pleased to appear before the Committee today to discuss how 
regulatory reform could stimulate economic growth.
    I should emphasize at the outset that if the goal is 
economic growth, it cannot be achieved while excluding large 
and regional banks from that effort. Community bank relief is 
warranted, but as the Treasury Department noted in its report 
this week, community banks hold only 13 percent of U.S. banking 
assets. The 25 banks that own The Clearing House fund more than 
40 percent of the Nation's business loans held by banks and 
more than 75 percent of loans to households. Large banks 
originated 54 percent of small business loans in 2015 by dollar 
amount and about 86 percent by number.
    The starting point for any review of the American banking 
system is one that is extremely resilient. Regulatory changes 
have helped to increase the quality and quantity of capital. 
Post-crisis, the aggregate Tier 1 common equity ratio for The 
Clearing House's 25 banks has nearly tripled and increased from 
$331 billion to over $1 trillion in capital.
    Similarly, U.S. banks now hold unprecedented amounts of 
cash and cash equivalents to protect against a run. Today such 
assets compose nearly a quarter of U.S. large bank balance 
sheets.
    While much has been gained in fortifying the Nation's 
largest banks, some overly stringent capital liquidity, and 
other rules have diminished their ability to lend and 
intermediate in financial markets. For example, Fed data show 
that approval rates for small businesses were just 45 percent 
at large banks subject to heightened capital requirements for 
such loans, but 77 and 60 percent, respectively, at CDFIs and 
small banks.
    Similarly, with respect to mortgage lending, our research 
demonstrates that the Federal Reserve CCAR test is imposing 
dramatically higher capital requirements on residential 
mortgage loans than bank internal stress test models or the 
standardized approach to capital developed by the Basel 
Committee. As a result, over the past 6 years, residential real 
estate loans declined 0.5 percent per year at banks subject to 
the CCAR stress test while they have risen 4.0 percent at banks 
not subject to the test.
    Capital markets have also been affected. Indeed, post-
crisis regulation by banking regulators has affected securities 
markets more than regulation by securities regulators. Bank 
regulations have made it significantly more expensive for 
broker-dealers affiliated with banks, which now include all the 
largest broker-dealers, to hold, fund, and hedge securities 
positions. And the Volcker rulemakes the holding of market-
making inventory a potential legal violation.
    The greatest impact has been felt by smaller companies. 
Issuance of corporate bonds by small and midsize firms has 
fallen over the past few years even as issuance by larger firms 
has increased.
    Supervision is also playing as large a role as regulation 
in constraining credit as examiners increasingly dictate how 
bank resources are to be allocated. For example, leveraged 
lending is an important type of financing for growing 
companies, which carry a lot of debt. Based on no empirical 
evidence, the Federal banking agencies have issued guidance 
setting arbitrary limits on such lending. Some of the guidance 
makes little sense. For example, regulators require banks, in 
evaluating whether a company is leveraged, to assume that all 
its lines of credit are drawn, which is akin to lowering a 
consumer's credit score because their credit line has been 
increased for good payment history. As a result, some Fortune 
500 companies with investment grade debt are now deemed by the 
regulators to be highly leveraged and, therefore, risky.
    More broadly, we believe that bank supervision has lost its 
way post-crisis and requires a comprehensive reexamination. 
Even as banks have dramatically improved their financial 
condition, supervisors have transformed supervisory grades from 
a measurement of financial condition to a measurement of 
compliance. They have created unwritten rules that lead 
isolated compliance problems serving as a barrier to expansion, 
in some cases for years, and particularly for midsize and 
regional banks.
    Another result is simply a massive cost, which must be 
passed along to consumers, as described in a recent CEO letter 
to shareholders: ``At M&T, our own estimated cost of complying 
with regulation has increased from $90 million in 2010 to $440 
million in 2016, representing nearly 15 percent of our total 
operating expenses. During 2016 alone, M&T faced 27 different 
examinations from six regulatory agencies. Examinations were 
ongoing during 50 of the 52 weeks of the year.''
    Much of this burden comes as rules that make sense for 
large complex firms are applied to firms that present few of 
the same risks. Certainly the answer to a bad rule is not to 
apply it to fewer people, and there are many rules that fit 
that description. But there are other rules that make sense for 
some but not all. My written testimony sets forth numerous 
rules in both categories and ideas for how they could be 
reformed.
    There is no need for fundamental changes to post-crisis 
regulation, but there is certainly room for improvement, and 
particularly if the goal is stronger economic growth.
    Thank you.
    Senator Scott. Thank you, Mr. Baer.
    Now, from the great State of South Carolina, Mr. Hill.

  STATEMENT OF ROBERT R. HILL, JR., CHIEF EXECUTIVE OFFICER, 
 SOUTH STATE CORPORATION, ON BEHALF OF MID-SIZE BANK COALITION 
                           OF AMERICA

    Mr. Hill. Chairman Crapo, Ranking Member Brown, Senator 
Scott, and Members of the Committee, I am Robert Hill, CEO of 
South State Corporation. I am grateful that your leadership has 
provided a nonpartisan platform to hear from bankers like 
myself.
    Today I represent my company, South State Bank, and also 
the Mid-Size Bank Coalition, which is the voice of 78 midsize 
banks in the U.S. with headquarters in 29 States. Our member 
banks are primarily between $10 billion and $50 billion in 
assets and serve customers and communities through more than 
10,000 branches in all 50 States, the District of Columbia, and 
three U.S. territories. Midsize banks most often are the 
largest local bank serving their community, many for more than 
a century.
    South State specifically was founded in 1933 on the heels 
of the Great Depression in rural South Carolina. Today we serve 
communities both large and small in North Carolina, South 
Carolina, and in Georgia.
    In January of this year, our bank crossed the $10 billion 
in asset threshold, and I have had the opportunity to see 
firsthand how this threshold is having a negative impact on 
economic growth.
    At South State, not unlike my peers in the coalition, we 
operate a very simple business model. We offer depository 
services, and we lend money in local communities. This is very 
similar to the business model we operated when we were a very 
small community bank. We have stable deposit funding from our 
customers, revenues that are driven from traditional banking 
services, and that are well understood by both our regulators 
and our management team. And we have never done any proprietary 
trading.
    South State and other midsize banks have prudent business 
models that contribute to economic growth and support financial 
stability. Our company never lost money during the financial 
crisis. We never did subprime lending. We never stopped lending 
to our customers during the crisis.
    As the largest banks in many of our States, midsize banks 
can have a significant impact on our communities, but some 
banks are choosing not to cross this huge threshold or cross it 
and shift their focus from investing in the businesses that 
they have to investing in the preparation for large bank 
regulation.
    Under Dodd-Frank, crossing the $10 billion in asset 
threshold has had very harsh implications for midsize banks. 
This is happening to a segment of our industry not based on 
risk but based purely on asset size. And I assure you that 
adding $1 in incremental assets as we cross $10 billion did 
little to change the risk profile of our company.
    While we value many parts of Dodd-Frank and we like the way 
our industry has been strengthened since the crisis, I have yet 
to see the value to the public in any appreciable way of the 
arbitrary $10 billion threshold. These requirements drain 
resources of midsize banks, divert dollars from investment in 
our customers to investment in large bank regulation. For 
example, South State was impacted by over $20 million per year, 
a significant sum for a bank our size. What impacts did this 
have on our local communities? For us, that equates to 300 
jobs. Approximately 10 percent of our branches were closed, and 
even more jobs were diverted from lending to regulatory 
compliance.
    As banks that support Main Street and not Wall Street, we 
need our communities and our communities deserve regulation 
that encourages prudent behavior and also protects our 
customer. But we also need to have common-sense regulation that 
does not impose burdens or slow economic growth in our 
communities. In our view, we must move away from the Dodd-Frank 
$10 billion regulatory threshold.
    Again, I appreciate the opportunity the Committee has given 
the Mid-Size Bank Coalition and myself to express these views 
today.
    Senator Scott. Thank you, Mr. Hill.
    Professor Omarova.

   STATEMENT OF SAULE T. OMAROVA, PROFESSOR OF LAW, CORNELL 
                           UNIVERSITY

    Ms. Omarova. Senators, thank you for the opportunity to 
testify on this important issue.
    We are all here today because 9 years after the worst 
financial crisis in generations, the banking industry is now 
waging a massive campaign to roll back the Dodd-Frank Act and 
the entire regime of post-crisis systemic risk regulation. The 
banks claim that regulation is what directly prevents them from 
lending to small businesses and struggling families and, thus, 
prevents them from fostering America's economic growth. You 
should take these claims with extreme skepticism.
    First, it is important to understand what the banking 
industry really means by growth. What America needs is real 
economic growth--sustainable, socially inclusive, long-term 
growth of the real, nonfinancial, sector of the American 
economy. We need to restore the Nation's eroding industrial 
base, rebuild and modernize our infrastructure, and create 
sustainable, well-paying jobs. What we do not need is to have 
another stock market or real estate bubble fed by cheap credit 
and speculation in secondary markets.
    Yet if Congress, you, deregulate big banks, that is 
precisely what will grow. Big Wall Street banks derive the bulk 
of their profits not from small business lending but from 
massive high-risk trading and dealing in secondary markets. 
They feed speculation, not real economic growth. That 
speculation is precisely what caused the latest financial 
crisis, and it will inevitably cause another one on your watch.
    In a strategically savvy move, big banks are aligning 
themselves with the smaller and midsized and regional banks as 
far more sympathetic petitioners, almost the Jimmy Stewart bank 
types. Almost but not quite. Even the tiniest among them have 
more than $10 billion in assets, and the bigger ones, well over 
$300 and sometimes $400 billion in assets. True, they are 
smaller and less dependent on speculative trading than Wall 
Street megabanks, and perhaps they do deserve a lighter 
regulatory load. But if trying to help these smaller banks you 
grant their request for a massive regulatory rollback, the 
principal beneficiaries of the deregulation will be Wall Street 
megabanks. Deregulation will reduce smaller banks' compliance 
costs, but it will also enable megabanks to expand the high-
risk speculative trading, which is at the core of financial 
instability and crisis.
    To guard against that, you should require banks to provide 
concrete evidence that they will actually use their savings 
from specific deregulatory measures primarily, if not 
exclusively, to increase lending to productive economic 
enterprise. At the very least, banks should give you the exact 
amounts of prudent, productive loans that they were ready to 
make but were forced to decline solely because they did not 
have enough money left after paying for regulatory compliance. 
I doubt that such evidence exists. Yet there is plenty of 
evidence that all banks, regardless of their size, generate 
healthy net profits, in fact, to the tune of $175 billion only 
in 2016 and choose to return the bulk of those profits to their 
shareholders through dividend payments and share buybacks. Only 
last year, insured banks paid out $103 billion in cash 
dividends, an amount second only to the record high of $110 
billion in bank dividends paid in 2007, the last pre-crisis 
bubble year.
    High dividends increase banks' stock price and management 
bonuses, so that is where most of their money seems to go, not 
to lending or regulatory compliance. That is a far cry from 
rebuilding America's industrial base or helping struggling 
American families to get out of poverty.
    Unless banks put their own money where their very loud and 
very well paid mouths are, you should not read their claims 
about fostering growth as anything more than convenient 
rhetoric. Indeed, it is much more likely that big banks' 
massive push for deregulation is driven by their desire to 
generate high speculative trading profits, increase their 
executives' bonuses, and return more dividend cash to their 
shareholders. Right now, all of these things are significantly 
limited by the Dodd-Frank regime of enhanced prudential 
supervision, including heightened capital ratios, supervisory 
stress testing, and living will requirements applicable to 
large systemically important financial institutions, or SIFIs.
    No wonder that the banking industry attacks the key 
elements of this post-crisis regulatory regime as supposedly 
arbitrary and insufficiently ``tailored'' to their unique 
circumstances. For example, banks are demanding that SIFI 
designation is conducted on a strict case-by-case basis with 
every bank getting the same tailored process as MetLife got, 
and we all know how perfectly efficient and problem-free that 
process turned out to be. If you allow this to happen, it will 
effectively kill the entire regime of enhanced SIFI oversight.
    The same goes for banks' demands to force the Federal 
Reserve to publish its stress test scenarios for public notice 
and comment and to restrict the Fed's ability to conduct and 
use its own test models. Yes, that will make stress tests fully 
transparent, just like giving the students exam questions 
before the exam will make that exam transparent. And it will 
also make it absolutely useless for its intended purposes. I 
know better than to give my students such a special gift, and 
you should know better than to do the same for the banks.
    In conclusion, I urge you to keep focus not on what banks 
want for the sake of their own profitability, but on what the 
American economy and the American people need: not another 
speculative frenzy but sustainable, employment-generating 
growth of the real economy. Financial deregulation will hinder, 
not foster, such growth.
    Thank you.
    Senator Scott. Thank you, Professor.
    And I will just remind all of us that we have votes at 11 
o'clock, and our goal is to be out by 11 a.m., so keeping our 
questions to 5 minutes would be very helpful. I will start off 
our questions.
    Mr. Hill, thank you for being here today. Certainly it is 
always good to have a homegrown South Carolina product like 
yourself and your company do very well, and thank you for being 
here to testify before us today.
    I think it is critical that the Committee hears from voices 
representing all parts of our country. It ensures we get a 
holistic perspective on how to grow our economy for everyone. 
That is why I am so glad that Mr. Hill is testifying today. His 
company, South State Bank, is the largest financial institution 
headquartered in South Carolina. It has less than $12 billion 
in assets, but States like mine rely heavily on midsize banks 
and regional banks to provide small business loans, mortgages, 
and consumer financial services.
    The Dodd-Frank Act created a lot of hoops for companies 
like South State to jump through. Much of the added regulatory 
burden is triggered by specific asset thresholds. It seems to 
me that if you tell someone that they will get hammered by the 
Federal Government if they hit XYZ number, everyone is going to 
do all that they can to avoid hitting that number. The 
collateral damage is to economic growth.
    Mr. Hill, can you speak to the distortions in the market 
and business behavior as institutions approach these 
thresholds?
    Mr. Hill. Yes, Senator Scott. First, I want to thank you 
for the nonpartisan support of the CLEAR Act, as well as 
Senators Heitkamp and Moran. It is this type of bipartisan 
sensible legislation that I do think is moving the ball forward 
to help deal with some of these issues.
    Senator Scott. Thank you.
    Mr. Hill. The changes as you approach this threshold is 
versus--I think of a threshold as a small step forward. This is 
a meaningful leap for a bank of $10 billion. I have been in the 
business for 30 years. I have dealt with a lot of regulation. I 
do not ever remember even fathoming the fact that a customer 
could add one more dollar to a checking account or savings 
account to take you to $10 billion and you would be saddled 
with a $20 million burden and be treated as a large bank.
    So it is doing two things. It is, one, driving banks out of 
our industry. Senator Perdue certainly sees it in his State. 
Senator Tillis, Senator Scott, we certainly see it in ours. 
They cannot compete, and as you get larger, they realize they 
do not want to go over that $10 billion hurdle and they elect 
to exit.
    The other is for those that elect to stay in like our 
company, we are an 80-plus-year-old company. We are vitally 
important to many of the communities we serve. We wanted to 
stay in. But try to take the Dodd-Frank Act and put it over a 
bank with a little bit more than 100 offices compared to a 
national bank with 5,000 or 6,000. The burden is huge. So it 
ends up resulting on different forms of behavior. Companies 
decide to sell, or they have to cut expenses. In our case, we 
closed 10 percent of our branches. All of that money went 
toward regulatory reform, and it has taken the attention of our 
board and our management team and a lot of our employees over 3 
years to be able to make this journey. And now we have just 
crossed it. Now we begin to be treated as a large company.
    Senator Scott. Thank you, Mr. Hill. Facts and figures 
aside, at the end of the day I am worried about the Aiken 
family that is trying to buy their first home or the Nichols 
small business owner who just survived the flood and is now 
trying to get back on their feet.
    Mr. Hill, what is the impact of enforcing these arbitrary 
thresholds on economic growth and on the people of South 
Carolina? Specifically, you mentioned--my words, not yours--
$9.9 billion in assets versus $10 billion in assets, 10 percent 
closing of your locations, maybe up to $20 million of 
additional regulatory burden. How does that impact the average 
person in our State looking to borrow money for a home or 
restore their business after a major flood?
    Mr. Hill. Well, the midsize banks fill a very important gap 
between the smallest banks and the largest banks in our 
country. Because we are the community bank for South Carolina, 
we are very focused on communities like Aiken. Many of the 
large national banks would not know where that community would 
be. It does two things. One, it drives costs up. That is very 
simple, very clear. It is 15 to 20 percent. It takes 
flexibility away. It does not allow us to treat customers 
uniquely based on their needs, both financially and also their 
situation. And it paints in a one-size-fits-all regulatory 
environment.
    Senator Scott. Thank you, sir.
    Ranking Member Brown.
    Senator Brown. Thank you, Senator Scott.
    Professor Omarova, the Wall Street Journal recently said it 
is hard to miss how much the Treasury report would benefit top 
Wall Street banks. That comes from the paper of record, if you 
will, for Wall Street. By my count, the report includes about 
two dozen of The Clearing House's recommendations. You talked 
in your testimony, Professor Omarova, about the argument that 
rolling back rules for Wall Street banks would help lending. 
What are the implications of rolling back the capital and the 
leverage rules and the Volcker rule restrictions against 
proprietary trading? Would that, in fact, lead to more lending 
or economic growth?
    Ms. Omarova. Well, there is absolutely no evidence that it 
will, in fact, lead to more lending or economic growth. There 
is a lot of confusion about what capital rules do, because 
banks always tell us, oh, you know, capital just traps cash and 
we cannot lend money out. And nothing could be further from 
truth. Capital is not cash in the vault. It is not some kind of 
gold that, you know, they have to put away. Capital is just an 
accounting concept. It is basically shareholders' equity, and 
banks are forced by regulation to hold these cushions of 
shareholder equity to protect creditors from losses on their 
assets. They can get away with much thinner cushions than, you 
know, a normal company could get away with in the capitalist 
market because the Government protects creditors of the banks 
from banks' failure.
    And so if you roll back capital requirements, what will 
happen is that the banks will be able to take more risks. And 
because banks are privately owned, profit-seeking enterprises, 
quite legitimately they would look for investments in assets 
that generate higher returns, which typically entails higher 
risks. And that is what will happen. There is no evidence that 
somehow Dodd-Frank Act is what prevents banks from lending. You 
know, banks choose how to use their cash, and they choose 
their--for example, they choose to declare dividends out of 
their cash. And that directly takes away cash from lending.
    In my view, basically if we roll back these regulations, 
what we will have on our hands will be another crisis, and 
everybody in this room should be warned about that.
    Senator Brown. Thank you.
    Let me ask everybody on the panel--and I would prefer a yes 
or no, and I think you can answer this yes or no. This 
Committee has talked for some time--and the sitting Chairman 
was a leader in this issue 3 or 4 years ago--about housing 
finance reform and its importance to economic growth. I will 
not ask you for detailed thoughts because that would be a long, 
long answer from each of you. But if you would answer yes or 
no, do you think we should have hearings on the topic of 
housing finance reform and have an open process where you can 
weigh in and we can discuss it? Mr. Simmons.
    Mr. Simmons. Absolutely.
    Senator Brown. Mr. Baer.
    Mr. Baer. Yes.
    Senator Brown. Mr. Hill.
    Mr. Hill. Yes.
    Senator Brown. Professor Omarova.
    Ms. Omarova. Yes.
    Senator Brown. OK. Thank you. If that is the case for 
housing reform--I will start again on the left--do you think it 
should also be the case for the significant changes to health 
care?
    Mr. Simmons. It is not the purpose of the hearing, but yes.
    Senator Brown. Mr. Baer.
    Mr. Baer. I do not know. It is not my area of expertise.
    Senator Brown. But you are a citizen.
    Mr. Baer. I am a citizen who has saved a lot of time in my 
life by not thinking about health care reform because it is so 
difficult to understand, and I am sort of full up on bank 
regulatory----
    Senator Brown. But do you think we should have an open 
process and discuss it?
    Mr. Baer. I think in general open processes are better than 
closed processes.
    Senator Brown. Mr. Hill.
    Mr. Hill. I tend to think health care is important to the 
vital health of the local economies, and that the more 
discussion we can have to move that along, the better.
    Senator Brown. Professor Omarova.
    Ms. Omarova. Absolutely. There must be an open, democratic, 
and fully vetted process for deciding such an important issue. 
We all have to know what is going on.
    Senator Brown. OK. Thank you. And if we screw up either 
effort, whether it is Dodd-Frank, whether it is housing finance 
reform, whether it is health care, clearly the economy pays a 
price. I mean, we know that.
    Let me ask one last question, Professor Omarova, and give 
your answer as short as you can in complying with the 
President's request--the Chairman's request. You are not the 
President.
    [Laughter.]
    Senator Brown. Professor, you said reasonable people may 
disagree and argue about whether the current size threshold, 
$50 billion in assets, is the right one or whether a higher or 
lower number would be more socially beneficial. How do we 
balance providing--as we talk about tailoring Section 165, as I 
think we should, how do we balance providing appropriate relief 
for regional banks against the intent of 165 to mitigate risk 
to financial stability?
    Ms. Omarova. Well, that is a complicated question, but the 
one clear answer is that we should not just simply remove all 
regulation from regional banks because they are less than $1 
trillion in assets. As a group, they still present significant 
risks. If they fail as a group in a correlated set of failures, 
that will probably tank regional economies and maybe the 
national economy.
    Think about the S&L crisis in the 1980s. Those were also 
very small and traditional lenders, and when they were 
deregulated, those small traditional lenders almost brought 
down the financial system. And that is what we should think 
about today. We cannot look at these regionals in isolation. We 
definitely should think about how to tailor regulatory burden 
for them, but we cannot just blankly remove all the regulations 
because they are smaller.
    Senator Brown. Thank you, Mr. Chairman.
    Chairman Crapo [presiding]. Thank you.
    Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair, and thank you all for 
being here. I cannot imagine anyone sitting up at this dais 
would suggest just a blanket repeal of all regulations. It does 
not make sense. Regulations exist for a reason. Some of them 
are good. Some of them are awful. And I think that there are 
some manifestations of regulations that have been promulgated 
under Dodd-Frank that are absolutely awful.
    Mr. Baer, I want to ask you a question about the concept of 
tailoring the--instead of these simplistic, you know, $50 
billion, $250 billion sorts of thresholds that we create to 
determine the regulatory burden on the institution, I am more 
of a proponent of tailoring. I am getting to a point to where 
the regulatory burden is proportionate to the risk of the 
target being regulated. Could you give me some thought with 
respect to the regulatory environment that we have today--most 
of it is driven by Dodd-Frank; some of it pre-dated it--that 
you think lends itself to that kind of thought process and the 
benefits that you think would accrue by doing that?
    Mr. Baer. Yes, Senator, sure. I think when it comes to 
tailoring, you need to think about what risks does the 
institution present. You know, for example, does it have a 
capital markets business? Does it have multiple subsidiaries or 
only one? Is it primarily funded by deposits or is it funded in 
other ways? Then you think about what rule are we talking about 
here? Is it a living will? Is it capital requirements? Is it 
liquidity requirements? And then marry those two up.
    So, for example, the notion of having a living will for a 
small deposit-funded firm which is going to be in any event 
resolved, you know, under the pre-existing FDIC resolution 
process does not seem to make a lot of sense.
    There may be other rules. I mean, if you believe that there 
should not be proprietary trading, perhaps some of those rules 
should continue to apply. But, again, I think you need to make 
the decision based on firms in categories in terms of the risks 
they present and then the type of the rule you are talking 
about.
    Senator Tillis. The other thing that I find interesting, at 
least in some of the prior committees--I am sorry I was not 
here earlier; we have got four committees meeting at the same 
time, so I did not get to hear the testimony. But with an eye 
toward lean regulation, let us say that we go through that 
stratification, and we come up with a more coherent way of 
actually determining what regulatory burdens should be placed 
on a financial services institution. What about other areas in 
terms of executing-- and this is for anyone, but when I hear 
the big banks who would be at the highest level and have the 
highest amount of regs--and I guess in some cases if you get 
the methodology right, appropriately so. But would it make--how 
can it possibly make sense to have the stress test submissions 
be in the hundreds of thousands of pages? I mean, isn't there 
any thought given to how you create a leaner design around this 
and get the paperwork and the time and the costs associated 
with that out of it so that the consumers accrue a benefit, the 
money is being spent on value to the consumer versus compliance 
with the Government? Anyone have any opinion on specific things 
that we could potentially do to reduce that burden?
    Mr. Baer. I will just say briefly on CCAR, again, I think 
the length of the submission should vary with the complexity of 
the firm. There may be large firms that need very complex 
submissions. In fact, our view is with respect to the stress 
test that the DFAST models run by the banks, which are granular 
down to loan level, are actually appropriate and a better 
measure of capital perhaps than the opaque model that the 
Federal Reserve is running. But certainly for less complex 
firms, I think less burden would be appropriate.
    Mr. Hill. Senator, I would just add, if you look at--I 
could sit down and explain our balance sheet to you in about 5 
minutes. It is pretty simple. It does not take complex 
algorithms and quants to be able to figure out the sensitivity 
of our company. I think it ultimately comes down to capital, 
how much you hold--that is what is going to protect all of us 
when we have the next downturn. And I think the Basel limits, I 
think looking at capital rules, actually provide much more 
sound banking practices than some theoretical analysis on 
sensitivity.
    Mr. Simmons. I might just add, you know, our CCAR 
submission runs over 12,000 pages. You reach points of 
diminishing return pretty quickly in a very straightforward 
business model. We find the process itself to be useful, but 
the incredible degree of precision to which the Federal Reserve 
has pushed this does not yield benefits commensurate with the 
cost.
    Senator Tillis. We all know that has a disproportionate 
impact on smaller banking institutions, but all of the 
regulations that we are heaping on that I think have reached a 
point of diminishing returns we have got to look at and right-
size. There was clearly a risk in 2008 that we had to produce 
regulations to avoid in the future, but we have clearly gone 
too far. And I have to take exception with anybody who thinks 
that everybody who wants a loan can get it today. The reality 
is a lot of people--it is sort of like people who leave the 
labor market, and so they are just not searching for work 
anymore. There are entire business enterprises that are not 
looking for capital because they do not think they can get it 
or the cost of getting it is just too great. And it is having a 
chilling effect on our economic growth. That is one of the 
reasons why we have such anemic economic growth. And unless we 
start right-sizing some of these regulations and recognize 
there is a lot of pent-up demand for capital and that the root 
of that are a lot of regulations that overreached in Dodd-
Frank, then we are not going to get to the sort of economic 
activity that we need to get to, to then dig ourselves out of 
this $20 trillion in debt.
    On the report, I had a lot of questions to ask you, but I 
have gone over, and I normally do not go over, Mr. Chair.
    Chairman Crapo. We will take it out of next time.
    Senator Tillis. But there are a number of things that, if I 
may in follow-up questions for the record, I would like to go 
into the report itself, and some of the priorities and 
objectives, we would like your input, because I think this is 
critically--it is one of the most critical things we can do to 
really get economic activity where we need it to be.
    Thank you all for being here.
    Chairman Crapo. Thank you.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman. I actually only 
have one question, and that would be for Mr. Hill.
    Senator Toomey and I have previously introduced a bill to 
increase CFPB examination thresholds from $10 billion to $50 
billion. How would that make things better for your customers--
not so much the bank, but what does that do for your customers?
    Mr. Hill. Senator, it is a great question. I think that you 
can take the CFPB, but you can take numerous parts of Dodd-
Frank legislation and really kind of put them all under the 
same umbrella. Removing that $10 billion threshold for the 
company and also for a customer, it just makes things less 
complex. If we want to talk about getting more money to Main 
Street, more money to the individual, having one more regulator 
is not a way to accomplish that. We have multiple regulators 
already, and now we will have an additional one now that we 
just crossed CFPB.
    So I think a lot of this is about what makes sense and what 
simplifies it. We have a very close relationship with our 
regulators----
    Senator Donnelly. And it would not reduce safety or 
stability in your organization, would it?
    Mr. Hill. No, sir. Our primary regulator is the FDIC. We 
have a very close relationship. They are in----
    Senator Donnelly. Those are obviously critical elements.
    Mr. Hill. Absolutely. And I think they should be. I just 
think they can be done by our existing regulatory bodies.
    Senator Donnelly. All right. Thank you.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you, Senator Donnelly.
    Senator Donnelly. I made up for Mr. Tillis.
    Chairman Crapo. You did, and I appreciate it very much.
    As I indicated at the beginning of the hearing, we have a 
hard stop at 11 because we have three votes, and so I 
appreciate that time. You will get an extra credit.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman. I, too, am sorry 
I am late, but I was not watching ``The Price Is Right''. I was 
in a committee, OK?
    [Laughter.]
    Senator Kennedy. Mr. Hill, I wanted to--you have been 
there. Do you still run a bank? I notice you have been 
president and chief operating officer.
    Mr. Hill. Yes, sir. I am actively running the bank day to 
day and have been for the last 22 years.
    Senator Kennedy. About $8 billion in assets?
    Mr. Hill. We just crossed $10 billion in January. We are 
roughly $11.5 billion today.
    Senator Kennedy. How many people do you have in your 
compliance department?
    Mr. Hill. This is an estimate, but it would be roughly 50 
direct employees, but then there are numerous compliance people 
embedded in our lines of business across our company.
    Senator Kennedy. So some do it full-time, some do it part-
time.
    Mr. Hill. And some are just in a full-time compliance role, 
and some are in the active day-to-day administering of the 
process. And so there is some overlap there. But compared to 5 
or 6 years ago, that is probably tenfold.
    Senator Kennedy. OK. That was my question. Tenfold.
    Mr. Hill. And if you look at the cost of that--I look at 
ultimately what does that mean to the customer. I think Senator 
Donnelly's question was: What does it mean to the customer? 
What this means to the customer for a mortgage loan is our cost 
to deliver a mortgage loan is roughly $1,000 more today than it 
was just a few years ago, mainly because of the increased 
compliance costs.
    Senator Kennedy. OK. Let me break that down, though. Today 
you have roughly 50, plus a number of employees that are part-
time, if you will, and that is tenfold. OK?
    Mr. Hill. Yes.
    Senator Kennedy. How much are you spending on those 50 
employees?
    Mr. Hill. It would be, you know--I guess it would be in the 
several million dollars range.
    Senator Kennedy. OK. And do you believe that these 
additional employees are a direct result of Dodd-Frank?
    Mr. Hill. Oh, they are. Yes, sir. To comply with the rules 
and regulations, two things happened: We had to close ten 
offices. We saved almost $5 million from closing those ten 
offices. All that money was spent directly on complying with 
Dodd-Frank.
    Now, there is a lot more than just that $5 million, but 
that all was directly spent--a large part of that was in 
process and compliance-related efforts.
    Senator Kennedy. How much did your bank make last year?
    Mr. Hill. Our company last year made--this is an estimate.
    Senator Kennedy. Sure.
    Mr. Hill. In the $65 million range.
    Senator Kennedy. OK. Has Dodd-Frank helped at all?
    Mr. Hill. Yes, sir. I do believe there have been parts of 
Dodd-Frank that have been positive. I think the most important 
piece is the capital. The banking industry as a whole is 
holding more capital today than we did. We are less leveraged 
as an industry. That is the ultimate safety net. Regulation is 
not the ultimate safety net. Capital is the ultimate safety 
net. And banks across the board today are holding more 
capital--our bank included. But we never levered up like many 
of the large companies did. We are still holding more capital 
than we have.
    So there have been things that have been done that have 
been vitally important. But to go back to the $10 billion 
threshold, we are choking out the most vitally important part 
of our community banking system by having this arbitrary 
threshold. And it is making people leave the industry or 
significantly limiting their ability to impact their local 
community because we are--while we are in the same industry as 
the large banks, we are really significantly different 
companies.
    Senator Kennedy. You have been in this business--well, you 
all have. Has there ever been a time when the Federal 
Government and its regulation of your industry really did sit 
down and say what are the costs and what are the benefits and 
make the sort of calculation that normal people do every day in 
their business or in their family? Or is that just lip service? 
Have we ever done it right?
    Mr. Hill. Senator, I have been doing this 30 years. I have 
seen a lot of regulation come and go. Most of it has been 
constructive. You figure out a way to deal with it. And I have 
never felt the need to reach out to a Senator about that 
regulation until now. But this arbitrary $10 billion threshold 
is a painful process that is costing our consumer and our 
communities and local economies, and we are overregulating a 
systemically important part of our economy, which is our 
community banks.
    Senator Kennedy. Thank you, Mr. Chairman.
    Chairman Crapo. Thank you.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Mr. Chairman.
    I am actually over here in the corner. Good morning. Thank 
you for joining us.
    So let me start off with the first question, and I will 
open it up to the panel. As a new Senator from the great State 
of Nevada, I was not here for the debate on Wall Street reform, 
but let me tell you, as the Attorney General there for 8 years 
watching as the crisis unfolded and the impact to the State of 
Nevada, I was paying close attention. If you do not know, it 
was ground zero for the foreclosure crisis, highest 
unemployment, more people in foreclosure than, I think, in the 
rest of the country. At one point in time, 64 weeks, we had the 
highest rate of foreclosure, highest loan-to-value ratio, 70 
percent of homeowners underwater. Devastating.
    And so I am curious your thoughts on this. One thing I am 
concerned about what I have seen is that President Trump's 
Executive order on financial regulation did not once mention 
consumer or investor protection. And in looking at the 150-page 
report that was released by the Treasury Department this week 
in response to that Executive order, they did not offer one 
single example where additional protections for students, 
servicemembers, or seniors were needed.
    If we are going to do a wholesale review of financial 
rules, shouldn't we look at both additional needed protections 
and regulatory relief? Isn't that the type of balance we should 
be looking at? I open that up to all of you.
    Mr. Baer. Senator, I agree. I think absolutely, you know, 
any review of post-crisis regulation should include consumer 
regulation. I think, you know, one issue that we focused on----
    Senator Cortez Masto. Not consumer regulation. Consumer 
protection and regulations to protect consumers.
    Mr. Baer. Absolutely.
    Senator Cortez Masto. Right.
    Mr. Baer. I agree.
    Mr. Simmons. In my view, a lot of the products--we operate 
in Nevada. It is Nevada State Bank. And we suffered huge 
losses, not from mortgages but from financing land improvements 
and from businesses. And so we certainly experienced a lot of 
that pain.
    There have been a lot of consumer protections put in and 
many of them probably necessary. We ought to be looking at 
both. But the combination, the layering of all of this has made 
this industry increasingly sclerotic and unable to meet the 
legitimate needs of customers in a way that is sensible and 
prudent and logical.
    And so I think any of us would be open to looking at are 
there needs for additional consumer protections. That should be 
on the table. But that is not where the real problem is from 
the point of view of us who are trying to deliver services to 
consumers and businesses who are in need of them today.
    Senator Cortez Masto. So one of the consumer protections 
that I thought was very important and I fought for as Attorney 
General were servicing standards. I think we need those, and I 
am concerned that there is this idea that we need to do away 
with them, roll those back somehow. I am curious your thoughts 
on that.
    Mr. Simmons. I am not aware of any argument being made by 
the industry to roll back any protections for consumers in the 
servicing standards. I do not think that is what we are here to 
defend.
    Senator Cortez Masto. Great. Thank you.
    Anyone else have any other comments in general about 
consumer protection and that should be a part of this 
discussion?
    Mr. Hill. Senator, we are a community bank. We have roughly 
700,000 customers. I think the overarching thing for us is 
doing away with the $10 billion threshold because we are 
treating community banks like large banks. And I think that 
consumer protection is a vitally important part of the role for 
regulatory bodies and also for the banks. But I just think it 
can be done by our existing regulator. We do not need a new 
regulator for a community bank with 100 offices to be able to 
do that. FDIC is in our offices almost year round, knows our 
company very, very well, and I think it effectively enforces 
that protection.
    Senator Cortez Masto. Thank you.
    Dr. Omarova, do you have any comments?
    Ms. Omarova. I just have a general sort of observation that 
banks will never publicly say anything against consumer 
protection per se because that is bad PR, and yet they always 
admit that the second that regulatory costs increase, they will 
immediately pass those regulatory costs on to consumers. And 
then they say, therefore, you should not regulate us because it 
is costly.
    To me, that is not consumer protection. Banks' 
shareholders, banks' managers, those are the guys who should be 
eating those additional regulatory costs. To me, that is the 
essence of consumer protection in practice.
    Senator Cortez Masto. Thank you. Go ahead.
    Mr. Baer. Senator, not, you know, purely consumer 
protection, but I do think there is a lot of research to be 
done, and we have done some research, including a recent 
edition of our quarterly magazine, around the question of 
income inequality and bank regulation. I think the evidence 
shows that one outcome of a lot of the post-crisis rules, 
including even down to the level of stress testing, where the 
assumption is that there is a very large rise in unemployment, 
which tends to cause banks to, you know, more highly price 
loans to people who are subject to that or are likely to be 
affected by that spike in unemployment. There has definitely 
been an increase in the price of credit to people at the lower-
income end of the spectrum, and a lot of that in very subtle 
but very meaningful ways has to do with regulation. And so, 
yes, consumer protection is really important, but we also think 
access to credit for consumers, particularly low- and moderate-
income consumers, is really important. And that is the reason 
that we have devoted increasing amounts of our research to it, 
but we really think others should as well.
    Senator Cortez Masto. Thank you. I notice my time is up. 
Thank you very much for your comments.
    Chairman Crapo. Thank you. And as I have indicated before, 
we have a hard stop at 11 o'clock. I have not asked my 
questions yet. That makes three of us if no one else comes. I 
am going to have Senator Cotton and then Senator Warren go. 
That will give me a couple of minutes at the end, and maybe I 
can scoot it a little past 11 and get my 5 minutes in, too.
    Senator Cotton.
    Senator Cotton. Will I get my bills and amendments voted on 
earlier if I give my time to you?
    [Laughter.]
    Chairman Crapo. Oh, yeah. There is extra credit here.
    Senator Cotton. Mr. Hill, I know you have spoken about the 
various threshold levels, $10 billion, $50 billion, and the 
burdens those bring. I want to talk a little bit about the 
arbitrariness of that. Obviously, anytime you pick a number, it 
is somewhat arbitrary, you know, whether it is the designation 
for a systemically important financial institution or a speed 
limit or an age to vote or an age to drink alcohol. But in this 
field, I mean, what are we talking about here in terms of an 
institution that might hit a $10 or a $50 billion threshold? 
Are we talking about thousands or hundreds of thousands of 
institutions? Or are we talking of a scale of maybe a few 
dozen?
    Mr. Hill. Well, if you look at the 10 to 50 ranks, there 
are 79 of us.
    Senator Cotton. OK. That is what I thought. It would seem 
that that could be done on a more discriminating basis than an 
arbitrary threshold, wouldn't it?
    Mr. Hill. Yes, sir. It is just not a risk-based approach, 
and companies--customers are different and banks are different. 
A risk-based approach versus a one-size-fits-all regulation 
does not make sense. In my mind, it is quite simple. The role 
here is risk management. We do not want another financial 
crisis. And the risks come from the ``too big to fail'' banks. 
So, to me, we need to regulate them as one industry, and then 
outside of that, they are mostly community banks or large 
community banks like our company. And I think those are very 
different type banks.
    Senator Cotton. So, in principle, you could have a $50 
billion bank, or a $500 billion bank for that matter, that is 
relatively plain vanilla, conservative, and, therefore, not all 
that risky?
    Mr. Hill. Well, I cannot speak to all the 500. I can speak 
to the 10 to 50s, and I think I can speak to a bank somewhat 
like Mr. Simmons', which is basically just a larger community 
bank. But because we have done things right, because we have 
attracted customers, because we help small businesses, we have 
grown. And today we are penalized when we take that incremental 
dollar over $10 billion.
    Senator Cotton. And when you say ``community bank'' there, 
to be exact, in this context, I think I understand you to mean 
focusing on the functions that a bank performs.
    Mr. Hill. Operating as a community bank. While we are $11.5 
billion today, our operating model is the same as it was when 
we were $400 million. We are just in more communities.
    Senator Cotton. Isn't there an old joke about taking it in 
at 3, lending it out at 6, and hitting the golf course by 3:00?
    [Laughter.]
    Mr. Hill. I think that was before I joined the industry.
    Senator Cotton. But the point being that this risk analysis 
is primarily--or this analysis should be primarily risk-based, 
based on the nature of the institutions, or the nature of the 
functions an institution performs, and, therefore, a relatively 
large institution can be engaged in relatively low-risk 
activities. But by the same token, an institution of less than 
$50 or less than $10 billion, because of the nature of its 
positions and interlocking counterparties could actually be 
quite risky. Correct?
    Mr. Hill. Correct. And I think just the opposite of that. 
We want to incent less risk in our financial services industry. 
So what better way to do that than hold the adequate amount of 
capital, be in the less risky businesses. We have never done 
any proprietary trading. So if you are in that business, hold 
more capital. You are going to have more regulation. But if you 
do operate a simple business model that positively impacts our 
community, those are the ones that we have to be careful that 
we do not go too far. Dodd-Frank did a lot of good things. It 
overreached in this $10 to $50 billion sector and treated that 
sector as it does many of the large banks in our country.
    Senator Cotton. OK. Just to tie a bow on this part of the 
conversation, I would say that I think the size of an 
institution obviously needs to be a part of this analysis, but 
a simple size-based approach does not seem to make much sense 
to me. And given the number of institutions we are discussing 
here, you would think that our financial regulatory agencies 
could have a more discriminating approach. Again, we are not 
dealing with, you know, millions of Americans who become 18 
years old every year and, therefore, we just have to draw an 
arbitrary line, even though we all know that some 17-year-olds 
are very mature and exercise good judgment and plenty of 19-
year-olds do not, when you are talking about something on the 
order of a few dozen institutions that we can take a more 
sensible and case-by-case approach, with size being one factor 
in that analysis.
    I will yield 40 second back to the Chairman so I can get a 
chit in the future.
    Chairman Crapo. We will keep that record.
    Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    So after the financial crisis, Congress determined that 
banks with more than $50 billion in assets--this is about 
roughly the 40 biggest banks in the country--posed a greater 
risk to the economy than community banks and credit unions. And 
so we required the Federal Reserve to apply tougher rules and 
more oversight to those banks. And now those banks want to 
eliminate the $50 billion threshold. They want to cut all but 
the very biggest banks loose from stricter oversight, and they 
want to restrict the Federal regulators from applying tougher 
rules except under somewhat more limited circumstances. So, in 
other words, this is about rolling back a big part of Dodd-
Frank, and I just want to take a look at that.
    Mr. Simmons, you are the CEO of Zions Bank, which is one of 
the banks that would avoid tougher rules under the industry's 
proposal. And in your written testimony, you argue that the 
current approach covers too many banks given the minimal risks 
posed by banks like yours, and that we are unnecessarily making 
it harder for banks like yours to lend. Do I have that about 
right?
    Mr. Simmons. Yeah.
    Senator Warren. Yeah, OK. Now, those arguments sounded very 
familiar to me, so I went back and looked, and it turns out 
that back in September of 2006, just 2 years before the 
financial crisis, you were the head of Zions Bank, and you 
testified before the House Financial Services Committee. Your 
testimony strongly opposed guidance from Federal regulators 
that increased the oversight for banks that had a high 
concentration of commercial real estate loans. Regulators were 
worried that the banks were overly exposed to one category of 
lending and that might put them at greater risk of failing. You 
thought, ``Ah, there is no problem.'' And in opposing the 
guidance--I want to quote you on this--you said, ``The guidance 
has been proposed at a time when the banking industry is 
exceptionally healthy.''
    Another one from you in this testimony: ``Commercial real 
estate loans in particular have performed exceptionally well.''
    Another one: ``By using blanket industry-wide guidance to 
address concentrations, the regulators risk choking off the 
flow of credit from banks that are engaging in commercial real 
estate lending in a safe, sound, and profitable manner.''
    Now, within 2 years of your testimony, the bank you led, 
Zions, needed nearly $1.5 billion in taxpayer bailout money to 
stay afloat. And here is the kicker: That was in part because 
your bank was highly concentrated in commercial real estate 
lending, the exact thing that you told Congress was not an 
issue, nothing to worry about.
    So, Mr. Simmons, when you say today that Congress can 
safely roll back the rules on banks like yours and there will 
not be any risks to taxpayers, why should anyone believe you?
    Mr. Simmons. Well, listen, what we are saying is that the 
enhanced prudential standards in Section 165 of Dodd-Frank are 
industrial strength and intended, in my way of thinking about 
this, for institutions that pose a----
    Senator Warren. Mr. Simmons, let me stop you right there 
because I know we are really trying to do this quickly. I am 
not asking you to repeat your argument. We have already agreed 
on what your argument is. The question I am asking, given your 
previous testimony about how there is no problem here, and then 
it turned out you needed $1.5 billion in bailout money on 
exactly the thing you testified was not a problem, I am asking 
why anybody should believe you when you come in here today and 
say no problem in this area, let the $50 billion and above 
banks go ahead. I am just trying to understand why you have any 
credibility on this issue.
    Mr. Simmons. Well, listen, because I deal with it every 
day, and because----
    Senator Warren. Well, you dealt with it every day back when 
you testified in 2006, and the taxpayers had to pony up $1.5 
billion to save your bank.
    Mr. Simmons. Listen, every large bank took TARP money and 
without----
    Senator Warren. I am sorry. So your argument is that you 
were right or wrong----
    Mr. Simmons. The one large bank that did not receive it, 
National City, was sold a week later. This was a matter of 
preserving confidence across the industry. Our capital, our 
equity capital, always remained above the regulatory minimums.
    Senator Warren. I am sorry, Mr. Simmons. Are you trying to 
make the argument that you did not have a problem? You know, 
because actually----
    Mr. Simmons. We incurred stress, but we never saw equity 
capital, common equity capital----
    Senator Warren. Let us just be clear about----
    Mr. Simmons. --decline below the regulatory minimums.
    Senator Warren. ----the problem. The regulators actually 
went back in 2013 to reexamine their earlier guidance, the 
guidance you had said was unnecessary, and they found, ``During 
the 3-year economic downturn, banks with high commercial real 
estate concentration levels proved to be far more susceptible 
to failure. Specifically, 23 percent of the banks that were 
highly concentrated in commercial real estate lending,'' what 
you had testified about, ``failed compared with only one-half 
of 1 percent of the banks that were not.''
    So I understand we are out of time. I just want to say 
here, you know, what I notice about this is whenever things are 
going OK, the banks come in here and say, ``Yay, let us reduce 
the rules, let us let everybody go out. What could possibly go 
wrong?'' And then when things go wrong, banks like yours line 
up and say to the taxpayers, ``Bail me out.''
    Our job is to make sure that we do not permit the next 
failure to happen because it helps short-term bank profits. Our 
job is to watch out for the taxpayers and the security of this 
economy.
    Thank you, Mr. Chairman. I apologize for going over.
    Chairman Crapo. We are going to put that on your record, 
too.
    [Laughter.]
    Chairman Crapo. Just kidding.
    Senator Warren. Well, it is not the first time.
    Chairman Crapo. Thank you. And I will take my questions 
now. I will try not to go 5 minutes because we do have a vote 
starting in about 1 minute.
    Mr. Simmons, I would like to ask you to finish the comment 
that you were making just a moment ago with Senator Warren 
about your equity capital back at the time when the stress 
started to arise and the collapse in the housing market.
    Mr. Simmons. Well, listen, capital across the industry has 
increased dramatically. It has for us. It has more than 
doubled. It is about 120 percent of what it was back in 2006. 
Common equity capital, relative to risk-weighted assets, has 
increased from about 5.5 percent to about 12.2 percent. So we 
have not only a strong industry, but we have the strongest 
banking industry in the world. So there is a lot of equity 
capital in the industry today.
    Chairman Crapo. All right. Thank you. And again, Mr. 
Simmons, over the past few years, a number of financial 
regulators have made comments before this Committee supporting 
changes to the $50 billion SIFI threshold, including Federal 
Reserve Chair Yellen, former Federal Reserve Governor Tarullo, 
and former Comptroller Curry, and these are those who are the 
regulators, in some cases were the regulators who are tasked 
with getting it right to deal with the risk in our economy.
    While there are different views on what to replace the 
threshold with, it seems to me there is general bipartisan 
agreement that a bank is not systemically important simply 
because its assets exceed $50 billion. If the SIFI threshold 
was amended so that noncomplex banks like Zions were no longer 
subject to those enhanced standards, how would that impact the 
broader economy?
    Mr. Simmons. Well, it would--as I indicated, we have 
become, I think, as an industry quite--just sclerotic in terms 
of our ability to do business. I have a letter here from a 
customer up in Seattle. It says, ``When Kerri''--I talked to 
one of our people up there. ``When Kerri Knudsen informed me 
last week the bank could not provide construction financing for 
my upcoming development project, I was shocked. The concept 
that a $3 million construction loan was not possible left me 
dumbfounded. It leaves me incredulous that a multi-billion-
dollar institution is maxed out.'' It goes on to talk about 
this. ``After 22 years of doing business together, I hit the 
streets looking for a construction loan.''
    We find ourselves trying to guess what is in the Federal 
Reserve's models, in their CCAR models. We know that it is--I 
mean, we have some vague outline of how--you know, what the 
results are, but we do not know really how it is treating 
individual loans. This lack of transparency is my major beef 
with the CCAR regime. But the overlay of all of these 
regulations has made it increasingly difficult to do business, 
and for us, small businesses are sort of our forte, and we feel 
kind of crippled in terms of our ability to serve them.
    Chairman Crapo. Well, thank you. And I actually get letters 
and visits from businessmen and women in Idaho who have the 
same kind of concerns about the inability to get the kind of 
financing that just seems so obviously appropriate. So I 
understand the point you are making.
    And one other point there quickly. If banks over $50 
billion right now were no longer subject to the SIFI 
thresholds, the $50 billion SIFI threshold, isn't it true that 
they are still subject to very extensive safety and soundness 
regulation across the system?
    Mr. Simmons. Absolutely. Always have been, always will be. 
And stress testing will remain a central part of what we do.
    Chairman Crapo. And they will still conduct stress tests.
    Mr. Simmons. Absolutely.
    Chairman Crapo. I wanted to make it clear. Some make it 
look like there is an exemption of regulation being discussed 
here. It is a refinement and a tailoring of the type of 
regulation that we are talking about.
    Obviously, my time is up, and I think you heard the bells 
go off, so this is going to have to be my last question, and 
this is for you, Mr. Hill. I apologize to the other witnesses. 
I do have questions for you, too. I will submit those.
    But you mentioned in your opening testimony that your bank 
recently crossed above the $10 threshold and as a result needs 
to comply with numerous additional requirements, including the 
Dodd-Frank Act stress test known as DFAST. Can you explain the 
various steps your bank has had to take to comply with this 
requirement?
    Mr. Hill. Well, I think from a financial perspective, the 
overall cost is several million dollars, and most of that is in 
terms of buying very sophisticated models to stress-test our 
bank under various different circumstances and add the 
quantitative--the employees who have a quantitative background 
to be able to do that. And so the ultimate impact is several 
million dollars, more overhead, more complexity, for a balance 
sheet that is relatively simple.
    Chairman Crapo. And has that caused the cost of a mortgage 
to your customers to go up?
    Mr. Hill. Our costs of our mortgage loans have risen 
multifaceted. I do not think you could put it all on DFAST or 
QM or any others. But when you put all that regulation together 
that comes with that $10 billion threshold, for every mortgage 
loans we make it costs us $1,000 more to make it today than it 
did just a few years ago.
    Chairman Crapo. And who pays that $1,000?
    Mr. Hill. It ends up out of the customer's pocket.
    Chairman Crapo. So if we were talking about consumer 
protection, if we could reduce the cost of that mortgage and 
still maintain the safety and soundness, would that not be some 
of the best consumer protection we could achieve?
    Mr. Hill. It seems very logical to me, Senator.
    Chairman Crapo. Well, thank you.
    And to the others here, I apologize I did not get toy with 
my questions. I apologize to everybody. Usually we have the 
time to go on and have even a second round of questions. But 
today we are wrapping up an Iran sanctions bill, and we are 
going to be doing the final three votes on it starting right 
now.
    So before I close this hearing, I want to alert all 
Senators that they should submit their further questions by 
Thursday, and you will probably receive some further written 
questions. I urge you to respond to those written questions as 
promptly as you can.
    Again, I want to thank all of you for coming and giving us 
your time and your advice today. I assure you that both your 
written and your oral testimony is very thoroughly reviewed and 
utilized by us, and we are working together to try to build a 
very strong package.
    As you probably are aware, we are not calling it 
``regulatory reform.'' We are calling it ``economic growth.'' 
And we are looking for statutory and regulatory reforms that 
will help to grow the economy while still maintaining safety 
and soundness in our financial institutions. I think that is 
achievable. Thank you for being here to help us on that.
    With that, this hearing is adjourned.
    [Whereupon, at 11:07 a.m., the hearing was adjourned.]
    [Prepared statements, responses to written questions, and 
additional material supplied for the record follow:]
                PREPARED STATEMENT OF HARRIS H. SIMMONS
 Chairman and Chief Executive Officer, Zions Bancorporation, on behalf 
                     of the Regional Bank Coalition
                             June 15, 2017
I. Introduction
    Chairman Crapo, Ranking Member Brown, and Members of the Committee, 
thank you for the opportunity to appear before you this morning. I am 
Chairman and CEO of Zions Bancorporation, a $65 billion dollar (total 
assets) bank holding company headquartered in Salt Lake City, Utah. We 
primarily operate in 11 western States, with local management teams and 
brand names, from Texas to the West Coast, including the Chairman's 
home State of Idaho, where we are the third largest bank in the market, 
and where we have consistently been the largest SBA lender. Indeed, we 
have a particular focus on serving small and midsized businesses and 
municipalities throughout the West. We believe we are very good at 
serving such customers, and are proud to have been consistently 
recognized by small and middle-market businesses as one of the best 
banks in the Nation in providing banking services to such clients, as 
measured by the number of Excellence Awards conferred through Greenwich 
Research Associates' survey of approximately 30,000 small and middle 
market businesses across the country each year. Virtually all our 
banking activities are very traditional in nature, with a 
straightforward business model that is highly focused on taking 
deposits, making loans, and providing our customers with a high degree 
of service. We are primarily a commercial lender, which is to say that 
we are especially focused on lending to businesses. We provide 
approximately one-third as much credit to businesses, in loan sizes 
between $100,000 and $1,000,000, as Bank of America does in aggregate--
underscoring our focus on serving smaller businesses in the markets we 
serve. And we do so without presenting the type of systemic risk that 
is characteristic of the very largest banking organizations. Together 
with other regional banks, we are highly focused on delivering credit 
and depository services to the small and midsized businesses that have 
been America's engine of economic growth.
    Zions Bancorporation has the distinction of currently being the 
smallest of the Systemically Important Financial Institutions--or 
``SIFIs''--in accordance with the $50 billion asset threshold for the 
determination of systemic importance as defined in section 165 of the 
Dodd-Frank Act. And while we are proud of the services we provide to 
our customers, and believe we incrementally make a real difference in 
the local markets in which we operate, we certainly do not consider 
ourselves to be systemically important to the United States economy. We 
in fact half-jokingly refer to our company as an ``Itty Bitty SIFI,'' 
and we see evidence that an increasing number of thoughtful observers, 
including our own regulators, are of the opinion that we, and other 
regional banks, are of neither the size, complexity nor critical 
importance to the workings of the U.S. economy to warrant the scope, 
intensity and cost of additional regulation that the automatic 
designation as a SIFI carries with it. \1\
---------------------------------------------------------------------------
     \1\ See, e.g., remarks of Federal Reserve Board Governor Daniel K. 
Tarullo in his testimony before the U.S. Senate Committee on Banking, 
Housing, and Urban Affairs, March 19, 2015.
---------------------------------------------------------------------------
II. Regional Banks Have Simpler Business Models That Fundamentally Pose 
        Less Risk Than the Nation's Largest Money Center Banks
    Regional banks overwhelmingly operate with straightforward, 
traditional business models that focus on receiving deposits and making 
loans. In my own bank's case, only 4.8 percent of our total assets are 
financed with short-term nondeposit liabilities. And the great majority 
of our loans are secured with various forms of collateral, providing a 
secondary means of repayment. Like community banks, regional banks 
focus on providing credit not only to consumers, but to small and 
midsized businesses. For example, in the case of Zions Bancorporation, 
business loans between $100,000 and $1 million in size comprise 19 
percent of our entire commercial loan portfolio, as compared to 
approximately 2 percent for Citigroup and 7 percent for JPMorgan Chase.
    The revenue streams of regional banks are primarily generated 
through lending spread income and the provision of ancillary services 
to customers with long-term relationships with the bank. There is much 
less focus on ``transactional'' income from trading and capital markets 
activities. Indeed, approximately 90 percent of the banking industry's 
total trading income last year was generated by five of the industry's 
largest banks, each of which is considered by regulators to be a Global 
Systemically Important Bank (G-SIB), and none of which was a regional 
institution.
    Using a more fulsome measure of risk than sheer asset size, 2 years 
ago the Treasury Department's Office of Financial Research (OFR) 
published a report on the relative systemic risk posed by 33 U.S. bank 
holding companies. \2\ The methodology employed was a systemic risk 
scorecard developed by the Basel Committee on Bank Supervision (Basel 
Committee) and published by the Financial Stability Board (FSB), using 
data provided by bank holding companies on Federal Reserve Form Y-15 
with regard to an institution's size, interconnectedness, 
substitutability, complexity and cross-jurisdictional activities. The 
highest score, denoted as a percentage, belonged to JPMorgan Chase & 
Co., with a score of 5.05 percent, followed by Citigroup at 4.27 
percent. Applying the OFR/Basel Committee methodology to the two dozen 
regional banks with assets of over $50 billion, and thus designated as 
Systemically Important Financial Institutions (SIFIs) under provisions 
of the Dodd-Frank Act, the aggregate risk score of the regionals as a 
group (including banks as large as U.S. Bancorp and PNC Financial 
Services Group, Inc.) is less than the score of either JPMorgan Chase 
or Citigroup. The very largest banks, which pose the type of systemic 
risk to the economy that Section 165 of the Dodd-Frank Act was meant to 
circumscribe, are characterized by not only substantially larger 
nominal asset exposures than those presented by regional banks, but 
also by complex--and often global--organizational structures, 
substantial off-balance sheet and market-making activities, and a high 
degree of interconnectedness throughout the financial sector and in the 
larger economy. For example, while JPMorgan Chase & Co.'s balance sheet 
is 39 times the size of Zions Bancorporation's, it's total payments 
activity last year was 616 times larger than Zions' levels, and its 
total derivatives exposures are 5,253 times larger than ours. The same 
general relative risk exposures characterize the entire regional bank 
group.
---------------------------------------------------------------------------
     \2\ Office of Financial Research Brief Series, 15-01, February 12, 
2015.
---------------------------------------------------------------------------
III. The Dodd-Frank Act's Arbitrary Asset Thresholds Are Stifling Our 
        Ability To Serve Customers and Foster Economic Growth
a. Stress Testing and Capital Planning
    As a covered institution, or SIFI, under section 165 of the Dodd-
Frank Act, Zions Bancorporation is subject not only to the Act's 
rigorous stress testing (Dodd-Frank Act Stress Test, or ``DFAST'') 
requirements, but to the annual Comprehensive Capital Analysis and 
Review (CCAR) conducted in conjunction with the annual DFAST exercise. 
The DFAST process is intensive, time-consuming and costly. It involves 
the development and continual maintenance of sophisticated statistical 
models designed to project a bank's performance over the course of a 
hypothetical nine-quarter period of severe economic stress, using 
scenarios incorporating a variety of macroeconomic variables supplied 
annually by the Federal Reserve, and supplemented by a bank holding 
company's own variables and assumptions reflecting any of its 
idiosyncratic risk exposures. These statistical models are expected to 
be capable of projecting the likely outcomes and interrelated effects 
of each line item on a bank holding company's income statement and 
balance sheet, and the resulting impact on capital levels, based on a 
granular analysis of a bank's individual assets and liabilities. They 
must be developed based on historical performance, back-tested, 
validated, audited, and documented. So-called ``challenger'' models 
must also be developed to identify potential weaknesses inherent in the 
more material primary models. And the entire process must be conducted 
under a rigorous governance process involving both the bank's 
management and board of directors.
    Each of the bank holding companies required to participate in the 
Federal Reserve's supervisory stress test exercise furnishes the 
Federal Reserve with millions of data elements derived from individual 
loans and other balance sheet items on Form FR Y-14. This data is used 
both in the banks' internal stress tests and in the Federal Reserve's 
own models to project risk-weighted assets and capital levels during, 
and at the conclusion of, the hypothetical period of severe stress in 
an attempt to ensure that capital levels under stress will not breach 
minimum regulatory standards. The CCAR exercise builds on the DFAST 
process by incorporating a firm's projected capital actions over the 
nine-quarter projection period. The objective is to determine that a 
bank holding company's projected capital actions would not, during a 
period of stress such as that reflected in the stress test, impair 
capital levels below required regulatory capital thresholds.
    After evaluating the results of its own and the banks' stress tests 
and capital plans, the Federal Reserve provides each covered 
institution with a quantitative assessment of its capital levels. \3\ 
Zions Bancorporation has been a participant in the CCAR process for the 
past several years. We have spent well over $25 million in outside 
consulting feels, and many thousands of hours of management and board 
time focused on CCAR. We annually submit the equivalent of 
approximately 12,500 pages of detailed mathematical models, analysis 
and narrative to the Federal Reserve incorporating our CCAR projections 
and capital plans. We also complete a mid-year stress test exercise to 
complement the more intensive annual submission.
---------------------------------------------------------------------------
     \3\ The Federal Reserve also provides large, complex banking 
organizations (which it generally defines as those with over $250 
billion in assets) with a qualitative assessment of stress testing and 
capital planning processes. Regional banks have previously been given 
such qualitative assessments; however, the Federal Reserve announced on 
January 30, 2017, that it would discontinue that practice, while at the 
same time tightening regulations regarding capital distributions to 
shareholders without seeking Federal Reserve Board approval.
---------------------------------------------------------------------------
    I view stress testing as a fundamentally important tool in the 
management of a bank's risk and the assessment of its capital adequacy. 
The value of the insights it yields, however, does not increase in 
linear proportion to the investment made in the exercise, and this is 
particularly true for less complex regional banking institutions. There 
are diminishing returns from this exercise for both the banking 
institutions and the regulators. Former Federal Reserve Governor Daniel 
K. Tarullo has noted that `` . . . the basic requirements for the 
aggregation and reporting of data conforming to our supervisory model 
and for firms to run our scenarios through their own models do entail 
substantial expenditures of out-of-pocket and human resources. This can 
be a considerable challenge for a $60 billion or $70 billion bank. On 
the other side of the ledger, while we do derive some supervisory 
benefits from inclusion of these banks toward the lower end of the 
range in the supervisory stress tests, those benefits are relatively 
modest, and we believe we could probably realize them through other 
supervisory means.'' \4\
---------------------------------------------------------------------------
     \4\ Former Federal Reserve Board Governor Daniel K. Tarullo, in 
remarks to the U.S. Senate Committee on Banking, Housing, and Urban 
Affairs, March 19, 2015.
---------------------------------------------------------------------------
    Ideally, the stress testing process should inform management's and 
the board's thinking about managing credit concentrations, interest 
rate risk, underwriting standards, pricing, and maintaining an 
appropriate balance of risks in its portfolio. In our own experience, 
these objectives are largely thwarted by the reality that the results 
of the Federal Reserve's internal models trump our own internally 
modeled results. Although the Federal Reserve has posed no material 
objection to Zions Bancorporation's qualitative processes in recent 
CCAR cycles, its own modeled measures of my firm's capital ratios after 
nine quarters of severely adverse economic conditions have been 
consistently and materially below our own projected outcomes. Such 
variances in outcomes beg a reconciliation of the models used by each 
organization if the results are to be truly useful in the management of 
the company. And while Federal Reserve officials argue that 
``transparency around the stress testing exercise improves the 
credibility of the exercise and creates accountability both for firms 
and supervisors,'' \5\ they continue to maintain that it is important 
not to disclose details of their models, lest firms ``manage to the 
test.'' Certainly it is not difficult to understand a regulator's 
perspective about this, but the notion that the rules--which are 
effectively incorporated into those models' algorithms--governing 
banks' capital distributions to the firms' owners should be kept secret 
finds little if any parallel in our legal and regulatory system.
---------------------------------------------------------------------------
     \5\ Federal Reserve Board Vice Chairman Stanley Fischer, speaking 
at the Riksbank Macroprudential Conference, June 24, 2015.
---------------------------------------------------------------------------
    This lack of transparency has the effect of creating uncertainty, 
and because the Federal Reserve's modeled capital results become the 
``binding constraint'' for capital planning by most banks, including my 
own, we are necessarily led to attempt to ``manage to the test''--even 
if it's not clear how the test works. This uncertainty echoes recent 
comments by former Federal Reserve Governor Daniel K. Tarullo, who 
noted that ``while enhanced prudential standards are important to 
ensure that larger banks can continue to provide credit even in periods 
of stress, some of those same enhancements could actually inhibit 
credit extension by rendering the reasonable business models of middle-
sized and smaller banks unprofitable.'' \6\ Federal Reserve Governor 
Jerome Powell, Chairman of the Fed's Committee on Supervision and 
Regulation, recently indicated in a televised interview his desire to 
have the Fed provide ``much more granular information about our 
expectations for loss rates on particular portfolios, of corporate 
loans and other types of loans.'' \7\ While any improvement in 
communicating outcomes is welcomed, real transparency will only be 
attained when the Federal Reserve publishes details about the actual 
content and mechanics of the models it uses to effectively govern 
banks' capital levels, opening them to the kind of outside scrutiny and 
debate which would inevitably result in stronger modeling processes.
---------------------------------------------------------------------------
     \6\ Former Federal Reserve Governor Daniel K. Tarullo--before the 
U.S. Senate Committee on Banking, Housing, and Urban Affairs, March 19, 
2015.
     \7\ CNBC, June 1, 2017, Steve Liesman interview with Governor 
Jerome Powell.
---------------------------------------------------------------------------
    In the absence of such transparency, banks are left to guess what 
level of capital is required for each type of loan, and indeed for each 
individual loan, since every loan has a unique blend of borrower 
strength, collateral support and other characteristics that define 
risk.
    The uncertainty surrounding the Fed's modeling processes in CCAR 
can cause banks to withdraw or limit certain types of lending. In our 
own case, we've in particular established limits on construction and 
term commercial real estate lending that are significantly more 
conservative than those incorporated in current interagency guidelines 
on commercial real estate risk management. \8\ Another example of the 
uncertainty around the Federal Reserve's models involves small business 
loans. The detailed FR Y-14 data templates used for the Federal 
Reserve's models to capture granular data on collateral values and 
other factors useful in evaluating potential loss exposures for 
commercial loans expressly exclude loans of less than $1 million and 
credit-scored owner-occupied commercial real estate loans, the 
combination of which comprises a substantial portion of our total loan 
portfolio. Rather, such loans are reported on a supplemental schedule 
that includes only the loan balances. We can therefore only suppose 
that such loans are treated relatively more harshly in the Federal 
Reserve's models, resulting in uncertainty in terms of how much credit 
of this type we can afford to grant, and at what price, in order to 
reduce the risk of a quantitative ``miss'' in the Federal Reserve's 
calculation of our required capital.
---------------------------------------------------------------------------
     \8\ 5 Office of the Comptroller of the Currency, FDIC and Board of 
Governors of the Federal Reserve System: Concentrations in Commercial 
Real Estate Lending, Sound Risk Management Practices, December, 2006.
---------------------------------------------------------------------------
b. Liquidity Management
    Having been designated as a Systemically Important Financial 
Institution, Zions Bancorporation is also subject to the Modified 
Liquidity Coverage Ratio. The three primary Federal banking regulatory 
agencies, in implementing the Basel III liquidity framework, jointly 
adopted the Liquidity Coverage Ratio (LCR) rule in September, 2014. The 
rule is applicable to internationally active banking organizations, 
generally those with $250 billion or more in total consolidated assets 
or $10 billion or more in on-balance-sheet foreign exposure. At the 
same time, the Federal Reserve went beyond the Basel Committee's LCR 
framework, and adopted a somewhat less stringent rule, the Modified 
Liquidity Coverage Ratio (MLCR), applicable to bank holding companies 
with $50 billion or more in consolidated assets but that are not 
internationally active. This quantitative measurement supplements a 
qualitative liquidity management framework introduced in early 2014 to 
fulfill Enhanced Prudential Standards requirements, including liquidity 
standards, required by section 165 of the Dodd-Frank Act. The MLCR 
requires a bank holding company to hold a narrowly defined portfolio of 
``High Quality Liquid Assets'' (HQLA) equal to or greater than expected 
net cash outflows over a 21-day period, in accordance with a prescribed 
set of run-off calculations established in the rule. The qualitative 
liquidity management framework requires, among other things, monthly 
internal liquidity stress tests to supplement the prescriptive MLCR in 
determining the size of the institution's required minimum liquidity 
buffer. The full extent of the impact of the liquidity rules on SIFIs 
is almost certainly not fully apparent in the current economic 
environment. We have experienced a prolonged period of low interest 
rates without precedent, and liquidity in the banking system has been 
abundant by virtually any historical measure. But liquidity comes at a 
cost, and the true cost of these rules will become manifest as interest 
rates and liquidity levels eventually normalize. While it is important 
for every depository institution to maintain appropriate levels of 
reserves to deal with normal fluctuations in cash flows, maintaining 
additional liquidity buffers as an insurance policy against times of 
extreme stress is a costly exercise for banks and for the economy at 
large. Every dollar invested in high quality liquid assets is a dollar 
that cannot be loaned out and put to more productive use. In times of 
liquidity stress, the impact will likely be most particularly acute for 
smaller and middle-market businesses that do not have ready access to 
the capital markets, and for whom bank credit is their financial 
lifeblood. As noted earlier. regional banks subject to the MLCR and the 
additional enhanced prudential liquidity standards imposed by the Dodd-
Frank Act provide a disproportionate share of credit to such 
businesses.
c. Other Consequences of SIFI Designation
    Since the financial crisis, Zions Bancorporation has more than 
doubled its staffing in areas such as compliance, internal audit, 
credit administration and enterprise risk management. In an effort to 
manage costs, these increases have been accompanied by offsetting 
reductions in other areas of the organization, including many customer-
facing functions. Many, though not all, of these increases in risk 
management staffing are directly attributable to the Enhanced 
Prudential Standards requirements of the Dodd-Frank Act and other 
regulatory requirements that have arisen in the wake of the financial 
crisis. We have also embarked on an ambitious program to replace core 
software systems, revamp our chart of accounts and establish a data 
governance framework and organization in order to ensure our ability to 
meet the substantial data requirements necessary to fully comply with 
the stress testing and liquidity management protocols applied to SIFIs. 
While we will derive ancillary benefits from modernizing our systems, 
ensuring regulatory compliance has been a significant factor in our 
decision to make these investments which are in the hundreds of 
millions of dollars in size. Additional investments have been made in 
software systems directly related to compliance with the Enhanced 
Prudential Standards. An example is the expenditure of approximately $3 
million for software that facilitates compliance with incentive 
compensation governance requirements. In addition to the software 
investment, thousands of hours have been spent redesigning incentive 
plans and validating their compliance with regulatory requirements. We 
have also spent millions of dollars on the annual production of 
resolution plans, or ``living wills,'' in accordance with requirements 
of the Dodd-Frank Act. This is despite the fact that, like other 
regional banks, we have a simple organizational structure, with a total 
of 20 (mostly very small) subsidiaries, as compared to an average of 
1,670 subsidiaries for each of the Nation's six largest banks.
IV. Alternative Means of Designating Systemic Importance
    There is no apparent analytical foundation for the Dodd-Frank Act's 
establishment of a $50 billion asset size threshold for the 
determination of an institution's systemic risk. Indeed, there is a 
lack of consistency in applying the Enhanced Prudential Standards of 
Section 165 to all insured depository institutions with over $50 
billion in assets, with the result that some federally insured 
depository institutions with total assets greater than those of my own 
bank holding company are not automatically subject to these rules. For 
example, USAA, a diversified financial services company with $147 
billion in assets, and whose federally insured USAA Federal Savings 
Bank subsidiary has over $70 billion in assets, is not subject to the 
requirements of section 165, since USAA is not a bank holding company. 
Likewise, the Nation's largest credit union, Navy Federal Credit Union, 
with $81 billion in assets, is not subject to these requirements.
    We are supportive of an approach to the determination of systemic 
importance that removes the hard-coded $50 billion asset threshold 
currently incorporated in the Dodd-Frank Act, and that substitutes 
banking regulators' thoughtful and transparent analysis, consistently 
applied, taking into account not only an institution's size, but its 
complexity, interconnectedness with the domestic and international 
financial system, substitutability, cross-jurisdictional activities and 
any other factors the Congress or regulators may deem relevant. We 
believe that any such analysis would find that Zions Bancorporation and 
most, if not all, other regional banking institutions would not be 
found to be systemically important using such an approach, and that the 
net benefit to the U.S. economy from redirecting the resources these 
institutions currently expend on compliance with section 165 
requirements to the prudent extension of credit and other banking 
services to customers would be significant.
V. Other Regulations That Retard the Ability of Regional Banks To Serve 
        Customers and Foster Economic Growth
    There are numerous other regulations as well as instances of 
regulatory guidance, that hamper (or threaten to impair) the ability of 
regional banks to serve the credit and depository needs of their 
customers. These include greatly heightened requirements for compliance 
with Bank Secrecy Act/Anti-Money Laundering regulations and the 
policing of ``our customers' customers''; ambiguous and ever-changing 
rules with respect to Fair Lending and other anti-discrimination laws; 
and, highly prescriptive and evolving rules with respect to the 
governance and oversight of third-party vendor relationships. Two areas 
seem to me to be especially worthy of concern.
    The first pertains to the incredible thicket of regulations that 
has developed around the issuance of residential mortgages. Mortgage 
lending has long been subject to a host of laws and regulations. But 
the additional layers of regulation emanating from the Secure and Fair 
Enforcement for Mortgage Licensing Act of 2008 (SAFE Act), tighter 
appraisal standards at a time when there is a nationwide shortage of 
qualified appraisers, Dodd-Frank's Ability to Repay and Qualified 
Mortgage Standards, and others, has stifled the ability of many banks 
to conduct straightforward mortgage operations with traditional 
mortgage products--even when the resulting mortgage is held in a bank's 
loan portfolio. These issues have been particularly challenging for 
self-employed borrowers. In our own case, the cumulative effect of 
these many rules has dramatically retarded our ability to originate 
mortgage loans in our smaller branches, resulting in a substantial 
reduction in the origination of straightforward fixed rate, fully 
amortizing mortgages in our branch network in recent years.
    A second prospective issue which I believe is deserving of 
Congressional focus arises from outside the traditional bank regulatory 
establishment, in the form of a new accounting standard on the horizon. 
Under the Financial Accounting Standards Board's ``Current Expected 
Credit Loss'' impairment standard, slated to take effect in 2020, banks 
and other SEC registrants will be required to set aside loss reserves 
not only for incurred losses inherent in a loan portfolio, but for all 
expected future losses, as well. This will be a challenging accounting 
standard for all lenders to implement, not least because it requires 
well-documented prognostication about an uncertain future. But the 
impact on the economy, and on borrowers in particular, is likely to 
arise from the fact that this accounting standard may be expected to 
produce the result that lenders will be incentivized to shorten the 
tenor of loans, such that the period over which losses must be 
estimated is shortened, and required reserves are accordingly reduced. 
This would, I believe, provide banks with incrementally more liquid 
balance sheets, and lower reserve requirements. But this will not be a 
good outcome for borrowers, who will become less liquid with shorter 
maturities or face the alternative of higher borrowing costs for 
longer-duration loans. This will not be a positive outcome for capital 
formation, which is critical to economic growth.
    Thank you very much for allowing me the opportunity to present my 
institution's views on these important subjects.
                                 ______
                                 
                    PREPARED STATEMENT OF GREG BAER
               President, The Clearing House Association
                             June 15, 2017
    Chairman Crapo, Ranking Member Brown, and Members of the Committee, 
my name is Greg Baer and I am the President of The Clearing House 
Association and General Counsel of The Clearing House Payments Company. 
Established in 1853, we are the oldest banking association and payments 
company in the United States. The Clearing House Association is a 
nonpartisan advocacy organization dedicated to contributing quality 
research, analysis and data to the public policy debate.
    The Clearing House is owned by 25 banks which provide commercial 
banking services on a regional or national basis, and in some cases are 
also active participants in global capital markets as broker-dealers 
and custodians. Our owners fund more than 40 percent of the Nation's 
business loans held by banks, which include almost $200 billion in 
small business loans, and more than 75 percent of loans to households. 
Reflecting the composition of our membership, throughout my testimony, 
I will focus on the effects of regulation on U.S. global systemically 
important banks, U.S. regional banks of all sizes, and the U.S. 
operations of foreign banking organizations with a major U.S. presence.
    After nearly a decade of fundamental and continuing changes to 
financial regulation, now is an opportune time to review the efficacy 
of our current bank regulatory framework. My testimony will focus on 
reforms that could directly and immediately enhance economic growth. 
Certainly, there are many other areas where reform is urgently needed--
for example, the regulatory regimes for anti-money laundering, 
cybersecurity, the Community Reinvestment Act, and corporate 
governance, as well as a general breakdown in transparent 
administrative procedure at the regulatory agencies--but those involve 
other priorities, and have a more indirect effect on the economy.
    I should emphasize at the outset that if the goal of regulatory 
reform is to prompt economic growth, that goal cannot be achieved while 
excluding regulation of large and regional banks from that effort. As 
the Treasury Department noted in its report this week, community banks 
hold only 13 percent of U.S. banking assets, so reform limited to those 
firms will not have a significant economic impact. And large banks--
defined as those in holding companies with at least $50 billion in 
assets--originated 54 percent small business loans in 2015 by dollar 
amount and 86 percent by number.
I. The Case for Reform of Bank Regulation
    Room for reform. The starting point for any review of post-crisis 
regulation is an American banking system that is extraordinarily 
resilient. U.S. banks now hold substantial amounts of high-quality 
capital; since the crisis, the aggregate tier 1 common equity ratio of 
TCH's 25 owner banks nearly tripled to 12.2 percent at the end of last 
year. In absolute, dollar terms, that is an increase in tier 1 common 
equity from $331 billion to over $1 trillion. Similarly, U.S. banks now 
hold unprecedented amounts of high-quality liquid assets (HQLA) to 
ensure that they can survive a period of persistent liquidity stress (a 
run, in other words): today, nearly a quarter of U.S. large bank 
balance sheets consists of cash, U.S. Treasury bonds, and similarly 
low-risk and highly liquid assets.
    Moreover, we now have in place a comprehensive legal and 
operational framework that ensures that even the largest and most 
complex banks can go bankrupt like any other company, without taxpayer 
support and without risk to the broader financial system, ending too-
big-to-fail and replacing moral hazard with market discipline. Markets 
clearly have recognized as much, as bank holding company debt is now 
priced on the assumption that bondholders will not be bailed out, and 
rather will be bailed in in order to recapitalize the institution. \1\
---------------------------------------------------------------------------
     \1\ See The Clearing House eighteen53 Blog, ``The Canard That 
Won't Go Away: Correcting the Record (Again)'' (April 21, 2017), 
available at https://www.theclearinghouse.org/eighteen53-blog/2017/
april/21%20-%20icba.
---------------------------------------------------------------------------
    As discussed below, there is considerable evidence that bank 
capital and liquidity levels have now been pushed beyond what is 
reasonably necessary for safety and soundness and financial stability 
purposes. And other restrictions on banking activity have been imposed 
without sufficient analysis or evidence--and without regard to current 
capital and liquidity levels. Here, and generally, when I refer to 
``banks,'' I am including their nonbank affiliates, which increasingly 
are now subject to the same restrictions (while providers of financial 
services that are not affiliated with banks are effectively 
unregulated).
    Need for reform. While much has been gained in fortifying the 
Nation's largest banks, it is also clear that the banking system is 
playing an unnecessarily diminished role in fostering economic growth 
and vibrant capital markets, and that systemic risk is building up 
outside of the banking system, which has been the sole focus of many 
post-crisis reforms. A key driver here is the recent sea change in 
banking whereby large and regional banks generally no longer allocate 
capital and make business decisions based on their own assessment of 
economic risk, with regulatory capital as a backstop; rather, because 
regulatory capital requirements are so high and prescriptive, 
regulation often dictates how capital--and therefore credit to the 
economy--is allocated. \2\ A similar phenomenon is occurring with 
respect to post-crisis liquidity requirements.
---------------------------------------------------------------------------
     \2\ For example, the recent research by Viral Acharya, et al., 
finds that banks subject to stress tests have reduced the supply of 
credit to relatively risky borrowers. In particular, the supply of 
credit is reduced to large corporate borrowers that exhibit high risk, 
commercial real estate, credit card, and small business borrowers who 
also tend to be relatively risky. See Acharya, Viral V., and Berger, 
Allen N., and Roman, Raluca A., ``Lending Implications of U.S. Bank 
Stress Tests: Costs or Benefits?'' (May 23, 2017). Available at SSRN: 
https://ssrn.com/abstract=2972919.
---------------------------------------------------------------------------
    As described in detail below, there are numerous opportunities to 
better align existing capital and liquidity requirements with the goal 
of economic growth--without jeopardizing, and likely enhancing, the 
strength and resiliency of the financial system. Three areas of 
regulatory impact highlight the significant potential for reform.
    Small business lending. As demonstrated in the chart below from the 
recent Treasury report, bank lending has lagged significantly in the 
current recovery.




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Much of the lag is attributable to small business lending. In April 
2017, the Federal Reserve published an inaugural nationwide survey of 
small business credit conditions, the Small Business Credit Survey 
(SBCS), which reports widespread evidence of tight credit conditions 
for small businesses. \3\ In particular, according to the results of 
the SBCS, approximately 36 percent of small businesses reported not 
having all of their borrowing needs satisfied. More specifically:
---------------------------------------------------------------------------
     \3\ See Federal Reserve Banks of Atlanta, Boston, Chicago, 
Cleveland, Dallas, Kansas City, Minneapolis, New York, Philadelphia, 
Richmond, Saint Louis, and San Francisco, ``Small Business Credit 
Survey'' (April 2017), available at www.newyorkfed.org/medialibrary/
media/smallbusiness/2016/SBCS-Report-EmployerFirms-2016.pdf.

  <bullet>  About 60 percent of small businesses reported having faced 
---------------------------------------------------------------------------
        financial challenges over the past 12 months.

   <bullet>  Of those, approximately 45 percent cited lack of credit 
        availability or ability to secure funds for expansion as a 
        reason.

   <bullet>  About 75 percent of those firms facing financial 
        challenges said they used owners' personal funds to address 
        this problem.

  <bullet>  About 45 percent of small businesses applied for financing 
        over the past 12 months. Of those that applied for credit, 24 
        percent received none of the funds requested and 36 percent 
        received only some portion of what they requested.

    Notably, credit availability for small businesses is tighter at 
large banks that are subject to the highest capital and liquidity 
regulations. At these banks, approval rates were just 45 percent for 
small businesses with less than $1 million in revenues. In contrast, 
community development financial institutions and small banks reported 
approval rates of 77 percent and 60 percent, respectively. This fact is 
significant because, as noted, large banks originate a sizable share of 
small business loans that cannot realistically be replaced by smaller 
banks: 54 percent by dollar amount and 86 percent by number of loans. 
\4\
---------------------------------------------------------------------------
     \4\ See The Clearing House eighteen53 Blog, ``Myth Versus Reality 
on Small Business Lending'' (March 24, 2017), available at 
www.theclearinghouse.org/eighteen53-blog/2017/march/24-small-business-
lending.
---------------------------------------------------------------------------
    Moreover, our own research has shown that the U.S. stress tests are 
constraining the availability of small business loans secured by 
nonfarm nonresidential properties, which accounts for approximately 
half of small business loans on banks' books. Our analysis indicates 
that subjecting a bank to the U.S. supervisory stress tests leads to a 
reduction of more than 4 percentage points in the annual growth rate of 
its small business loans secured by such properties, which translates 
to a $2.7 billion decrease in the aggregate holdings of these small 
business loans each year on average.
    Mortgage lending. Another example of an asset class unnecessarily 
burdened by post-crisis regulation is home mortgage lending, and here 
again, capital regulation is a major driver. As demonstrated in our own 
research, the Federal Reserve's Comprehensive Capital Analysis and 
Review (CCAR) stress test is imposing dramatically higher capital 
requirements on residential mortgage loans than bank internal (Federal 
Reserve-approved) models and the standardized approach to risk-based 
capital developed by the Basel Committee on Banking Supervision. \5\ 
Indeed, for first-lien mortgage loans, CCAR capital requirements are 45 
percent higher than under banks' own projections and 95 percent higher 
than under the Basel III standardized approach. Because smaller banks 
are subject to less stringent capital requirements, they can act as a 
control group in assessing the impact of new regulations on the supply 
of credit. Between the fourth quarter of 2010 and the end of 2016, 
residential real estate loans declined 0.5 percent on average on an 
annual basis at banks subject to the CCAR stress test, while they rose 
4.0 percent on average over the past 6 years on an annual basis at 
banks not subject to that test.
---------------------------------------------------------------------------
     \5\ See The Clearing House, ``The Capital Allocation Inherent in 
the Federal Reserve's Capital Stress Test'', https://
www.theclearinghouse.org//media/TCH/Documents/TCH%20WEEKLY/2017/
20170130_WP_Implicit_Risk_Weights_in_CCAR.pdf.
---------------------------------------------------------------------------
    Capital markets. In the United States, much of the lending to the 
private nonfinancial sector and most of the borrowing by the Government 
sector occurs outside the banking system, in capital or money markets. 
Indeed, banks provide only about one-third of credit in the United 
States. Large bank holding companies facilitate financial market 
intermediation both by making markets in securities traded in those 
markets and by providing funding to other market participants who 
transact in those markets.
    Interestingly, post-crisis regulation by banking regulators has 
affected securities markets more than regulation by securities 
regulators. In particular, bank regulations have made it significantly 
more expensive for broker-dealers affiliated with banks--which 
includes, post-crisis, all of the largest dealers--to hold, fund, and 
hedge securities positions. Higher capital charges make holding of 
inventory more expensive, and the Volcker Rule makes holding such 
inventory a potential legal violation. The surcharge for global 
systemically important banks (GSIBs) and liquidity rules make 
securities financing more expensive. It has become more difficult for 
dealers to hedge the risk associated with holding the inventories of 
the bonds using credit default swaps. \6\
---------------------------------------------------------------------------
     \6\ Recent research by economists at the Federal Reserve Bank of 
New York has found that CDS have become much more costly to hold in 
large part because of the capital that dealers are required to hold 
against the transaction. Boyarchenko, Nina, Pooja Gupta, Nick Steel, 
Jacqueline Yen, (2016) ``Trends in Credit Market Arbitrage'', Federal 
Reserve Bank of New York Staff Reports No. 784, July 2016, p. 18.
---------------------------------------------------------------------------
    The greatest impact has been felt by smaller companies, as the 
capital rules impose lower capital charges on more liquid securities, 
which tend to be issued by larger companies; broker-dealers, forced to 
ration their balance sheets, are serving their largest customers first. 
As shown in the chart below, issuance of corporate bonds by small and 
midsized nonfinancial firms has fallen over the past few years while 
issuance by larger firms has risen.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    As another example, the efficiency and liquidity of financial 
markets are maintained by the ability of asset managers to take 
leveraged positions in mispriced assets to earn a profit when the asset 
price returns to normal. Such positions are financed in the market for 
repurchase agreements. Broker dealers are often the intermediary 
between two financial institutions, engaging in a repo with one and an 
identical matched repo with another. While such matched transactions 
are nearly riskless, the leverage ratio requirement forces banks to 
hold considerable capital against their reverse repos. Moreover, if the 
net stable funding ratio were adopted as proposed, banks would be 
required to finance the loans with a material amount of longer-term 
funding rather than a matched repo borrowing. As explained in a recent 
TCH research note, these types of requirements make such transactions 
more expensive, and dealers are passing those costs along. \7\
---------------------------------------------------------------------------
     \7\ See The Clearing House, ``Shortcomings of Leverage Ratio 
Requirements'', (Aug. 2016), www.theclearinghouse.org/-/media/tch/
documents/20160809_tch_research_note
_leverage_ratio.pdf?la=en.
---------------------------------------------------------------------------
    Thus, more than four-fifths of the respondents to the Federal 
Reserve's Senior Credit Officer Opinion Survey in June 2015 indicated 
that liquidity and market functioning in Treasury markets had 
deteriorated. Over 80 percent of those respondents reporting a 
deterioration indicated that the most important cause was a decreased 
willingness of securities dealers to expand their balance sheet for 
market-making purposes as a result of regulatory change.
II. Reforming Capital Regulation
A. Stress Testing
    When enough should be enough. Certainly, a key lesson of the 
financial crisis is the critical importance of maintaining capital 
levels sufficient to absorb outsized losses that typically accompany 
periods of financial stress. Responding to that lesson, banks have 
significantly increased the amounts of high-quality capital they 
maintain, and regulators have enacted a range of reforms that require 
these heightened levels of capital to remain in place over time.
    Implementation of Basel III changes has increased the quality of 
capital, focusing on common equity as opposed to hybrid debt/equity 
instruments. In the United States, there is an increased and wise 
emphasis on stressed rather than static measures of capital adequacy--
in particular, the Federal Reserve's CCAR exercise and the banks' own 
internal stress tests. These are important improvements to the bank 
capital framework that resolve key shortcomings revealed by the 
financial crisis, and we support them.
    Unfortunately, these sensible reforms have been accompanied by 
other changes to the U.S. capital framework which have introduced a 
significant degree of unnecessary opacity, subjectivity and uncertainty 
to capital regulation in the United States. Large U.S. banks today are 
subject to dozens of different capital requirements. Of those, the 
Federal Reserve's CCAR stress test and the enhanced supplementary 
leverage ratio (eSLR) are set at such high levels that they most 
frequently dictate bank's decision making. In addition, U.S. regulators 
have consistently implemented capital reforms in a manner that both 
significantly exceeds agreed-upon international standards and is much 
more stringent than necessary to support safety, soundness, and 
financial stability.
    Of course, a crucial question is how much capital is enough. TCH's 
25 owners hold roughly triple the amount of capital they did pre-
crisis, but should it be quadruple, or double? We believe three 
benchmarks are useful here. First, consider the results of the Federal 
Reserve's severely adverse scenario under CCAR, which presents for 
large banks a greater economic and market shock than was present in the 
global financial crisis. Then, compare the losses projected under that 
stress scenario to the loss absorbency currently held by those banks, 
as detailed in the following chart.









[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In sum, CCAR imposes a stress scenario significantly harsher than 
the previous financial crisis. \8\ Yet as of 2016 tangible common 
equity was five times the losses implied under that scenario. Total 
loss absorbency--which includes debt holders who would be ``bailed in'' 
as part of a bankruptcy under the Title I living will process or the 
Title II Orderly Liquidation Process, was ten times those losses.
---------------------------------------------------------------------------
     \8\ It is worth noting that neither banks nor their regulators 
place exclusive focus on a single scenario; rather, banks run, and the 
Federal Reserve monitors, numerous stress scenarios, including ones 
chosen by each bank to focus on its unique vulnerabilities.
---------------------------------------------------------------------------
    Consider as a second benchmark JPMorgan Chase, which is universally 
considered to have had sufficient capital to have weathered the past 
financial crisis without need for taxpayer assistance, while making two 
acquisitions and continuing to lend and make markets. Thus, one could 
reasonably suppose that the amount of capital it held pre-crisis was 
sufficient (and would have been all the more sufficient if all other 
firms had held that amount as well). Today, JPMorgan Chase holds double 
the capital it did pre-crisis. More importantly, all large banks are 
now required to hold similar levels of capital (with some variation 
based on the size of any GSIB surcharge). And the firms subject to 
those capital rules today include the largest broker dealers--which is 
significant, because pre-crisis, monoline investment banks like Bear 
Stearns and Lehman Brothers were not subject to bank-like capital 
requirements and operated with a fraction of the capital of large 
banks.
    And consider as a third benchmark long-term debt spreads and CDS 
spreads of large U.S. banks, which have remained stable over the past 
five years. While we have not seen a significant financial crisis 
during this period, we observed a large trading loss at one large U.S. 
bank in mid-2012, volatility around the Brexit vote in the United 
Kingdom in the middle of last year, a significant consumer scandal at 
another large U.S. bank in the second half of last year, and more 
generally, a fair amount of international political instability in 
recent months.
    There is also reason to believe that higher capital standards have 
reached levels at which they are having a counterproductive effect. In 
a recent paper, Sarin and Summers (2016) point out that by several 
capital markets-based measures, including stock price volatility and 
CDS spreads, banks appear to be riskier now than they were before the 
crisis, even as bank capital and liquidity standards have been 
substantially raised over that same period of time. \9\ The authors 
conclude that the most likely explanation is that banks' franchise 
values have declined. Specifically, a bank's franchise value depends on 
its ability to generate earnings and increase those earnings over time. 
The tightening of regulations that has occurred since the crisis, while 
increasing loss absorbency, has also reduced the profitability of 
banks.
---------------------------------------------------------------------------
     \9\ See Sarin, Natasha, and Lawrence H. Summers; ``Have Big Banks 
Gotten Safer?'', Brooking Papers on Economic Activity, Fall 2016.
---------------------------------------------------------------------------
    While no one would recommend a return to the low and uneven capital 
levels that existed pre-crisis, or to treating as capital hybrid 
instruments that did not prove to be loss absorbing, the largest U.S. 
banks are now overcapitalized by any objective measure. Hundreds of 
billions of trapped capital is not necessary to meet any quantifiable 
safety and soundness need, and could be redeployed to furthering 
economic growth--either through more lending or returning excess 
capital to shareholders for reinvestment elsewhere.
    Potential for reform. The Federal Reserve's stress testing 
framework attempts to measure the ability of banks to withstand a very 
severe economic downturn (and, where relevant, a market shock). Under 
CCAR, the Federal Reserve runs its own proprietary models to determine 
the effect of various supervisory scenarios on banks' capital 
adequacy--that is, the estimated net losses and resulting reduction in 
capital under those scenarios. After this stress, a large bank must 
meet a series of capital requirements, including a 4.5 percent common 
equity tier 1 ratio. And it must do so assuming that it does nothing to 
shrink its balance sheet, reduce its dividend, or postpone planned 
share repurchases under severely adverse economic conditions--almost 
certainly deeply counterfactual assumptions. Thus, a large bank that 
passes the CCAR exercise not only has sufficient capital to avoid 
failure under historically unprecedented adverse conditions--it has 
enough capital to emerge from such an event doing business as usual, 
and without taking actions that would be normal (or even compelled) 
under the circumstances.
    Stress testing is an important tool for assessing the health of the 
banking system because it incorporates a forward looking, dynamic 
assessment of capital adequacy, and is therefore less reliant on recent 
historical performance. However, the Federal Reserve's CCAR stress 
tests are highly and unnecessarily opaque, relying upon macroeconomic 
scenarios that are never published for public comment and a series of 
unidentified models (combined in unspecified ways) that have never been 
subject to peer review or public comment.
    To the best of our knowledge, which is necessarily limited by the 
opacity of the CCAR process, the accuracy of the Federal Reserve's 
models, individually and collectively, has never been back-tested. The 
results of this nonpublic process continue to differ markedly from the 
results of the banks' own, more robust earnings forecasting models--
models that the Federal Reserve itself subjects to rigorous review. 
(The bank process is part of what is known as DFAST, short for ``Dodd-
Frank Act Stress Test''.) At this point, there is no basis to conclude 
that the Federal Reserve's models do a better job of projecting losses 
than the banks' own (Federal Reserve-approved) models.
    Both the quantitative test of CCAR and the qualitative test 
described below also are needlessly complex and consume enormous 
resources at the largest banks, which resources could be more 
effectively redeployed; the CCAR annual submissions for the largest 
banks average in excess of 50,000 pages.
    Effects on economic activity. Collectively, the opacity, 
subjectivity, and overall stringency of the CCAR framework act as a 
significant constraint on lending, economic growth, and liquid capital 
markets. As we have demonstrated in detailed empirical research, this 
is largely the result of the excessively high amounts of capital banks 
are required to hold against their small business lending, mortgage 
lending, and trading book assets to pass the test. \10\ Under banks' 
own DFAST projections, capital requirements for small business loans 
and home mortgage loans are 80 percent and 45 percent higher than under 
the Basel III standardized approach, respectively. For trading assets, 
the higher capital requirements under CCAR are driven by the Federal 
Reserve's prescribed global market shock that is part of the CCAR 
scenarios for banks with large trading operations. However, the market 
shock also applies to the DFAST stress tests that are calculated using 
the banks' own models, and the capital requirement for the trading book 
under CCAR is 20 percent higher than DFAST. \11\
---------------------------------------------------------------------------
     \10\ Capital Allocation in CCAR, supra note 5.
     \11\ See id.
---------------------------------------------------------------------------
    CCAR's excessively high capital requirements for small business 
loans and home mortgages likely reflect in large part the severity of 
the stress scenario used in the test. The stress test includes 
increases in unemployment that are more sudden in some cases more 
severe than seen in the global financial crisis, and other parameters 
that go beyond any historical experience.
    The inevitable result is that banks are shifting away from 
cyclically sensitive sectors (where loss of employment is likely to 
trigger default) like small businesses and households with less-than-
pristine credit. Bank behavior is consistent with this set of 
incentives:

  <bullet>  Small commercial real estate loans, which account for 
        approximately half of small business loans outstanding on 
        banks' books, declined about 2 percent on average over the past 
        5 years. \12\
---------------------------------------------------------------------------
     \12\ Capital Allocation in CCAR, supra note 5.

  <bullet>  On the residential real estate lending side, home equity 
        lines of credit declined more than 6 percent per year over the 
        past 5 years, despite the significant appreciation in housing 
        prices, and are about 110 basis points more expensive than they 
        were pre-crisis. \13\
---------------------------------------------------------------------------
     \13\ Capital Allocation in CCAR, supra note 5.

  <bullet>  The declines in these categories of lending have been 
        larger at banks subject to CCAR than at banks not subject to 
---------------------------------------------------------------------------
        CCAR.

    Substantial benefits to economic growth could be achieved through 
three limited reforms to CCAR, all of which would increase banks' 
capacity and propensity to make these types of loans.
    First, banks' more robust, Federal Reserve-approved models should 
be used to estimate stress losses for purposes of the CCAR quantitative 
assessment. The Federal Reserve should use its own, more simplified 
models as a check on the bank models. With the Federal Reserve models 
no longer binding in the first instance, no concentration of risk or 
``gaming'' concern would prevent their being made transparent. Notice 
and comment or other peer review would doubtless improve their 
accuracy.
    We note that such an approach is not a theoretical construct, but 
current practice at the Bank of England where banks' own models play 
the central role in the United Kingdom's supervisory stress tests. \14\ 
Banks use of their own models motivates them to better develop their 
own stress scenarios, which are than more tailored to their business 
models. That said, the Bank of England does not rely entirely on banks 
own models and has its own suite of models for peer-benchmarking and to 
ensure consistency of results across participating banks. In adopting 
the system, the Bank of England has noted that it does not want its own 
models to drive capital requirements at the risk of stifling stifle 
innovation in risk management at banks. More generally, if a set of 
unique models being used is overly conservative, the efficiency of the 
financial system would be reduced. Conversely, if those models are 
vulnerable to a particular source of risk, the entire system could be 
undercapitalized during a period of financial stress. \15\
---------------------------------------------------------------------------
     \14\ See Bank of England (2015) ``The Bank of England's Approach 
to Stress Testing the U.K. Banking System'' (October 2015). Available 
at http://www.bankofengland.co.uk/financialstability/Documents/
stresstesting/2015/approach.pdf.
     \15\ See Gallardo, German, Til Schuermann, and Michael Duane (May 
2016), ``Stress Testing Convergence'', Journal of Risk Management in 
Financial Institutions 9, pp. 32-45.
---------------------------------------------------------------------------
    Second, annual stress test scenarios should be subject to a 30-day 
public notice and comment period to ensure that they meet the Federal 
Reserve's identified standard--consistency with post-war U.S. 
recessions. While we believe that standard is sensible, it should be 
subjected to notice and comment rulemaking.
    Third, counterfactual and incorrect assumptions about how banks 
would behave in a crisis (e.g., continuing share repurchases and 
balance sheet growth under severe stress) should be corrected.
B. Leverage Ratio
    A leverage ratio measures the capital adequacy of a bank by 
dividing its capital by its total assets (and, in some cases, off-
balance-sheet exposures) without taking into account the risk of any 
particular asset or exposure. Requiring the same amount of capital to 
be held against every asset makes the holding of low-risk, low-return 
assets relatively more costly when compared with the holding of higher-
risk assets, higher-return assets. Put another way, if a capital 
regulation requires a bank to hold the same amount of capital against 
each asset, the bank will by necessity gravitate to relatively higher-
risk, higher-return assets.
    A leverage ratio can still be a useful tool as a backup measure 
when banks collectively misunderstand the risk of a certain asset class 
(as they did with mortgages and mortgage-related securities in the past 
crisis), but serious problems have emerged for U.S. banks because U.S. 
regulators have set the minimum leverage ratio for the largest U.S. 
banks at nearly double the international standard, without adequate 
analysis of (i) whether such a high leverage ratio is necessary to 
prevent excessive risk taking or (ii) the impact of such a high 
leverage ratio on lending, market activity and economic growth. These 
are the very same banks that provide support to U.S. capital markets 
and ensure the safekeeping of investor assets, and in the course of 
doing so hold large amounts of low-risk, liquid assets like central 
bank placements and Treasury securities.
    More specifically Basel III introduced a 3 percent supplementary 
leverage ratio for internationally active banks, which includes both 
on-and off-balance-sheet assets. \16\ U.S. regulators have not only 
applied this 3 percent supplementary leverage ratio requirement to all 
larger banks, but have also imposed a still-higher requirement for U.S. 
GSIBs--an eSLR of 5 percent at the holding company level and 6 percent 
at depository institution subsidiaries. \17\ Consequently, for several 
of the largest U.S. banks, the eSLR, as opposed to a risk-based 
requirement, that acts as a current or potential future binding 
constraint and therefore affects bank capital and business planning. 
\18\
---------------------------------------------------------------------------
     \16\ See Basel Committee on Banking Supervision, ``Basel III: A 
Global Regulatory Framework for More Resilient Banks and Banking 
Systems'' (June 2011), available at www.bis.org/publ/
bcbs189_dec2010.pdf.
     \17\ See 79 FR 187.
     \18\ See Federal Financial Analytics, Inc., ``Mutual-Assured 
Destruction: The Arms Race Between Risk-Based and Leverage Capital 
Regulation'' (Oct. 13, 2016).
---------------------------------------------------------------------------
    The overall impact of the leverage ratio as a measure of capital 
adequacy, and the resulting misallocation of capital, have increased 
dramatically in recent years as a result of other regulatory mandates. 
As noted, large banks presently are required by liquidity regulations 
to hold about a quarter of their balance sheets in high quality liquid 
assets (HQLA)--predominantly cash, Treasury securities and other 
Government securities. Large banks now hold approximately three times 
as much of these assets as they did pre-crisis. Those assets rightly 
receive a zero or low risk weight in risk-based capital measures, but 
the leverage ratio completely ignores their actual risk and requires 
banks to hold capital against these assets.
    Banks with sizeable custody, treasury services or other businesses 
that employ a servicing business model or take sizeable corporate 
deposits are particularly affected. In practice, this means that, under 
the liquidity rules, these banks must hold cash or Treasury securities 
against these deposits, on the assumption that up to 100 percent of 
them will run in a crisis (although the outflow rate during the 
financial crisis was substantially lower) and then hold 6 percent 
capital against the same cash and U.S. Treasury bills that the 
regulators require they hold for liquidity purposes. Of systemic 
concern, these problems are likely to become more pronounced in periods 
of financial market uncertainty, as institutional investors seek to 
lower their risk exposure by raising cash and banks must manage the 
resulting deposit inflows in the most conservative way possible, via 
placements at the Federal Reserve and other national central banks.
    Another issue that has received recent notice is how the 
supplementary leverage ratio makes it more costly for U.S. banking 
organizations to provide clearing member services to clients on 
centrally cleared derivatives. While risk-based capital rules allows 
banking organizations to exclude from their denominator any initial 
margin posted by their clients on derivatives transaction--and rightly 
so, as the bank bears no risk of loss on such margin--the leverage 
ratio does not. As a result, the leverage ratio exaggerates the 
exposure amount of these derivatives and effectively requires banks to 
hold un-economic amounts of capital when providing clearing services to 
clients. Because of this, at least three major dealers have exited the 
business. Accordingly, former CFTC Chairman Massad called for the U.S. 
leverage ratio to be amended to take account of segregated margin. \19\
---------------------------------------------------------------------------
     \19\ See Timothy Massad, Keynote Address by Chairman Timothy G. 
Massad before the Institute of International Bankers (March 2, 2015), 
available at www.cftc.gov/PressRoom/SpeechesTestimony/opamassad-13.
---------------------------------------------------------------------------
    In sum, under the eSLR, U.S. GSIBs are currently required to trap 
approximately $53 billion in capital against cash reserve balances 
deposited at the Federal Reserve, and an additional $15 billion against 
U.S. Treasury securities. These are assets whose value banks are at no 
risk of misjudging; capital allocated to them could be far better 
deployed to lending or supporting market liquidity. Thus, the answer is 
not to dispense with the leverage ratio but rather to eliminate the 
enhanced supplementary leverage ratio, and to deduct from the 
denominator of the supplementary leverage ratio high-quality liquid 
assets like central bank reserves and Treasury securities, as well as 
segregated client margin.
    It is sometimes said that deducting these assets would begin a 
``slippery slope.'' This worry is difficult to understand--bank 
regulation is replete with line drawing. For example, the liquidity 
coverage ratio gives 100 percent credit for a central bank reserve or 
U.S. Treasury security as a liquid asset; this has not created a 
``slippery slope'' whereby loans have been given 100 percent credit as 
a liquid asset. The Bank of England, on July 25, 2016, began deducting 
central bank reserves from the leverage ratio denominator for U.K. 
banks--and no ``slippery slope'' has emerged whereby it has felt the 
need to do so for, say, subprime loans. \20\
---------------------------------------------------------------------------
     \20\ See Bank of England, ``Financial Policy Committee Statement 
and Record From Its Policy Meeting'', July 25, 2016 (August 2016), 
available at www.bankofengland.co.uk/publications/Pages/news/2016/
062.aspx.
---------------------------------------------------------------------------
C. Operational Risk
    Large institutions currently are required to build and maintain 
models to measure operational risk for capital purposes based on a 
Federal Reserve-approved Advanced Measurement Approach. Because it is 
exceedingly difficult to base a capital charge on a subjective 
assessment of the risk inherent in a bank's current operations, these 
models generally look at past large litigation losses and treat them as 
a proxy for the risk of something going wrong in the future.
    In contrast to international peers, the U.S. banks are often 
prohibited from excluding losses from their models even when the bank 
has exited the business line that caused the loss, or sold such 
business to another institution. (The acquirer also assumes the capital 
charge associated with the past event, effectively doubling the capital 
requirement on an aggregate basis.) U.S. banks are prohibited from 
using expert judgment to lower the output of their model even when 
factors make certain operational losses less likely in the future, 
while non-U.S. banks are permitted to make such adjustments. Similarly, 
banks may put in place a range of other risk mitigants, such as 
insurance or hedges, but none of these are meaningfully recognized or 
reflected in the current operational risk capital framework. Finally, 
for some banks, the regulators add to any modeled results a 
``supervisory overlay,'' which is a completely arbitrary add-on 
presented with no analytical or evidentiary basis.
    As a result of all these factors, operational risk capital charges 
are inflated and extremely sensitive to any data anomalies or extreme 
events. At least one bank was reported in 2014 to be holding over $30 
billion in operational risk capital, \21\ and as a general matter, U.S. 
banks currently hold significantly more operational risk capital than 
their international counterparts. It is also worth noting that 
operational risk losses tend to be idiosyncratic and thus uncorrelated, 
so extraordinarily high capital is being held against a risk that is 
unlikely to be systemic. (Clearly, some operational risks of the 
mortgage business did prove correlated during the financial crisis; 
however, even here, those losses were experienced years after the 
associated credit and market losses.)
---------------------------------------------------------------------------
     \21\ See Peter Rudegeair, Reuters, ``Trading Scandals, Legal Fines 
May Ramp Up U.S. Banks' Capital Needs'' (June 9, 2014), available at 
www.reuters.com/article/us-banks-oprisk-idUSKBN0EK1M520140609.
---------------------------------------------------------------------------
    An ongoing Basel Committee review of operational risk capital could 
rectify these problems if an improved regime could be constructed 
appropriately and--importantly--adopted by U.S. regulators without 
``gold plating.'' The result would be to free up billions of dollars of 
capital for more productive uses.
III. Reforming Liquidity Regulation
A. Liquidity Coverage Ratio
    A key lesson of the financial crisis was the need for banks to 
maintain sufficient liquidity to survive periods of financial stress. 
The regulatory response includes Basel III's liquidity coverage ratio 
(LCR), which requires banks to maintain a sufficient stock of liquid 
assets to cover a 30-day run on the bank with no access to additional 
funding, plus a Dodd-Frank Act requirement that large banks conduct 
liquidity stress tests on a monthly basis across at least overnight, 
30-day, 90-day, and 1-year time horizons, and maintain a sufficient 
``liquidity buffer'' based on their expected liquidity needs under 
these stress tests. These are concrete improvements to the bank 
liquidity framework, which we generally support.
    These regulations have dramatically increased the ratio of HQLA to 
total assets in the U.S. banking sector. The largest 33 banks held 12 
percent of their assets in HQLA in 2008; today they hold 24 percent of 
their balance sheets in these assets. Compared to the onset of the 
crisis, this improvement is even more pronounced, with the proportion 
of HQLA increasing nearly five times since the end of 2006 (i.e., from 
5.75 to 24 percent). \22\ The question, of course, is whether this 
large an expansion of bank balance sheets is necessary, and whether it 
is having unintended effects.
---------------------------------------------------------------------------
     \22\ See The Clearing House, State of American Banking (2016) at 
exhibit 3 (updated).
---------------------------------------------------------------------------
    Although the LCR is conceptually sound, in practice it makes 
assumptions about which liabilities will run, and which assets can be 
sold, that a TCH study shows have no empirical bases and appear 
inconsistent with even crisis-era experience. \23\ For example, while 
the LCR assumes that 30 percent of liquidity lines of credit provided 
to nonfinancial corporations in a future 30-day period of systemic and 
idiosyncratic stress would be drawn, the highest draw on such lines at 
large commercial banks (including several that failed or nearly failed) 
over any month in the financial crisis was 10 percent. While the LCR 
assumes that 100 percent of the nonoperational deposits of financial 
institutions would be drawn, the worst experience during the crisis was 
38 percent. \24\
---------------------------------------------------------------------------
     \23\ See The Clearing House, ``The Basel III Liquidity Framework: 
Impacts and Recommendations'' (Nov. 2, 2011), available at 
www.theclearinghouse.org/-/media/files/association
%20documents/20111102_liquid_liquidity%20coverage%20ratio.pdf.
     \24\ Id.
---------------------------------------------------------------------------
    These seemingly arcane calibration errors have major real-world 
consequences. In recent years, U.S. companies of all sizes have 
complained that standby letters of credit are unavailable, or more 
expensive and difficult to obtain. A major reason is because banks must 
assume that in crisis those lines will be drawn in amounts three times 
greater than even the worst historical experience would indicate, and 
therefore hold cash or cash-equivalent assets to fund those draws. And, 
in turn, under the leverage ratio, they must hold significant amounts 
of capital against those riskless or low-risk assets.
B. Net Stable Funding Ratio
    The net stable funding ratio (NSFR) is intended to establish a 
maximum safe amount of liquidity transformation that a bank can engage 
in by ensuring that banks have sufficient ``sticky'' liabilities to 
fund assets that would be unable to liquidate easily over a 1-year 
horizon. When the NSFR was first proposed by the Basel Committee in 
2009, the metric was designed to ensure that a bank with an NSFR 
greater than 100 percent would be able to weather a 1-year episode of 
idiosyncratic liquidity stress. The NSFR thereby was meant to be a 
complement to the LCR requirement, which was designed to ensure that a 
banking organization could weather a shorter (30-day) but more severe 
period of stress.
    In those initial formulations of the NSFR, the ``extended stress'' 
was defined by specific characteristics--for example, ``a potential 
downgrade in a debt, counterparty credit or deposit rating by any 
nationally recognised credit rating organisation.'' That benchmark was 
not included in the final NSFR standard released by the Basel 
Committee, or in the proposed rule to implement the NSFR in the United 
States. Nor was any other benchmark included, making it unclear what 
goal(s) the NSFR is intended to achieve and how it was calibrated.
    Moreover, for U.S. banks already subject to the LCR, uniquely 
stringent liquidity stress testing under the Dodd-Frank Act 
requirements, a Comprehensive Liquidity Analysis and Review and a U.S.-
only short-term-wholesale funding surcharge as part of the GSIB 
surcharge, it is unclear what additional risk the NSFR would mitigate 
that is not sufficiently addressed by these requirements.
    The NSFR, if implemented, would significantly inhibit economic 
growth and liquid financial markets due to its flawed design and lack 
of transparency with respect to its calibration to ensure its 
efficiency and effectiveness. As demonstrated in our research, The Net 
Stable Funding Ratio: Neither Necessary nor Harmless, over time, the 
NSFR, if implemented in the United States, could be expected to 
significantly limit lending and capital markets activity. \25\ If 
central bank reserve balances and retail deposits shrink in line with 
the Fed's forecast for policy normalization, and banks shift their 
funding toward wholesale deposits in line with historical experience 
many individual banks would not comply unless they took some 
compensating action. In particular, we show that the annual growth in 
bank lending would have to be cut by about 3.5 percentage points, to 
near zero, even to offset only half of the projected decline in the 
NSFR.
---------------------------------------------------------------------------
     \25\ See The Clearing House eighteen53 Blog, ``The Net Stable 
Funding Ratio: Neither Necessary Nor Harmless'' (July 5, 2016), 
available at www.theclearinghouse.org/eighteen53-blog/2016/july/05-
research-note-nsfr.
---------------------------------------------------------------------------
IV. Reforming the Bank Living Will Process
    Title I of the Dodd-Frank Act requires each large bank holding 
company to construct a plan for its rapid and orderly resolution, and 
requires regulators to review the credibility of that plan.
    Regulators have required bank holding companies to file living 
wills on an annual basis, against ever shifting, often nonpublic 
standards, even though the regulators have been generally unable to 
review them and provide feedback within that timeframe. Recognizing 
that section 165(d) of the Dodd-Frank Act requires the submission of 
livings wills on a ``periodic,'' not annual, basis, an appropriate and 
sensible approach is to eliminate the formal requirement for an annual 
submission in favor of submission cycle that is better tailored to the 
objectives of the living will process.
    The Federal Reserve and FDIC also have required, through the living 
will process, substantial amounts of liquidity and capital to be pre-
positioned--and therefore, trapped--at numerous subsidiaries. The most 
recent living will guidance issued in April 2016 states that bank 
holding companies must assume, counterfactually, that a net liquidity 
surplus in one material entity cannot be transferred to meet liquidity 
deficits at another material entity (even between branches of the same 
banking legal entity). Further, the guidance also requires bank holding 
companies to assume that cash balances held by material entities 
(including branches of the bank) within their primary nostro accounts 
with the main bank entity of the firm are unavailable in a stress prior 
to, and during resolution. The guidance imposes similar requirements 
with respect to pre-positioning of loss absorbing capital resources at 
material entities. None of this guidance has been published for notice 
and comment. Reform here could take the form of a statement that for 
any firm using the single-point-of-entry resolution strategy and in 
compliance with the TLAC requirement for holding company loss 
absorbency, the living will process should not include any incremental 
liquidity requirement at the operating subsidiary level; for all firms, 
we would recommend withdrawing the presumption that liquidity cannot be 
transferred among subsidiaries.
    Currently, each Federal (and State) banking agency is authorized to 
impose its own set of recovery and resolution planning requirements on 
different parts of a banking organization, leading to an unnecessary 
amount of duplicative and at times contradictory requirements. Many of 
these requirements were not subject to a rigorous impact analysis, and 
are not appropriately tailored. This may also reinforce ring fencing of 
entities as bank regulators focus only on the entities for which they 
are responsible.
    We would recommend eliminating the separate insured depository 
institution-level resolution and recovery planning regimes. At a 
minimum, the agencies should be required to coordinate among themselves 
to establish a single set of consistent recovery and resolution 
planning requirements.
V. Reforming Activity Limitations
    Post-crisis regulation has included not only capital and liquidity 
regulation to reduce the risk of bank failure to the taxpayer and the 
broader system, but also direct limits on bank activities--however well 
capitalized and funded they are. In some cases, these limits are 
unjustified.
A. Leveraged Lending
    Leveraged lending is an important type of financing for growing 
companies, which tend to carry a lot of debt. Although these companies 
therefore represent a greater repayment risk than more established 
firms, this risk is one that banks have considerable experience 
managing. Banking organizations have long played a critical role in 
arranging, originating, and administering funding for leveraged loans 
as part of their larger role as credit intermediaries. Following the 
financial crisis, capital requirements have increased significantly for 
such loans, as have requirements for modeling their risks.
    Nonetheless, the Federal banking agencies have issued guidance 
setting arbitrary limits on such lending, based on no empirical 
evidence--in particular, any evidence that the capital supporting such 
activity is somehow inadequate. It is a classic example of bank 
regulators substituting their judgment for lenders and markets without 
any meaningful analysis or evidence. For example, regulators require 
banks, in evaluating whether a company is leveraged for purpose of the 
new restrictions, to assume that all lines of credit are drawn, and to 
ignore cash held by the company. As a result, some Fortune 500 
companies with investment grade debt are now deemed by the regulators 
to be highly leveraged, and thus subject to limits on their bank 
borrowing.
    It also appears that this guidance has been supplemented by further 
direction, from examiners to banks, to limit lending activities in the 
area--although the precise details of such direction are unknown as 
they are deemed by the agencies to be ``confidential supervisory 
information,'' and therefore immune to public scrutiny.
    Of course, these loans are subject to capital requirements, and the 
regulators have not identified any flaws in those standards (including, 
in the case of the Federal Reserve, its own CCAR models) that would 
cause these types of loans to be uniquely undercapitalized. Nor have 
the agencies presented any data to show that there is an unhealthy 
concentration of these loans in the banking system. Also, consistent 
with post-crisis behavior in a range of areas, the banking agencies 
have implemented these substantial new limits on bank lending through 
guidance and ``frequently asked questions,'' rather than formal notice-
and-comment rulemaking and regulation. They have nonetheless deemed the 
guidance binding, and enforced it just as if it were a rule.
    As a result of the leveraged lending guidance and examiner 
pressure, banks have been forced to turn away hundreds of millions, 
perhaps billions, of dollars of loans to growing businesses. 
Furthermore, there is scant evidence that leveraged lending guidance 
and subsequent direction have constrained the risk perceived by the 
Federal banking agencies. Despite any potential concerns regarding 
poorly underwritten or low-quality loans, a bank-centric approach is 
simply shifting risk rather than limiting it, and increasing the cost 
to borrowers, as banks tend to be lower cost providers of credit. 
Recent research by a team of Federal Reserve Bank of New York 
economists illustrates that the guidance has had the effect of reducing 
bank activity in this area, but has also increased nonbank activities, 
demonstrating limited effectiveness from a macroprudential view. \26\ 
Notably, those nonbanks do not appear to be experiencing the outsized 
losses that the bank regulators implicitly predicted in forcing banks 
to abandon much of this lending.
---------------------------------------------------------------------------
     \26\ Sooji Kim et al., Liberty Street Economics, ``Did the 
Supervisory Guidance on Leveraged Lending Work?'' (May 2016), available 
at http://libertystreeteconomics.newyorkfed.org/2016/05/did-the-
supervisory-guidance-on-leveraged-lending-work.html.
---------------------------------------------------------------------------
    We recommend that the guidance be rescinded immediately and in its 
entirety, which would provide an immediate boost to economic growth as 
a large number of growing companies once again became eligible for bank 
credit.
B. The Volcker Rule
    Section 619 of the Dodd-Frank Act (commonly referred to as the 
``Volcker Rule'') generally prohibits U.S. insured depository 
institutions, U.S. operations of foreign banks and their affiliates 
from engaging in ``proprietary trading'' and sponsoring or investing in 
hedge and private equity funds subject to some limited exceptions, 
including exceptions for customer-related activities such as market-
making. Prior to the enactment of the Volcker Rule, very few of the 
firms now subject to the Rule engaged in proprietary trading 
activities. Of those that did, many of them were in the process of 
divesting or ceasing their proprietary trading activities. Today, 
trading businesses of covered financial institutions are focused solely 
on serving client needs and hedging the attendant risk.
    The final regulations implementing and interpreting the Volcker 
Rule are voluminous and complex, contained in 964 pages, including an 
893 page preamble. Under these rules, the five U.S. Federal financial 
agencies charged with implementing and enforcing the Volcker Rule have 
interpreted it in a highly restrictive way, with a broad spectrum of 
trading activity (i.e., not only short-term, speculative activities 
that the Volcker Rule was intended to target) presumed to be prohibited 
proprietary trading unless proven otherwise.
    Market-making. Under the rules, a covered banking entity is 
required to go to extraordinary lengths to prove that its routine 
market making and underwriting activities (included related hedging) do 
not constitute ``proprietary trading.'' The agencies have adopted a 
broad definition of proprietary trading with strict requirements for 
permissible activities that could potentially captures legitimate 
market making in less liquid securities, particularly when markets are 
under stress and there is less demand. For example, banking 
organizations are required to strictly limit their inventory to the 
reasonably expected near-term demand of customers or counterparties. 
For debt of smaller companies, which may trade only weekly or even 
monthly (especially during times of stress), banking organizations may 
be required to unduly limit their positions, thus prohibiting them from 
taking any action to stabilize markets.
    Recent research has begun to bear out longstanding reports from 
market participants that the regulations that implement the Volcker 
Rule are inhibiting economic growth and reducing market liquidity by 
constraining the ability of banking groups to buy, sell and underwrite 
securities, including corporate bonds that could help finance the 
operations of corporate customers. A Federal Reserve staff study 
released in December 2016, The Volcker Rule and Market-Making in Times 
of Stress, finds that the illiquidity of stressed bonds has increased 
after the Volcker Rule, as dealers regulated by the rule have decreased 
their market-making activities. \27\ Other research indicates that with 
many brokers constrained in their ability to hold inventory as a result 
of the Volcker Rule and other post-crisis regulations, the secondary 
market for smaller issuers' debt has tightened. The impact is that 
since the enactment of the Dodd-Frank Act in 2010, new debt issuances 
by smaller firms has generally declined. When lower liquidity puts debt 
markets out of reach of smaller firms, it impedes their ability and the 
economy at large to grow.
---------------------------------------------------------------------------
     \27\ See Jack Bao, Maureen O'Hara, and Alex Zhou (2016), ``The 
Volcker Rule and Market-Making in Times of Stress, Finance and 
Economics Discussion Series 2016-102''. Washington: Board of Governors 
of the Federal Reserve System, available at https://doi.org/10.17016/
FEDS.2016.102.
---------------------------------------------------------------------------
    Notably, Congress specifically exempted market making from the 
Volcker rule. Fault here thus lies not with the statute but the regime 
chosen to implement it.
    Funds. The Volcker Rule also prohibits banks from engaging in 
proprietary or speculative trading by investing in private equity or 
hedge funds, notwithstanding the absence of evidence that such 
investments contributed to the financial crisis or have otherwise 
caused outsized losses. While the agencies must implement the statute 
as Congress has enacted it, they have extended its reach to numerous 
other types of funds that bear little in relation to either private 
equity or hedge funds. This has created enormous and unnecessary 
compliance challenges for institutions with asset management businesses 
serving customers seeking to save and build wealth, as well as for 
market making in a number of asset classes, including securitized 
products, covered bonds, and non-U.S. public funds.
    More specifically, the regulation's overly broad definitions of 
``hedge fund'' and ``private equity fund'' (so-called ``covered funds'' 
under the regulations) include vehicles that are not traditionally 
considered to be hedge funds or private equity funds and require 
extensive analysis and documentation of a banking entity's 
determination of whether a particular vehicle is a covered fund or 
qualifies for an exclusion or exemption. Moreover, the Volcker Rule 
regulations restricts banking entities from engaging in activities that 
could promote lending, capital formation and job creation, through 
investing in vehicles such as certain types of credit funds, 
infrastructure funds, energy funds, real estate funds and REITs. In 
addition, the Volcker Rule, as implemented, makes it difficult for a 
bank-owned asset manager to seed and test new asset management 
strategies for customers as a result of the 3 percent statutory limits 
on ultimate bank ownership after an initial 1-year seeding period, the 
unduly burdensome process for extending the temporary seeding period, 
and the lack of clarity on use of bank assets to fund separate account 
seeding structures under the proprietary trading rules. Making the rule 
more rational through appropriately tailored definitions of ``hedge 
fund'' and ``private equity fund'' and more reasonable ancillary 
requirements would lead to more efficient regulations, promote lending, 
capital formation and job creation, and enhance customer offerings and 
financing opportunities.
    Asset-liability management. Firms use portfolios of liquid assets 
to hedge firm-wide risk. These positions are managed by the corporate 
treasury, not traders in the investment bank; are not short-term 
trading positions; and are not engaged in to benefit from short-term 
price movements. Nonetheless, the regulators have imposed the same 
compliance obligations on this activity.
    Enforcement. Five U.S. Federal financial agencies are tasked with 
examining and enforcing compliance with the Volcker Rule, thereby 
complicating efforts by financial institutions to comply with its 
requirements on an enterprise-wide basis and to receive interpretive 
guidance relating to its restrictions.
    The whole approach to Volcker Rule compliance differs radically 
from the standard supervisory paradigm, whereby firms are charged with 
compliance and subject to enforcement action if they fail to comply. 
Only with the Volcker Rule have the agencies set themselves on a ``pre-
crime'' mission, performing constant monitoring for compliance.
    This ``pre-crime'' approach is even odder and more unnecessary 
given a GAO report on proprietary trading during the financial crisis, 
which demonstrated that proprietary trading was not a cause of the 
financial crisis. \28\ Given the idiosyncratic nature of proprietary 
trading's losses (and gains), it does not represent a systemic risk, 
and the prudential risks that both trading and fund activities pose are 
now subject to significantly higher capital charges under the Basel 2.5 
and Basel III reforms. Notwithstanding the relatively low demonstrable 
risk profile of the activities in question, the regulations have 
nonetheless implemented a wide-ranging and highly complex set of 
requirements that have and will continue to impair markets and slow the 
real economy. These consequences are only exacerbated by the extra-
territorial manner with which the agencies have implemented the Volcker 
Rule's restrictions.
---------------------------------------------------------------------------
     \28\ Government Accountability Office, ``Proprietary Trading: 
Regulators Will Need More Comprehensive Information to Fully Monitor 
Compliance With New Restrictions When Implemented'' (July 2011), 
available at www.gao.gov/assets/330/321014.pdf.
---------------------------------------------------------------------------
    Impact on asset-liability management. The risk of proprietary 
trading in a corporate treasury function, where assets are held in 
available-for-sale or held-to-maturity accounts, is remote at best. But 
the Volcker compliance regime is not tailored to the risk that 
proprietary trading will actually occur, and therefore corporate 
treasuries face high burdens in defending business-as-usual activity.
    Needed reforms. Given the breadth and scope of these problems, the 
financial regulators should revise their Volcker Rule regulations to 
establish simpler criteria for identifying what trading and fund 
activities are impermissible and a simpler and more reasonable process 
for conducting examinations and issuing interpretive guidance. They 
should eliminate the regulation's odd presumption that all trading 
activity is illegal unless it can be proven to supervisory 
satisfaction, through detailed analysis and continuous monitoring, to 
meet a laundry list of specific criteria. Proprietary trading can be 
easily distinguished by just a few key features. These regulatory 
changes should be complemented with a shift in the compliance regime 
from real-time enforcement to traditional reliance on bank compliance 
and internal audit functions, with examiners reviewing their results; 
specialized compliance program requirements and unnecessary metrics 
should be eliminated. The result would be a substantial improvement in 
market liquidity and investment in funds that promote capital formation 
and job creation.
VI. Reforming Supervision, Examination, and Enforcement
    We believe that bank supervision (as opposed to regulation) has 
lost its way post-crisis, and requires a comprehensive reexamination. 
While the link to economic growth in this area is less direct than in 
the others cited, it is very real.
    In sum, three developments have converged to restrict or even halt 
the ability of many banks to open branches, invest, or merge to better 
meet the needs of their customers. First, even as banks have 
dramatically improved their financial condition by increasing their 
capital, liquidity, and asset quality positions, supervisors have 
transformed the supervisory scorecard (the CAMELS rating system) from a 
measurement of financial condition to a measurement of compliance. 
Second, supervisors have adopted a series of unwritten rules that 
produce lower CAMELS ratings. Third, supervisors have adopted another 
series of unwritten, or in some cases written, rules (albeit none with 
any basis in statute) that translate those low ratings and other 
supervisory issues into a bar on expansion. The result is a regime, 
effectively invented by bank supervisors without notice and comment or 
Congressional input, that makes an examiner's expectations regarding 
bank compliance matters a fundamental determinant of whether banks can 
invest and grow.
    For perspective, consider that we routinely see serious compliance 
violations across a wide range of American industries. Those companies 
are subjected to enforcement proceedings and are required to pay fines 
and remediate their practices, but no one ever suggests that while 
those proceedings are pending they should be stopped from opening new 
franchises, building new plants, developing new drugs, designing new 
cars, or launching new apps. Yet somehow we have reached the point in 
banking where the punishment for a compliance problem routinely 
includes, in addition to a vast array of civil and criminal liabilities 
imposed by a wide array of Federal and State authorities (often by 
multiple authorities for the same underlying conduct), a prohibition on 
any type of expansion by the bank. The opportunity lost is not just for 
the bank but for its customers, and ultimately an economy that relies 
on its banking system for financing.
    Of course, banking is different in the sense that bank deposits are 
insured by the FDIC. But that gives Government a special interest in 
the financial condition of banks. As a result, Congress has in limited 
instances linked expansion to financial condition. As we will see, 
though, financial condition is no longer what banks are being graded 
on, and the penalties for a bad grade now vastly exceed what Congress 
has authorized.
    Another result is simply a massive cost, which must be passed along 
to consumers, as described in M&T Bank's most recent annual report 
message to shareholders:

        At M&T, our own estimated cost of complying with regulation has 
        increased from $90 million in 2010 to $440 million in 2016, 
        representing nearly 15 percent of our total operating expenses. 
        These monetary costs are exacerbated by the toll they take on 
        our human capital. Hundreds of M&T colleagues have logged tens 
        of thousands of hours navigating an ever more entangled web of 
        concurrent examinations from an expanding roster of regulators. 
        During 2016 alone, M&T faced 27 different examinations from six 
        regulatory agencies. Examinations were ongoing during 50 of the 
        52 weeks of the year, with as many as six exams occurring 
        simultaneously. In advance of these reviews, M&T received more 
        than 1,200 distinct requests for information, and provided more 
        than 225,000 pages of documentation in response. The onsite 
        visits themselves were accompanied by an additional, often 
        duplicative, 2,500 requests that required more than 100,000 
        pages to fulfill--a level of industry that, beyond being 
        exhausting, inhibits our ability to invest in our franchise and 
        meet the needs of our customers. \29\
---------------------------------------------------------------------------
     \29\ M&T Bank Chief Executive Office Robert G. Wilmers, 2016 
Annual Report Message to Shareholders (Mar. 9, 2017), available at 
https://newsroom.mtb.com/document-archive/annual-report-letters/2016-
annual-report-message-to-shareholders.htm.
---------------------------------------------------------------------------
A. CAMELS Ratings
    The centerpiece of bank supervision is the CAMELS rating system. It 
was created by examiners in 1979 as a scorecard to evaluate an 
institution's ``financial condition and operations''--in other words, 
its safety and soundness. (Interestingly, the creation of the CAMELS 
system was not specifically mandated by any statute or regulation.) The 
CAMELS system evaluates a bank across six categories--Capital, Asset 
quality, Management, Earnings, Liquidity, and Sensitivity to market 
risk, especially interest rate risk--and assigns a composite rating, 
all on a scale of 1 (best) to 5. With the sole exception of a few small 
changes in 1996 (most notably, the addition of the ``S'' component), 
the CAMELS standards have not been materially updated in the almost 40 
years since their adoption--not after adoption of the original Basel 
Accord on capital in 1988, the Basel III regime in 2010, the 
Comprehensive Liquidity Analysis and Review in 2012, or the Liquidity 
Coverage Ratio in 2014.
    The result is a system that is hopelessly out of date. Detailed 
capital, liquidity, and other rules have been expressly designed and 
carefully calibrated to evaluate the key components of the CAMELS 
ratings: capital, liquidity, and, less obviously, earnings and asset 
quality, which are now evaluated through stress testing for certain 
banks. Thus, for example, the published standards that examiners apply 
in deciding the capital component of the rating do not include 
consideration of any post-1978 regulatory capital standards--or any 
market indicators, which also have grown in sophistication over the 
past 40 years. There is no mention of CCAR, the self-described 
Comprehensive Capital Analysis and Review. Rather, the published 
standards speak vaguely of factors like ``the ability of management to 
address emerging needs for additional capital.'' This is not to say 
that there cannot be cases where a bank that is deemed well-capitalized 
under the current 35-plus different capital tests could not, in theory, 
still require more capital. It is, however, pretty unlikely.
    It is worth examining the predictive ability of CAMELS ratings. 
Consider the number of banks rated as weak (CAMELS 3, 4, or 5 in 
Exhibit 1).




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    This chart seems to demonstrate little predictive ability for 
CAMELS ratings, even when they were focused on financial condition. In 
2007, a small percentage was rated as weak, but hundreds failed.
    Changing the subject: The move from financial condition to 
compliance. The appropriate response to the diminished value of CAMELS 
as a measure of financial condition would have been to decrease its 
importance in the supervisory process or incorporate better measures of 
financial condition. To their credit, the Federal Reserve and other 
banking agencies adopted several crucial post-crisis reforms to improve 
bank resiliency: most notably, CCAR stress testing, Basel III, and the 
LCR. However, exactly because more objective, analytically sound 
standards have overtaken the CAMELS system as a gauge of financial 
condition, examiners have shifted their emphasis to the one entirely 
subjective component: management. And not management as viewed through 
the lens of maintaining sound financial condition, but rather through 
the lens of ``compliance''--not just with laws, but with examiner 
guidance and criticisms too.
    Various ``unwritten rules'' reportedly have been adopted as part of 
this shift:

  <bullet>  All components do not count equally toward the composite 
        rating; the management rating counts the most, and it 
        increasingly appears that the composite rating cannot be higher 
        than the management rating. This elevation of management as the 
        ``super component'' has never been subject to public comment. A 
        1996 update to the CAMELS standards stated that ``the 
        management component is given special consideration when 
        assigning a composite rating.'' Over time, it has become the 
        dominant consideration.

  <bullet>  The management rating does not depend primarily on the 
        financial condition of the bank (because, if it did, it would 
        track the other ratings), but rather on compliance with banking 
        agency rules and guidance. In practice, any compliance problem 
        resulting in enforcement action or penalty, regardless of its 
        materiality, can result in a downgrade of management; so, too, 
        can unresolved ``Matters Requiring Attention'' (a confidential 
        examiner criticism).

  <bullet>  Management ratings increasingly are driven by the results 
        of a consumer compliance rating that was adopted as an 
        independent evaluation.

    Thus, the examination system has changed from primarily an 
evaluation of the safety and soundness of an institution to, 
increasingly, an evaluation of routine compliance matters and the 
readiness with which management accedes to examiner criticism. And this 
change has been accompanied by a substantial increase in the 
consequences of a low rating, with supervisors raising the stakes 
dramatically. While compliance matters are important, they are not 
uniquely and exclusively important, and should not pollute a system 
designed for an altogether different, and vital, safety and soundness 
purpose.
    Consequences. Bankers now routinely refer to being in the ``penalty 
box,'' where they cannot expand through investment, merger, or adding a 
branch. Mid-size and regional banks are particularly affected. There 
are various ways into the penalty box:

  <bullet>  As described above, a ``3'' rating for management operates 
        as a halt on expansion. Under section 4(k) of the Bank Holding 
        Company Act, a financial holding company whose bank receives a 
        ``3'' rating for management must receive Federal Reserve 
        approval to expand certain nonbanking activities. Regulators 
        now extend that to almost any type of expansion, or at least to 
        any expedited review of branching or other applications.

  <bullet>  Any AML consent order operates as a multiyear ban on 
        expansion for any purpose, regardless of the seriousness of the 
        conduct motivating the order or the progress made by the firm 
        in remediating it. While consent orders bring to mind large 
        banks in highly publicized cases, small and midsized banks 
        routinely receive such orders.

  <bullet>  A ``Needs Improvement'' CRA rating also operates as a 
        multiyear ban, regardless of what triggered it or how it is 
        being remediated. While some statutes governing expansion 
        require an assessment of management (for example, the Bank 
        Holding Company Act, governing bank acquisitions), many do not. 
        And of those that do, each speak in particular to ``management 
        resources''--presumably, the ability of management to oversee 
        an integration--and not compliance issues. Large banks have 
        sufficient resources to remediate problems in one area while 
        expanding in another area--for example, to remediate an AML 
        issue at an overseas subsidiary while opening a new branch in 
        the Midwest United States.

    The results of this new supervisory regime are significant:

  <bullet>  Many banks--of all sizes, but particularly midsized banks--
        have been blocked from branching, investing, or merging to meet 
        their customers' needs.

  <bullet>  Bank technology budgets often are devoted primarily not to 
        innovation but to redressing frequently immaterial compliance 
        concerns.

  <bullet>  Board and management time is diverted from strategy or real 
        risk management and instead spent remediating frequently 
        immaterial compliance concerns and engaging in frequent 
        meetings with examiners to ensure that they are fully 
        satisfied. Numerous banks report that their boards now spend a 
        majority of their time on regulation and compliance.

    Of course, for examiners interested in having their compliance 
criticisms acknowledged and immediately remediated, this system works 
well. But as we note, it is not a tool that regulators in any other 
industry feel they need, and it has important economic consequences.
    Recommendations. A few core reforms are necessary. The first is an 
unequivocal statement that the purpose of a CAMELS rating is to assess 
the financial condition of the bank from the perspective of its 
potential risk to the Deposit Insurance Fund. The second is the 
withdrawal of the Federal Reserve's SR Letter 14-02 and all other 
restrictions on bank expansion that do not have a basis in statute or a 
regulation adopted pursuant to the Administrative Procedure Act. The 
third is a complete overhaul of the CAMELS regime (including its 
potential replacement) that emphasizes clear, cogent, and objective 
measures of financial condition over vague, arbitrary, and subjective 
ones.
B. Tailoring of Enhanced Prudential Standards
    As we have described above, post-crisis regulatory reforms have 
established a myriad of new prudential requirements for banking 
organizations. The scope of application varies by requirement, but in 
many cases new regulations have been applied in a uniform fashion to 
large and diverse cohorts of banks of differing sizes, business models 
and risk profiles. For example, the Federal Reserve has implemented a 
number of so-called ``enhanced prudential standards'' under section 165 
of the Dodd-Frank Act (including capital, liquidity, and other 
requirements) on the basis of asset size thresholds.
    While the Federal Reserve has made some effort to tailor its 
enhanced prudential standards (e.g., by providing for a modified LCR 
for some firms and recently eliminating the CCAR qualitative assessment 
for others), it has generally done so based on arbitrary size 
thresholds rather than careful consideration of the scope and type of 
regulation warranted by different business models, risk profiles and 
other more meaningful criteria. And in many cases, the Federal Reserve 
has established one-size-fits-all rules that are not tailored at all. 
The result is insufficiently tailored regulatory regime for many banks 
that imposes unnecessary burdens and unduly limits their ability to 
lend to and otherwise support businesses and consumers. There is 
therefore a clear need to review all enhanced prudential standards 
established under section 165 of the Dodd-Frank Act in order to 
identify and implement more appropriate and robust tailoring of their 
scope and extent of application; doing so would better enable banks 
unduly and unnecessarily burdened by the current regime to lend and 
otherwise serve customers and the economy.
C. Regulation of Foreign Banking Organizations
    Generally outside the notice of policymakers, foreign bank 
operations in the United States have decreased somewhat in recent 
years.
    Certainly, one cause of this retrenchment has been a delay in 
foreign banks' recapitalization post-crisis, global economic 
instability, and a general need to reduce balance sheet size. However, 
U.S. requirements have been another key driver, as recent years have 
also seen extensive revision to the rules and regulations governing 
foreign banking organizations (FBOs) that have U.S. operations. In 
particular, the Federal Reserve has required that, on the basis of 
asset size thresholds, many FBOs operating in the United States 
establish intermediate holding companies (IHCs) through which their 
U.S. activities must be operated and managed. These IHCs in turn are 
now subject to a wide range of new prudential requirements, including 
capital, liquidity, stress-testing, resolution planning and other 
rules. The resulting regime is one that is simply not appropriately 
tailored to the varying sizes, business models, and risk profiles of 
different types of FBOs and the inherently sub-consolidated nature of 
their U.S. operations.
    For example, the stand-alone capital and liquidity requirements 
applied to the U.S. IHC of an FBO effectively hinder the foreign 
parent's ability to allocate capital and liquidity across its entire 
global business. All internationally active banks (whether foreign or 
domestic) manage their capital and liquidity on a consolidated, global 
basis, oftentimes acting nimbly to allocate financial resources to 
geographic locations or business operations where it is needed in a 
time of stress. Stand-alone U.S. capital and liquidity requirements 
effectively trap those resources in the FBO's U.S. IHC, making them 
unavailable for use elsewhere. The U.S. regime, which also mandates 
stress testing at the IHCs, ignores (and duplicates) similar 
consolidated requirements imposed on the FBOs by their home country 
authorities. And of course, for the various U.S. capital and liquidity 
rules that are applied to the U.S. IHC of FBOs, the general concerns 
and recommendations that we have highlighted earlier in this paper are 
just as relevant, and apply equally.
    On top of these capital, liquidity, and stress test requirements, 
the Federal Reserve also has required foreign GSIBs to ``pre-position'' 
extraordinarily high amounts of internal TLAC. This stands in contrast 
to the process described in the FSB's term sheet on TLAC, which the 
Federal Reserve developed in coordination with foreign supervisors; 
that process identifies a range of potential internal TLAC 
requirements, with the precise requirement to be established on an 
institution-specific basis through collective dialogue among that 
institution's home and host country supervisors. Instead, the Federal 
Reserve imposed internal TLAC requirements at the top end of the FSB 
range, unilaterally. Here, too, the result is insufficiently tailored 
regulatory regime for many FBOs that imposes unnecessary burdens and 
unduly limits their ability to lend to and otherwise support businesses 
and consumers.
VII. Conclusion
    Our banking system now stands on a solid foundation of capital and 
liquidity. That foundation affords us the opportunity to consider 
whether particular components of the regulatory and supervisory regime 
are unnecessary, duplicative or more stringent than necessary to 
achieve safety and soundness and financial stability goals. 
Considerable economic benefits can be achieved through such a 
reexamination.
                                 ______
                                 
               PREPARED STATEMENT OF ROBERT R. HILL, JR.
Chief Executive Officer, South State Corporation, on behalf of Mid-Size 
                       Bank Coalition of America
                             June 15, 2017
    Chairman Crapo, Ranking Member Brown, and Members of the Committee, 
I am Robert Hill, CEO of South State Corporation, which is the holding 
company of South State Bank. South State, founded in 1933, is 
headquartered in Columbia, South Carolina, and serves communities in 
South Carolina, North Carolina and Georgia. In January of this year, 
our bank passed the $10 billion in assets threshold, which subjects 
South State to unduly burdensome requirements under the Dodd-Frank Act. 
In light of this experience, I appreciate the opportunity to present 
the views of the Mid-Size Bank Coalition of America (MBCA) on the 
significant compliance burden placed on midsize banks as a result of 
Dodd-Frank.
    The MBCA is the voice of 78 midsize banks in the United States with 
headquarters in 29 States. MBCA member banks are primarily between $10 
billion and $50 billion in asset size, average less than $20 billion, 
and serve customers and communities through more than 10,000 branches 
in all 50 States, the District of Columbia, and three U.S. territories. 
Midsize banks most often are the largest, local bank serving 
communities, many for more than a century.
    Unlike the largest banks in the country, for whom lending is 
largely automated, midsize banks are run by people who are focused on 
establishing long-term relationships with our communities and our 
customers on a daily basis. As a result, we are able to use actual 
knowledge of our customers and base our credit decisions on intangible 
factors, such as character and local economic conditions. We have also 
made the necessary risk and compliance investments that support our 
business models, which are uniformly based on stable deposit funding, 
revenues driven by traditional banking activities well-understood by 
bank management and regulators and limited or no trading operations or 
market-making activity. In sum, midsized banks have prudent business 
models that contribute to economic growth and support financial 
stability. To the extent restraints can be reduced, midsized banks can 
provide even more credit and support to small businesses and Main 
Street.
    Under Dodd-Frank, crossing the $10 billion in assets threshold has 
harsh implications for midsize banks. When banks cross $10 billion, 
they are considered midsized institutions--a designation that 
introduces an enhanced supervisory approach from regulators. These 
banks can expect more frequent compliance requirements, which may 
include full-scope examinations coupled with regular, targeted reviews. 
In connection with these additional burdens, midsize banks must 
allocate further resources to compliance, from business units to senior 
management and the board of directors.
    The imposition of these demands does not benefit the public in any 
appreciable way. These requirements drain resources of midsize banks, 
and less money is thus available to provide credit to individuals and 
small businesses in our communities. For example, as a result of this 
threshold, South State incurs costs over $20 million per year.
    In April of this year, the MBCA submitted a letter to the Chairman 
and Ranking Member urging the Committee to revisit the $10 billion 
number, an arbitrary figure that does not meaningfully capture systemic 
risk. In addition to the unfair consequences of using this number that 
already exists, the MBCA is deeply concerned the figure could become 
the default threshold for even more rules and regulations in the 
future.
    The MBCA's highest priority would be to eliminate the $10 billion 
threshold and replace the number with an activities-based standard, 
which would focus regulation more closely on systemic risk, or, at a 
minimum, to raise the threshold to an appropriate level. The key 
sections of Dodd-Frank, which will need to be amended in this regard, 
are Sections 165, 1025, 1026, and 1075.
    As an example, Section 165 imposes a mandatory stress testing 
burden on banks between $10 billion and $50 billion, known as the Dodd-
Frank Annual Stress Test (DFAST). Former Federal Reserve Governor 
Daniel Tarullo testified before Congress that such testing is not 
necessary, and, in fact, it is actually a burden on the regulators with 
no commensurate regulatory benefit. As CEO of an institution that 
recently passed the $10 billion threshold, I can personally attest to 
the significant compliance burden that follows and the cost that it 
entails.
    Independent Bank of Texas, an MBCA member bank with assets of just 
under $10 billion, estimates the cost of implementing the mandatory 
stress testing required under Section 165, in the event it crosses the 
$10 billion threshold, would be $5-6 million in the year of 
implementation and $2-3 million per year thereafter. Independent Bank 
has stated they will have to add a team of three to four people to 
manage this process.
    All of this cost would be for something Governor Tarullo has 
testified provides no regulatory benefit. In addition, the current 
regulatory regime imposed by Section 165 forces midsize banks to divert 
capital away from the products we offer and the lending that drives 
growth and development in our communities. The MBCA believes freeing 
midsize banks from the unreasonable burdens posed by Section 165 should 
be one of your highest priorities.
    To this end, we applaud Senators Moran, Tester, and Heitkamp for 
sponsoring S.1139, the Main Street Regulatory Fairness Act, which would 
remove the DFAST mandate currently imposed on banks between $10 billion 
and $50 billion in assets. As Senator Tester noted, ``This bill cuts 
red tape and makes it easier for Main Street lenders to invest in 
entrepreneurs, families buying their first home and parents sending 
their kids to college.''
    The MBCA also applauds Senators Tester and Moran for introducing 
the CLEAR Relief Act of 2017, which would provide the Qualified 
Mortgage protections to loans originated and held in portfolio by banks 
under $10 billion. The MBCA, however, strongly urges the Committee, as 
it moves this legislation forward, to not limit this important relief 
to banks under $10 billion. The rationale for the Qualified Mortgage 
protections relates to the fact the banks with the status are holding 
the mortgage loans in portfolio. It has nothing to do with the size of 
the institution holding the mortgage. Using the arbitrary $10 billion 
figure once again reinforces this number with no rational basis.
    In our market, we have a lot of retirees, who do not have jobs. As 
a result, they do not meet the QM status requirements. If we are 
keeping the mortgages on our books, we believe we should be given QM 
status. Otherwise, it is not just the bank that is impacted, but our 
consumers are unfairly limited in their choices.
    Former House Financial Services Chairman Barney Frank, one of the 
principal authors of Dodd-Frank, has testified that he supports giving 
a safe harbor status on loans where the lender retains the risk by 
holding the loan in portfolio. A loan made by a bank and held to 
maturity is the strongest possible statement of confidence in the 
ability of the borrower to repay regardless of the size of the bank.
    We have only raised two examples where the $10 billion figure 
currently imposes--or may impose--an unnecessary burden on midsized 
banks. But there are a variety of thresholds that need to be 
eliminated, replaced by an activities-based standard or, at a minimum, 
raised substantially to capture systemic risk. This is not simply about 
fairness to midsize banks. It is fundamental to growing our economy.
    Recently, the MBCA asked its member banks to submit examples from 
their customers of specific, real-world customer impacts from the 
current regulatory system. The examples received included everything 
from mortgages rejected because of the ability to repay/qualified 
mortgages requirement to business loans not made. These examples have 
one thing in common--the absence of economic activity due to 
unnecessary regulatory requirements, which results in limited to no job 
creation and growth.
    As Main Street banks, we support a regulatory regime that 
encourages prudent behavior and protects our customers. But we also 
need common-sense regulation that does not unnecessarily impose burdens 
and impede the banking services communities need to create jobs and 
drive economic growth--and this, in our view, requires a move away from 
the Dodd-Frank $10 billion regulatory threshold. I am happy to answer 
any questions the Committee may have, and again appreciate the 
opportunity the Committee has given the MBCA to express its views.
                                 ______
                                 
                 PREPARED STATEMENT OF SAULE T. OMAROVA
                  Professor of Law, Cornell University
                             June 15, 2017
    Dear Chairman Crapo, Ranking Member Brown, Members of the 
Committee: Thank you for inviting me to testify at this hearing. My 
name is Saule Omarova. I am Professor of Law at Cornell University, 
where I teach subjects related to U.S. and international banking law 
and financial sector regulation. Since entering the legal academy in 
2007, I have written numerous articles examining various aspects of 
U.S. financial sector regulation, with a special focus on systemic risk 
containment and structural aspects of U.S. bank regulation. For 6 years 
prior to becoming a law professor, I practiced law in the Financial 
Institutions Group of Davis Polk & Wardwell and served as a Special 
Advisor on Regulatory Policy to the U.S. Treasury's Under Secretary for 
Domestic Finance. I am here today solely in my academic capacity and am 
not testifying on behalf of any entity. I have not received any Federal 
grants or any compensation in connection with my testimony, and the 
views expressed here are entirely my own.
    The global financial crisis of 2007-09 has left a deep, crippling 
mark both on the American economy and on the lives of millions of 
Americans who lost their homes, their jobs, their savings, and their 
hopes for a better future. It threw the country into a prolonged 
economic recession, accompanied by growing levels of poverty, 
inequality, and political discord. According to an estimate by the 
Federal Reserve Bank of Dallas, the crisis resulted in an economy-wide 
output loss of up to $14 trillion, or $120,000 per single U.S. 
household--both of which amounts will easily double if the broader 
economic and societal effects of the crisis are permanent. \1\ These 
output losses triggered a familiar vicious circle of economic 
stagnation and instability. Faced with steadily declining real incomes, 
Americans are forced to finance their consumption with an increasingly 
unsustainable debt, which already reached a record $13 trillion mark. 
\2\ Debt overhang depresses consumer spending, which in turn leads to 
further contraction in production and employment. \3\
---------------------------------------------------------------------------
     \1\ David Luttrell, Tyler Atkinson, Harvey Rosenblum, ``Accessing 
the Costs and Consequences of the 2007-09 Financial Crisis and Its 
Aftermath'', DallasFed Economic Letter, Vol. 8, No. 7 (Sept. 2013), 
available at https://www.dallasfed.org/research/eclett/2013/el1307.cfm, 
at 1-2.
     \2\ See, Matt Scully, ``Trumps' America Is Facing a $13 Trillion 
Consumer Debt Hangover'', Bloomberg.com (6 June 2017), available at 
https://www.bloomberg.com/news/articles/2017-06-06/trump-s-america-is-
facing-a-13-trillion-consumer-debt-hangover?srnd=157391092.
     \3\ See, Robert Hockett and Richard Vague, ``Debt, Deflation, and 
Debacle: Of Private Debt Write-Down and Public Recovery'' (2013), 
available at https://www.interdependence.org/wp-content/uploads/2013/
04/Debt-Deflation-and-Debacle-RV-and-RH1.pdf.
---------------------------------------------------------------------------
    Furthermore, neither economists' estimates nor the actual 
statistics capture the enormous nonpecuniary--or human--costs of the 
crisis, including the lasting psychological effects of unemployment, 
underemployment, diminished job security and reduced opportunity. While 
difficult to quantify, these ``hidden'' costs of the financial crisis 
will be borne by the American people for years to come.
    Yet, the very same financial institutions whose reckless profit-
seeking created the crisis in the first place were largely protected 
from the downside of their own excessive risk-taking, because the 
Federal Government was compelled to bail them out. Not only did the 
2008-09 bailouts effectively exact ``an unfair and nontransparent tax 
upon the American people'' but they also significantly undermined 
public trust in the American capitalist system, thus undermining the 
system itself. \4\
---------------------------------------------------------------------------
     \4\ Luttrell et al., supra note 1, at 3.
---------------------------------------------------------------------------
    In this context, the Committee's current efforts to evaluate the 
role of financial institutions in fostering America's economic growth 
acquire particular significance. Promoting sustainable, stable long-
term growth is an issue of enormous political as well as economic 
importance. It is the only way of remedying pervasive socially 
destructive consequences of the financial crisis: only by deliberately 
and systematically channeling public and private efforts toward the 
expansion of productive capacity and employment in the real (i.e., 
nonfinancial) sector of the national economy can we reverse the 
crippling effects of the extraordinary wealth transfer from the 
American taxpayers to the financial industry that the latest crisis 
laid bare for all to see. There is hardly a greater task facing 
Congress today, and the Committee's decision to tackle it is a much 
needed act of public-minded statecraft.
    Ironically, however, the financial industry is using this 
opportunity to mount a massive lobbying effort to achieve the opposite 
goal: to reverse key post-crisis regulatory reforms enacted with an 
explicit goal of curbing financial institutions' ability to generate--
and then socialize--excessive levels of risk in the financial system. 
The industry explicitly targets the Dodd-Frank Wall Street Reform and 
Consumer Protection Act of 2010 (the ``Dodd-Frank Act'' or the 
``Act''), the centerpiece of post-crisis financial regulation reform. 
\5\ In effect, banks are trying to put the Dodd-Frank Act on trial 
under the rhetorical guise of ``fostering economic growth.'' It is, 
however, a dangerous misconception to equate economic growth with 
financial sector deregulation: not only are the two phenomena 
fundamentally different but, as explained below, they are often 
mutually exclusive.
---------------------------------------------------------------------------
     \5\ Dodd-Frank Wall Street Reform and Consumer Protection Act of 
2010, Pub. L. No. 111-203, 124 Stat. 1376 (2010) (codified at 12 U.S.C. 
5301 et seq. (2012)).
---------------------------------------------------------------------------
    It is especially ironic--indeed, astounding--to watch the financial 
industry complain about its supposedly unbearable regulatory compliance 
costs, when the industry is doing exceptionally well for itself. All 
banks and their parent-companies, regardless of size, saw their profits 
increase steadily during the entire time after the Dodd-Frank Act was 
passed in 2010. In 2016 alone, banking institutions earned a total of 
$175 billion in net profits. \6\ This is not a sign of a struggling 
industry.
---------------------------------------------------------------------------
     \6\ The total number for 2016 is the sum of the revenant quarterly 
numbers. See, Federal Reserve Bank of New York, ``Quarterly Trends for 
Consolidated U.S. Banking Organizations'', available at https://
www.newyorkfed.org/medialibrary/media/research/banking--research/
quarterlytrends2016q4.pdf?la=en.
---------------------------------------------------------------------------
    Of course, it may be reasonable, and even desirable from the public 
policy perspective, to revisit the continuing efficacy of certain post-
crisis laws and regulations or to recalibrate their application to 
certain small, low-risk financial institutions. If carefully designed 
and thoughtfully implemented, such recalibration may help to increase 
the availability of affordable local financing to small businesses in 
some rural and small-town areas. However, even under the best of 
circumstances, that possibility alone is not sufficient to support a 
wide-ranging repeal or rollback of the existing financial laws and 
regulations. Any such measure would directly and disproportionately 
benefit large, complex, systemically risky megabanks by removing all 
meaningful constraints on their ability to destabilize the Nation's 
financial system and, once again, jeopardize American taxpayers' long-
term (and even short-term) well-being. It is against this background 
that the Committee should evaluate every proposal for regulatory reform 
submitted to it by self-interested industry players.
I. Financial Deregulation Is Likely To Hinder, Not Foster, Real 
        Economic Growth
    The starting point of all deregulatory proposals and arguments 
advanced by the financial industry is a blanket assertion to the effect 
that financial institutions' core, if not sole, business purpose is to 
finance America's economic growth. Accordingly, the argument goes, any 
regulatory constraint on financial institutions' business activities, 
by definition, restricts their ability ``to serve customers, grow the 
economy and create jobs.'' \7\ Therefore, an implicit conclusion 
follows, removing such regulatory constraint will necessarily and 
automatically improve customers' lives, boost the economy, and create 
jobs.
---------------------------------------------------------------------------
     \7\ Letter to The Honorable Michael D. Crapo and The Honorable 
Sherrod Brown from Francis Creighton, Executive Vice President of 
Government Affairs of Financial Services Roundtable (Apr. 14, 2017) 
[the ``FSR Letter''], at 1.
---------------------------------------------------------------------------
    It is an inherently faulty argument, insofar as these financial 
institutions--regardless of their size or other attributes--are 
privately owned firms whose overarching business priority is to 
maximize their own profits and shareholder returns, not the Nation's 
macroeconomic goals. It becomes a deliberately misleading and dangerous 
argument, however, when used by large financial institutions the bulk 
of whose profits comes from massive secondary-market trading and 
dealing operations.
    The financial industry's argument either inadvertently conflates or 
deliberately confounds two very different things: (1) actual growth in 
the real economy, and (2) mere speculation-driven asset price inflation 
in the secondary markets.
    It is indisputable that what America needs is real economic growth: 
stable and sustainable long-term growth of the real--i.e. 
nonfinancial--sector of the national economy. We urgently need to grow 
our Nation's industrial output and capacity, to facilitate employment- 
and wealth-generating technological advances, to rebuild and modernize 
the country's physical and social infrastructure. We also need to 
ensure that the benefits of these real growth-promoting activities are 
distributed more equally and fairly, so as to restore the lost strength 
of America's middle class and to enable lower-income American families 
to move up the ladder of economic and social success. It is this kind 
of real, sustainable, structurally balanced, and socially inclusive 
economic growth that is necessary in order to help the country recover 
from the post-crisis economic recession.
    It is also fundamentally different from the mere asset price 
inflation, or growth in prices at which various already existent 
assets--stocks, bonds, commodities, real estate, etc.--are traded in 
secondary markets. Because increases in market value of such tradable 
assets at least temporarily increase their owners' individual wealth, 
the aggregate growth in the market value of all such assets is 
routinely and erroneously taken as a direct indicator of the aggregate 
economic ``wealth'' or national economic ``growth.'' Of course, an 
increase in the current market price of a particular company's stock 
may reflect, at least in part, an increase in that company's real-life 
productivity. But it may also reflect merely the generalized 
expectations of today's stock buyers that those prices will be even 
higher tomorrow. In that sense, all asset price inflation is inherently 
speculative: it is not directly or necessarily linked to actual 
productive gains in the real economy. \8\
---------------------------------------------------------------------------
     \8\ ``The Fundamental Logic of Speculative Manias and Crashes Has 
Been Explained and Documented Many Times''. See, Charles P. 
Kindleberger and Robert Aliber, ``Manias, Panics, and Crashes: A 
History of Financial Crises'' (2005); Erik Gerding, ``Law, Bubbles, and 
Financial Regulation'' (2013).
---------------------------------------------------------------------------
    Moreover, speculative asset price inflation, in fact, significantly 
impedes real economic growth. There are two reasons why that is the 
case.
    First, by making purely speculative investments financially 
attractive, asset price inflation effectively diverts investment flows 
away from the primary markets in which companies raise new capital for 
expanding their productive capacity. Put simply, investors looking to 
put their money to use in financial markets face two competing choices: 
asset price speculation (an easy short-term commitment of capital with 
virtually no ``hard'' constraints on the upside) or productive 
investment in the real economy (a long-term commitment of capital with 
various real-life constraints on potential returns). In that sense, 
asset price inflation actively undermines the real economy's potential 
for productive, employment-generating growth that America so 
desperately needs.
    Second, asset price inflation creates instability that directly 
threatens the economy's ability to operate and grow. When speculation-
induced asset price inflation reaches its peak, the inevitable market 
crash tends to be fast and furious. During these dramatic moments, 
markets tend to over-correct, sending asset prices far below the levels 
supported by the ``fundamentals.'' Thus, the ultimate bursting of an 
unsustainable speculative bubble wipes out not only the artificial, 
purely speculative gains in asset values but also a lot of real 
economic wealth. Massive defaults, bankruptcies, business closures, 
worker layoffs, and other familiar symptoms of a severe ``market 
correction'' extinguish both the fruits of the Nation's past and the 
foundations of its future economic growth and prosperity.
    To appreciate these dynamics, one need not go as far back as the 
Great Depression and the Roaring Twenties that led to it. More recent 
history provides plenty of evidence to the same effect.
    In the era of massive financial sector deregulation, throughout the 
1990s and all the way until 2008, America's economic boom was based 
largely on secondary-market asset price inflation. This trend is 
particularly visible in the period after the enactment of the Gramm-
Leach-Bliley Act of 1999 (the ``GLB Act''), which repealed the Glass-
Steagall Act's prohibition on combining, under the same corporate roof, 
traditional banking activities and full-blown dealing and trading in 
securities and other financial (and even nonfinancial) markets. \9\ 
Throughout the 1990s, large financial institutions--both commercial 
banks and investment banks--lobbied for this ``regulatory relief'' from 
the supposedly outdated Glass-Steagall rules, using the familiar 
rhetoric of ``facilitating economic growth'' and providing ``more 
choices'' and ``better services'' to their customers.
---------------------------------------------------------------------------
     \9\ Financial Services Modernization Act (Gramm-Leach-Bliley Act), 
Pub. L. No. 106-102, 113 Stat. 1338 (1999).
---------------------------------------------------------------------------
    Once enacted, the GLB Act unleashed an unprecedented consolidation 
in the financial services industry and the emergence of a handful of 
extremely large FHCs that began aggressively growing their large-scale 
trading and dealing operations in securities, derivatives, short-term 
money-like instruments, and physical commodities. \10\ Their core 
banking operations, while still a critical point of access to public 
subsidy, quickly lost their status as the ``core'' source of 
profitability. \11\ In the short 9 years between the enactment of the 
GLB Act and the near-collapse of the financial markets in the fall of 
2008, these universal megabanks have effectively turned into universal 
dealers making secondary markets in everything and anything that could 
be quantified and turned into a trading asset. A result of this 
unprecedented growth of secondary market speculation was an equally 
unprecedented asset price inflation--a story aptly told by many an 
expert already.
---------------------------------------------------------------------------
     \10\ See, Arthur E. Wilmarth, Jr., ``The Dark Side of Universal 
Banking: Financial Conglomerates and the Origins of the Subprime 
Financial Crisis'', 41 Conn. L. Rev. 963, 1002-46 (2009).
     \11\ See, Federal Reserve Bank of New York, ``Quarterly Trends for 
Consolidated U.S. Banking Organizations'', Fourth Quarter 2016, 
available at https://www.newyorkfed.org/medialibrary/media/research/
banking-research/quarterlytrends2016q4.pdf?la=en, at 13.
---------------------------------------------------------------------------
    For present purposes, however, one point deserves special emphasis: 
As secondary market trading volume, stock price indices, and financial 
firms' profits were all going up, domestic industrial production 
declined, manufacturing jobs were massively outsourced overseas, wages 
stagnated, and consumer debt (itself converted to a ``securitized'' 
trading asset) ballooned. In effect, this ``financialization'' of the 
American economy represented an unprecedented transfer of wealth from 
the real economy to the increasingly speculation-oriented financial 
sector. \12\ The systematic redistribution of wealth from the Main 
Street makers to Wall Street takers was starkly exposed when the 
speculative craze--particularly, in mortgage-backed securities, 
underlying mortgage loans and houses--finally triggered the world's 
first truly systemic financial crisis. \13\ To protect the economy from 
collapse, American taxpayers were forced to bail out the same megabanks 
that fueled--and profited from--the crisis-inducing asset price 
inflation. Today, financial institutions are doing very well, in terms 
of profits and returns on their shareholders' equity. \14\ But the 
middle class and poor Americans, whose livelihood is tied to the real 
economy, continue to bear the full burden of the sluggish post-crisis 
recovery.
---------------------------------------------------------------------------
     \12\ See, Thomas Philippon, ``Finance Versus Wal-Mart: Why Are 
Financial Services So Expensive?'' Rethinking the Financial Crisis 235 
(Alan Blinder et al., Eds. 2012).
     \13\ See, Saule T. Omarova, ``The New Crisis for the New Century: 
Some Observations on the `Big-Picture' Lessons of the Global Financial 
Crisis of 2008'', 13 N.C. Banking Inst. 157 (2009).
     \14\ According to official statistics, the top 50 largest BHCs' 
total net income for the last quarter of 2016 was over $32B, while 
their average annualized return on equity was above 7 percent. 
Tellingly, the total quarterly income of just the top six BHCs--
JPMorgan Chase & Co., Bank of America Corp., Wells Fargo & Co., 
Citigroup, The Goldman Sachs Group, and Morgan Stanley--was over $24B. 
Three of these largest institutions had annualized return on equity of 
almost 11 percent. Federal Reserve Bank of New York, Quarterly Trends 
for Consolidated U.S. Banking Organizations, Fourth Quarter 2016, 
available at https://www.newyorkfed.org/medialibrary/media/research/
banking_research/quarterlytrends2016q4.pdf?la=en, at 36.
---------------------------------------------------------------------------
    The centerpiece of post-crisis regulatory reform, the Dodd-Frank 
Act, aims to minimize the likelihood of recurring speculative asset 
price inflation. Thus, the Dodd-Frank Act established a new systemic 
oversight body, the Financial Stability Oversight Council (FSOC). \15\ 
The Act mandated enhanced prudential supervision of so-called 
``systemically important financial institutions'' (SIFIs), which 
includes large bank holding companies (BHCs) with at least $50 billion 
in assets and certain nonbank financial institutions designated as 
SIFIs by FSOC. \16\ As part of such enhanced prudential supervision, 
SIFIs are required to maintain higher capital and liquidity buffers, 
conduct regular stress tests, and prepare and submit to regulators 
comprehensive resolution plans (living wills).
---------------------------------------------------------------------------
     \15\ 12 U.S.C. 5321.
     \16\ 12 U.S.C. 5323; 5325.
---------------------------------------------------------------------------
    Among other things, these heightened requirements are designed to 
limit the ability of large financial conglomerates to create dangerous 
levels of risk through their massive dealing and trading operations in 
secondary markets. By restricting SIFIs' ability to fuel destabilizing 
asset price inflation, the Dodd-Frank regime of enhanced prudential 
supervision also helps to channel investment away from socially 
destructive speculation (secondary markets) and toward productive 
investment in the real economy (primary markets). While it is not 
commonly perceived or discussed in these terms, this potential 
``channeling'' effect of the Dodd-Frank Act on real economic growth 
should not be underestimated. Put simply, if investors find fewer 
lucrative opportunities in speculative assets trading, they will direct 
more of their money into nonspeculative investments.
    It is, therefore, no surprise that large financial conglomerates--
Wall Street megabanks that dominate and profit from secondary market 
trading and dealing activities--are now asking Congress to reverse all 
of the major post-crisis regulatory reforms that threaten their ability 
to promote speculative asset price inflation. Rhetorically, these 
financial institutions are deliberately using the language of 
``fostering economic growth'' and ``creating jobs,'' ostensibly through 
lending to ``small businesses'' and ``American families.'' 
Strategically, they are taking advantage of the fact that many smaller 
BHCs, regional lenders without meaningful trading operations, voice 
their own, qualitatively different, concerns about the unintended 
consequences of applying SIFI regulation to their more traditional 
banking-based business models. Neither of these clever tactics should 
sidetrack the Committee in its deliberations on how to foster 
sustainable, stable growth in the real economy, as opposed to mere 
speculation in secondary markets.
II. The Financial Industry's Deregulatory Proposals Will Not Foster 
        Real Economic Growth
    The financial industry has submitted numerous letters and proposals 
for deregulatory reforms that would ostensibly promote economic growth. 
A comprehensive or detailed analysis of all such letters and proposals 
would make my testimony unwieldy. Instead, I will focus on the 
industry's key deregulatory proposals targeting the Dodd-Frank's regime 
of enhanced prudential supervision, including the process of SIFI 
designation and supervisory stress testing. While these proposals offer 
clear potential benefits from the standpoint of financial institutions' 
own profitability and stock price (at least in the short run), the 
financial industry failed to establish how the proposed deregulatory 
measures would promote sustainable long-term growth of the American 
economy.
A. Rolling Back Enhanced Prudential Regulation Will Promote 
        Speculation-Driven Asset Price Inflation, Not Real Economic 
        Growth
    The financial industry's proposals nearly uniformly try to make a 
case that one of the key impediments to creating American jobs and 
fostering economic growth is the Dodd-Frank Act's explicit focus on 
systemic risk prevention. This argument targets the FSOC's general 
authority to designate SIFIs, the process and criteria for application 
of enhanced prudential standards, the substance of such standards, and 
the Federal regulators' ability to exercise discretion in implementing 
their statutory oversight responsibilities. The principal justification 
for this sweeping attack on the core features of the post-crisis 
regulatory regime is that it increases individual financial 
institutions' costs of compliance, compared to their pre-crisis 
regulatory compliance costs.
    This line of argument lacks merit.
    Every regulation, by definition, increases regulated firms' costs 
of doing business: such costs may include both the direct expenses of 
complying with regulations and the foregone profits from the prohibited 
or restricted activities. Child labor laws, environmental regulations, 
anti-fraud rules all raise costs of doing business for those private 
firms that stand to profit from activities the society deems 
undesirable. The mere imposition, via regulation, of additional private 
costs is not an ``unintended consequence'' that must be avoided: it is 
the principal mechanism of protecting the public from potential harm 
caused by profit-seeking private actors.
    The appropriateness of additional private costs of regulation, 
therefore, must be weighted not against pre-regulation private costs 
but against potential public costs likely to accrue in the absence of 
regulation. None of the financial industry's proposals offer any 
discussion, let alone quantification, of the full public costs of 
rolling back the Dodd-Frank regime of systemic oversight. In that 
sense, while styled as public policy proposals, these are merely 
requests for special private benefits.
    The rhetoric of ``promoting economic growth'' is meant to mask this 
fundamentally self-interested nature of the financial industry's 
requests for deregulation. As discussed above, removing prudential 
restrictions on large financial institutions' risk-taking will hinder, 
not promote, the kind of real economic growth that the American people 
so urgently need. It will spur precisely the kind of secondary market 
speculation and asset price inflation that enriches Wall Street 
megabanks and further decimates America's real productive capacity.
    Notably, all of the financial industry's proposals to roll back 
Dodd-Frank's enhanced prudential regulation use the same basic 
rhetorical device: they frame the issue as a clear binary choice 
between ``arbitrary'' and ``tailored'' rules. They claim that existing 
SIFI determination criteria (in particular, the $50B asset size 
threshold for treating BHCs as SIFIs), the Federal Reserve's 
supervisory stress tests, and even the long-standing CAMELS rating 
system are ``arbitrary'' and should be either repealed or replaced with 
something that is ``appropriately tailored'' to each financial 
institution's ``unique'' business and risk profile. \17\
---------------------------------------------------------------------------
     \17\ See, e.g., Letter to The Honorable Michael D. Crapo and The 
Honorable Sherrod Brown from The Clearing House (Apr. 14, 2017) [the 
``TCH Letter''].
---------------------------------------------------------------------------
    It is not my goal in this testimony to engage in any technical 
disputes regarding any specific capital requirements or stress test 
methodologies. My comments go to the overarching misconception that the 
industry actors' concerted (possibly coordinated?) use of the false 
dichotomy--``arbitrariness'' vs. ``tailoring''--engenders.
    ``Tailored'' SIFI Determination Is a Path to Eliminating SIFI 
Oversight
    Generally, setting a specific numeric threshold as a jurisdictional 
device--i.e., a criterion for subjecting a particular person to a 
particular set of legal rules--is not ``arbitrary,'' per se. We all 
live with a myriad of such fundamentally ``arbitrary'' but practically 
necessary threshold-based rules every day: the legal age for voting is 
18, the legal age for drinking is 21, the individual income tax rates 
are drawn on the basis of specified income thresholds, and so on. What 
would happen if we removed all such numerical thresholds as 
``arbitrary'' and replaced them with ``tailored'' determinations 
seeking to establish with complete precision every single person's 
``unique'' individual ability to exercise voting rights, consume 
alcohol, or pay income taxes? In theory, it could make everything 
better. In practice, however, it would create a far more arbitrary, 
unpredictable, and chaotic world in which nobody will be able to 
anticipate--or assess the fairness of--the ``uniquely tailored'' 
treatment they receive under voting, drinking, or tax laws. It would 
also require an enormous amount of Government resources to provide 
sufficiently individualized and ``appropriately tailored'' 
determination of every person's many legal rights and obligations. The 
sheer cost to the public of giving everyone their own ``tailored'' law 
will far outweigh any private costs of having to live with 
``arbitrary'' but universally applicable and clearly drawn boundaries.
    This simple common-sense logic should be applied to evaluating the 
financial industry's request to replace the Dodd-Frank's $50B size 
threshold for treating BHCs as SIFIs with an ``indicator-based'' regime 
of specific case-by-case designation. Midsize banks worried about 
approaching the $50B threshold in the future and regional banks that 
already qualify as SIFIs based on their asset size are especially keen 
to see this part of the Dodd-Frank repealed and replaced.
    Reasonable people may disagree and argue about whether the current 
size threshold--$50 billion in assets--is the right one, or whether a 
higher or a lower number would be more socially beneficial. On the one 
hand, as midsize and regional banks argue, their traditional lending-
based business model does set them qualitatively apart from Wall Street 
megabanks with massive and systemically risky trading and dealing 
activities. The fact that the top six megabanks' size is measured in 
trillions of dollars further underscores that difference. On the other 
hand, $50 billion is by no means an insignificant number. Only 38 BHCs 
currently exceed that threshold. It is also instructive to remember 
that, in the 1980s, savings banks and thrifts--small, local traditional 
lenders squeezed by competitors--made very similar pleas for regulatory 
relief. The resulting S&L crisis showed that hasty deregulation of 
small lending-oriented financial institutions may create significant 
risks to the system. \18\
---------------------------------------------------------------------------
     \18\ See, Federal Deposit Insurance Corporation, ``The S&L Crisis: 
A Chrono-Bibliography'', available at https://www.fdic.gov/bank/
historical/sandl/.
---------------------------------------------------------------------------
    These complexities notwithstanding, the existing regime should not 
be simply replaced with an ``indicator-based'' system under which the 
FSOC would be forced to go through a tedious and inevitably contentious 
exercise of determining whether any particular BHC's scope, scale, 
nature, and mix of activities warrants a SIFI designation. While this 
``flexible'' and ``individually tailored'' approach may sound good in 
theory, it will significantly undermine the entire post-crisis 
regulatory framework for safeguarding systemic stability. There are 
three main reasons why that is the case.
    First, mandating an individualized SIFI determination procedure for 
each potentially systemically significant BHC will impose an enormous, 
and completely unnecessary, financial and organizational burden on 
FSOC, Federal Reserve, and other regulators. The sheer costs of the 
``tailored'' designation process--hiring and training dedicated 
personnel and devoting countless amounts of regulators' time and energy 
to gathering and processing huge amounts of information, most likely 
over BHCs' constant objections and complaints--will threaten to derail 
the entire regime of SIFI oversight. It is nearly a certainty that this 
costly and time-consuming process will effectively preclude both FSOC 
and the Federal Reserve from exercising their statutory 
responsibilities as systemic regulators. Notably, financial 
institutions advocating this measure deliberately ignore these public 
costs of giving them their own, individually ``tailored'' supervisory 
regime. Nor do they undertake to cover all of the additional regulatory 
costs of the ``tailored'' SIFI designation process.
    Second, individually ``tailored'' SIFI designation will immediately 
become vulnerable to the financial industry's other favorite line of 
attack as being inherently unpredictable, unclear, and nontransparent: 
in other words, ``arbitrary.'' The very nature of the complex inquiry 
into various qualitative indicators of systemic riskiness of an 
individual financial institution is bound to open FSOC to potential 
allegations of misjudgment, misinterpretation, and misbehavior. The 
MetLife saga provides a vivid example of that tactic. Given what is at 
stake for large BHCs, the odds of FSOC being constantly embattled and 
ultimately incapacitated are unacceptably high. Instituting 
individually ``tailored'' SIFI designation process will virtually 
ensure the next round of industry lobbying, aiming to eradicate the 
very notion of enhanced SIFI supervision as ostensibly nonadministrable 
in practice.
    Third, there is significant danger that loosening the SIFI 
designation process, primarily to accommodate the demands of midsize 
and regional banks and BHCs, will pave the way for large Wall Street 
megabanks to seek additional deregulatory measures specially 
``tailored'' to enable them to expand their lucrative secondary-market 
trading and dealing operations. While such activities are precisely 
what creates unsustainable levels of risk in the financial system, it 
will be much more difficult for lawmakers and (already significantly 
weakened) regulators to resist what will likely be framed as simply 
``further tailoring'' of supervisory rules.
    Attacks on ``Arbitrary'' Stress Testing Are Attacks on Supervisory 
Discretion
    Ironically, even as the financial industry ostensibly wants FSOC to 
exercise individualized judgment instead of applying ``arbitrary'' 
generalized rules in the context of SIFI designation, the same industry 
vehemently attacks the exercise of individualized judgment--or 
supervisory discretion--by the Federal Reserve in the context of 
supervising SIFIs. The key target of this attack is the post-crisis 
regime of supervisory stress testing.
    The largest megabanks appear particularly determined to limit the 
Federal Reserve's ability to conduct meaningful Comprehensive Capital 
Analysis and Review (CCAR), mandated by the Dodd-Frank Act. Among other 
things, they seek to

  <bullet>  subject the Federal Reserve's annual stress test scenarios 
        to a 30-day notice and comment period under the Administrative 
        Procedure Act;

  <bullet>  restrict the Federal Reserve's ability to use its own 
        independent assumptions in constructing test models;

  <bullet>  mandate advance publication of the Federal Reserve's stress 
        test models for ``peer review;''

  <bullet>  restrict the use of the Federal Reserve's own models merely 
        to a ``supervisory assessment'' of banks' own models; and

  <bullet>  eliminate CCAR's qualitative assessment for all banks. \19\
---------------------------------------------------------------------------
     \19\ See, TCH Letter, supra note 17.

    If implemented, these industry-advocated changes will effectively 
nullify the CCAR regime. The principal reason for subjecting SIFIs to 
both internal and supervisory stress tests is to create a reliable 
early-warning mechanism for identifying potential weaknesses in the 
firm's capital planning and management. Forcing the Federal Reserve to 
disclose ahead of time its stress test models will enable financial 
institutions ``to manage to the test,'' thus defeating the whole 
purpose of stress testing. Moreover, subjecting its test scenarios or 
modeling methodologies to public notice and comment will inevitably 
create unnecessary delays in the implementation of stress tests. It 
will impose potentially prohibitive additional costs on the Federal 
Reserve, burdened with the duty to respond to numerous industry 
comments and criticisms. Finally, relegating the Federal Reserve's 
models to a mere back-up reference function will render the entire 
exercise inherently unreliable.
    In sum, what the financial industry is advocating here is not a 
``more robust and transparent'' stress testing process, but a de facto 
sidelining of the Federal Reserve by forcing it to surrender its key 
supervisory function to SIFIs themselves. Doing so will significantly 
endanger the country's financial stability and increase the likelihood 
of another systemic crisis. Accordingly, it will hinder, not promote, 
America's long-term economic growth.
B. There Is No Evidence That Financial Deregulation Is Necessary To 
        Foster Economic Growth
    Financial institutions' deregulatory proposals claim that the post-
crisis regime of enhanced prudential oversight directly prevents them 
from extending more loans to small businesses and struggling American 
families. They routinely assert that the more stringent capital 
requirements and the higher costs of regulatory compliance are the 
principal, if not the sole, reason why banks cannot increase their 
financing of productive economic enterprise.
    Constant repetitions of this blanket assertion are intended to 
condition the audience--including the Members of this Committee--to 
associate the rollback of Dodd-Frank (something the financial industry 
wants) with the creation of domestic manufacturing jobs (something the 
American people need). It is calculated to propagate dangerous 
confusion about the real causes of financialization, ongoing erosion of 
America's industrial base, rising poverty and inequality, and other 
social and economic ills of the last several decades. In essence, the 
industry wants us to believe that forcing Citigroup and Bank of America 
to finance just 5 percent of their multi-trillion-dollar high-risk 
assets with common shareholder equity is the root of all of the 
Nation's economic woes.
    This is an incredible claim. There are three main reasons why it is 
fundamentally false:

  <bullet>  First, capital regulation does not reduce banks' cash 
        available for lending: that notion is based on a fundamental 
        misunderstanding of what bank capital is.

  <bullet>  Second, banks are not short of cash necessary to expand 
        their lending: banks' soaring profits and record dividend 
        payments in recent years show there is plenty of cash they 
        could, but choose not to, lend out.

  <bullet>  Third, there is no evidence that banks are striving to 
        increase lending that would foster the economic growth: the 
        industry offers no proof (beyond simple assertions) that 
        individual banks' asset allocation decisions are driven, in any 
        meaningful way, by their desire to raise the rate of growth in 
        the real economy. In the absence of such evidence, banks' 
        deregulatory demands should not be taken as bona fide proposals 
        to foster America's long-term economic growth.
    Enhanced Capital Levels Do Not Restrain Availability of Credit
    Higher capital requirements have nothing to do with reducing money 
available to banks for lending and productive investment. Capital is 
not cash in the vault. It is merely an accounting concept, the amount 
of shareholder equity on a bank's balance sheet: i.e., amount 
contributed by the bank's shareholders and not borrowed from depositors 
and other creditors. \20\ Banks do not ``hold'' capital in the same way 
as they ``hold'' cash or gold--and in the exact same way as Exxon-Mobil 
or Microsoft are never said to ``hold'' their shareholder equity. 
Capital is simply what the owners of the corporation would receive if 
the corporation liquidated all of its assets and repaid all of its 
debts. In that sense, capital is a critical equity cushion that 
protects corporations'--including banks' and BHCs'--creditors from 
losses. It is only because financial institutions' creditors are 
explicitly or implicitly protected from such losses by the Federal 
Government that banks and BHCs are allowed to operate with much thinner 
equity cushions than would be sustainable in our free capitalist 
market. \21\
---------------------------------------------------------------------------
     \20\ For a discussion of bank capital and a compelling argument 
that capital requirements should be much higher than they are 
presently, see Anat Admati and Martin Hellwig, ``The Banker's New 
Clothes'' (2013).
     \21\ See id.
---------------------------------------------------------------------------
    It is therefore nonsensical to claim that reducing this creditor-
protecting, loss-absorbing equity cushion will somehow ``free up cash'' 
for bank lending--and, specifically, for lending to small businesses 
and credit-needy Americans. How much a bank is willing or able to lend 
is a complex asset allocation decision that is driven primarily by 
considerations of bank's own profitability: ``Should we extend a long-
term loan to a risky small startup, or should we use that money to 
increase our fee revenues from short-term derivatives trading?'' The 
impact of this decision on the bank's regulatory capital ratios or 
stress test results may be an important factor in its choice between 
lending and trading, but only insofar as it affects--indirectly and in 
combination with many other factors--that bank's overall profits.
    In other words, capital regulation constrains banks' (individually 
rational) propensity to choose ``high risk, high return'' assets and 
limits their ability to maximize shareholder profits by jeopardizing 
creditors. These regulatory capital constraints, however, still leave 
plenty of room for banks to choose whether to finance productive 
economic enterprise or to channel money into secondary market 
speculation. To the extent the latter increases short-term shareholder 
returns, it remains a potentially more attractive choice. The largest 
banks' massive shift into secondary market trading and dealing, 
especially after the passage of the GLB Act, aptly illustrates that 
dynamic.
    If Congress grants these largest banks' demands to weaken existing 
capital requirements, supervisory stress testing, and other elements of 
enhanced prudential regulation and supervision, it will affirmatively 
sanction virtually unconstrained growth in the volume and speculative 
riskiness of banks' trading and dealing activities, not traditional 
``small-business'' lending. That, in turn, will spur precisely the kind 
of speculation-driven asset price inflation that threatens the 
stability of the American financial and economic system and undermines 
the country's long-term economic growth.
    Banks Are Not ``Short of Cash'' for Lending
    According to the FDIC statistics, the U.S. banking industry has 
fully recovered from the crisis and is doing exceedingly well. Thus, in 
the first quarter of this year, nearly 96 percent of all U.S. insured 
depository institutions were profitable; their average return on equity 
stood at a healthy 9.37 percent; and their total quarterly income 
reached $44 billion, which is 12.5 percent higher than a year earlier. 
\22\ Insured banks' total net income in 2016 exceeded $171 billion. 
\23\ BHCs are also turning handsome profits. For example, in the last 
quarter of 2016, the total quarterly income of just the top six BHCs--
JPMorgan Chase & Co., Bank of America Corp., Wells Fargo & Co., 
Citigroup, The Goldman Sachs Group, and Morgan Stanley--exceeded $24 
billion. \24\
---------------------------------------------------------------------------
     \22\ Federal Deposit Insurance Corporation, ``Statistics at a 
Glance'', As of March 31, 2017, available at https://www.fdic.gov/bank/
statistical/stats/.
     \23\ FDIC Quarterly Banking Profile, Fourth Quarter 2016, 
available at https://www.fdic.gov/bank/analytical/qbp/2016dec/qbp.pdf, 
at 7.
     \24\ Federal Reserve Bank of New York, Quarterly Trends for 
Consolidated U.S. Banking Organizations, Fourth Quarter 2016, available 
at https://www.newyorkfed.org/medialibrary/media/research/
banking_research/quarterlytrends2016q4.pdf?la=en, at 36.
---------------------------------------------------------------------------
    These profits directly increase banks' and BHCs' shareholder 
equity--the capital cushion that is a subject of so many of the 
industry's complaints--and are easily available for use in their 
lending or other growth-promoting activities. However, it appears that 
a big chunk of these profits is instead being distributed to the 
banking institutions' shareholders, in the form of cash dividends and 
share repurchases. Thus, in 2016, federally insured banks alone 
returned to their shareholders $103 billion in cash dividends, \25\ a 
number second only to the record high of $110 billion in cash dividends 
they paid in 2007, the last full pre-crisis year. \26\
---------------------------------------------------------------------------
     \25\ FDIC Quarterly Banking Profile, Fourth Quarter 2016, 
available at https://www.fdic.gov/bank/analytical/qbp/2016dec/qbp.pdf, 
at 7.
     \26\ FDIC Quarterly Banking Profile, Fourth Quarter 2007, 
available at https://www5.fdic.gov/qbp/2007dec/qbp.pdf, at 5.
---------------------------------------------------------------------------
    By any measure, $103 billion is an enormous amount of money that 
could be used both (1) to increase banks' total loss-absorbing and 
risk-reducing regulatory capital cushion, and (2) to finance small 
family-owned businesses, entrepreneurial startups, medium-size 
industrials, aspiring students, and struggling families. In other 
words, using $103 billion of banks' profits to increase lending to 
productive economic enterprise would advance both (1) the public 
interest in having a safer and more efficient system of credit 
allocation, and (2) the banks' self-professed interest in fostering 
economic growth and creating American jobs. Yet, banks chose not to go 
that socially beneficial route.
    It is astonishing to see that, after voluntarily sending all that 
money to shareholders, the banking industry complains that the 
additional cost of complying with post-crisis regulations ``takes 
capital away from small business loans, home purchases and other 
productive uses.'' \27\ ``Every dollar spent on hiring compliance 
attorneys,'' the argument goes, ``is potentially $10 dollars of loans 
that could be made to improve someone's economic opportunity.'' \28\ As 
the dividend numbers cited above show, every dollar diverted away from 
banks' regulatory compliance would most likely improve only bank 
shareholders' and managers' ``economic opportunity.'' In fact, using 
the same mathematical logic, it follows that, in 2016 alone, banks have 
willingly deprived the real economy of a whopping $1.03 trillion in 
``small business loans, home purchases and other productive uses.''
---------------------------------------------------------------------------
     \27\ FSR Letter, supra note 7, at 2.
     \28\ Id.
---------------------------------------------------------------------------
    It is not my contention that banks should never declare shareholder 
dividends. The key point here is that bank dividend payouts expose the 
fundamental falsity of the industry's claims to the effect that 
excessive regulatory costs deplete banks' resources and prevent them 
from financing real economic growth. Banks have plenty of extra money 
for expanding their lending. They choose not to lend that money, 
instead ``returning capital'' to their shareholders. That is because 
stable and high dividends increase individual banks' stock prices, 
which directly benefits not only bank shareholders but also their 
executives and managers. Higher stock price translates directly into 
higher bonuses. Higher volume of small-business lending does not.
    This basic fact about banks' use of available capital may explain 
why these institutions--particularly, the largest Wall Street 
megabanks--are waging such an adamant campaign against CCAR, ``living 
wills,'' and other key elements of the Dodd-Frank's systemic risk 
prevention regime. Under the current regime, SIFIs' ability to pay 
shareholder dividends or repurchase their own shares is expressly 
conditioned on supervisory approval, based in part on the results of 
the latest stress tests. Not meeting supervisors' expectations, 
therefore, limits their ability to pay dividends and depresses their 
stock price. It is telling, for example, that securities analysts and 
investment advisers have been buzzing about Citigroup's and Bank of 
America's recent and expected future hikes in dividend payouts after 
both of these firms performed better in the CCAR tests. \29\ As one 
expert put it, ``The ability to pay dividends is currently a hallmark 
of strength in the sector.'' \30\ Accordingly, deregulatory rollback of 
the Federal Reserve's stress testing and other prudential regulations 
is expected to enable Citigroup, Bank of America, and other SIFIs to 
raise their dividends and share repurchases, thus lifting the value of 
their stock. \31\
---------------------------------------------------------------------------
     \29\ See, Gemma Acton, ``These Three U.S. Bank Stocks Are My Top 
Sector Picks'', CNBC.COM (22 Mar. 2017), available at http://
www.cnbc.com/2017/03/22/these-three-us-bank-stocks-are-my-top-sector-
picks-analyst.html; Rebecca Keats, Bank of America Declares a Quarterly 
Dividend, Marketrealist.com (31 Jan. 2017), available at http://
marketrealist.com/2017/01/bank-of-america-declares-a-quarterly-
dividend/; Stone Fox Capital, Citigroup: ``Expect Another Big Dividend 
Hike To Move Stock'', Seeking Alpha (4 Jan. 2017), available at https:/
/seekingalpha.com/article/4078558-citigroup-expect-another-big-
dividend-hike-move-stock.
     \30\ Stone Fox Capital, supra note 29.
     \31\ Id.; Keats, supra note 29.
---------------------------------------------------------------------------
    Thus, it appears that market experts have no confusion about the 
real benefits of massive financial deregulation: it will increase 
banks' profits, dividend payouts, and stock prices. Whether or not it 
will also promote the country's long-term economic growth does not seem 
to be part of the conversation.
    There Is no Evidence That ``Fostering America's Economic Growth'' 
Is a Meaningful Factor in Banks' Business Decisions
    It is, of course, possible that, while returning massive amounts of 
capital to shareholders, banks and BHCs are nevertheless genuinely 
dedicated to their self-declared mission of financing America's real 
economic growth. Rather than take their word for it, however, the 
Committee should require specific, robustly documented and empirically 
supported, evidence that that is indeed the case.
    For example, the Committee should ask each financial institution 
asking for regulatory relief to provide specific, quantified, and fully 
documented answers to the following questions:

  <bullet>  What was your institution's specific (i.e., quantified) 
        annual contribution to the growth of your local, regional, and/
        or national economy, in the period between 2010 and 2017 (after 
        the enactment of Dodd-Frank)? What was it in the pre-Dodd-Frank 
        period between 2000 and 2009?

  <bullet>  How much additional annual contribution to the growth of 
        your local, regional, and/or national economy would your 
        institution have made, but was prevented from making directly 
        as a result of [insert a specific regulatory provision of the 
        Dodd-Frank regime]?

  <bullet>  In each year since 2010, what was the aggregate amount of 
        commercial and industrial (C&I) loans that your institution 
        refused to extend, solely because of [insert a specific 
        regulatory provision of the Dodd-Frank regime]?

  <bullet>  Does your institution have an enterprise-wide strategy for 
        facilitating domestic job-creation and promoting the growth of 
        your local, regional, and national economy? What are the core 
        elements of that strategy?

  <bullet>  How often does your institution's Board of Directors and 
        top management discuss the institution's performance in 
        implementing that strategy?

    This type of targeted inquiry would help to (1) establish the 
credibility of the financial industry's claims; and (2) discover the 
real link, if any, between financial institutions' deregulatory agenda 
and the country's real economic growth. Presently, none of the 
financial industry's numerous deregulatory proposals establish that 
link, relying instead on purely declarative rhetoric. They then demand 
effective removal of key regulatory safeguards against systemic 
financial crises, solely on the strength of that rhetoric. Assessing 
the public costs and benefits of any such deregulatory proposals, 
however, requires ascertaining that such steps are actually--and not 
just rhetorically--going to generate substantial growth in the 
country's real economy.
    It is unlikely that any financial institution will be able to 
produce satisfactory answers to any of these questions. As private 
shareholder-owned firms, these institutions' primary concern is their 
own profitability, not the overall performance of the American economy. 
They simply do not track, and are not equipped to track, the relevant 
macroeconomic data: measuring and worrying about such data is the 
Government's responsibility, an inherently public task. That means that 
determining what should be done to spur America's economic growth--and 
whether relaxing any of the existing financial regulations should be a 
part of that endeavor--is also an inherently public responsibility. The 
financial industry's attempts to usurp or sidetrack the process of 
public deliberation on such an important matter should therefore be 
subjected to intense scrutiny.
III. Broader Structural Solutions Are Needed To Channel Capital Into 
        Productive Economic Activity and Sustainable Growth
    The Dodd-Frank regime of systemic oversight and enhanced prudential 
supervision of SIFIs correctly aims to limit potentially destabilizing 
speculation and asset price inflation in secondary markets. To the 
extent it strengthens the resilience and stability of our financial 
system, it lays down an important foundation for the Nation's long-term 
economic growth. However, simply limiting the opportunities for 
diverting capital into speculative trading is not sufficient to spur 
and sustain such growth in practice. It is equally important to ensure 
that a significantly greater share of available financial capital is 
actively and consistently flowing into long-term productive investment. 
In other words, it entails cultivating new sources of, and creating new 
avenues for profitably deploying, truly ``patient'' capital.
    Abundant patient capital is what enables construction of large-
scale physical and social infrastructures, supports transformative R&D 
projects, generates productivity gains, and creates sustainable well-
paying jobs throughout the Nation. By the same token, the chronic 
shortage of patient capital--and persistent glut of speculative 
capital--is the key reason for the sluggishness of America's real 
economy today.
    Incentivizing investor ``patience'' on the scale needed to spur the 
Nation's long-term economic growth, however, is a difficult task that 
cannot be reduced simply to a few deregulatory or tax-relief measures. 
Nor can it be left to the private sector alone. Private investors' time 
horizons and risk tolerance levels are inherently limited by the finite 
nature of their economic resources and their biological lifespan. It is 
fundamentally rational for private investors to prefer shorter-term 
investments, which entail less unforeseeable future risk and promise 
returns within such investors' reasonable lifetime horizons. Private 
investors' short-term bias, therefore, is not a deviation from market 
rationality; it is a built-in feature of such rationality.
    Overcoming investor short-termism and facilitating the formation of 
``patient'' capital requires new, more effective forms of public-
private partnership. The public component of such partnership will 
bring into the investment process a number of unique advantages that 
public instrumentalities enjoy when they act as market participants: 
their vast scale, high risk tolerance, lengthy investment horizons, and 
direct backing by the full faith and credit of the United States. 
Combining these unique capacities of a public investor with private 
investors' informational agility, superior knowledge of local 
conditions, and market expertise will help to channel both private and 
public resources into the critical growth-inducing projects. This new, 
patient public-private capital will finance the building of new roads, 
bridges, high-speed train lines, clean energy networks, and next-
generation industrial plants. It will also create new well-paying jobs, 
offer new educational opportunities, and unleash new entrepreneurial 
energy of the American people.
    My colleague, Professor Robert Hockett, and I have developed a 
specific proposal for creating this new kind of infrastructural growth-
oriented public-private partnership. A White Paper detailing our 
proposal is attached as an Appendix to this testimony.
    It is this kind of programmatic reform--not a massive rollback of 
the Dodd-Frank Act--that the American economy and the American people 
need. I urge the Committee to rise to this challenge and not allow 
banks' self-serving deregulatory demands to distract its attention from 
what really matters to the American economy and the American public.
Conclusion
    Promoting sustainable, socially inclusive long-term growth in 
America's real economy is a task of enormous public significance. 
Massive financial deregulation urged by the banking industry, however, 
will not foster such real economic growth: it will merely spur 
speculation-driven asset price inflation in secondary markets. That is 
what generates Wall Street's greatest short-term profits and causes 
wealth- and growth-destroying systemic crises. Weakening regulatory 
standards and effectively incapacitating FSOC, the Federal Reserve, the 
Consumer Financial Protection Bureau, and other Federal regulators will 
put us much closer to another financial disaster.
    Contrary to the financial industry's assertions, massive 
dismantling of the Dodd-Frank regime of systemic regulation will not 
benefit small businesses and struggling families across America. There 
is no evidence that the additional cost of banks' regulatory compliance 
with post-crisis regulations actually depletes banks' resources and/or 
diverts them away from productive uses. Despite their complaints about 
regulatory costs, American banking institutions are highly profitable 
and awash in cash, which they could use for lending to small businesses 
but instead choose to return to their shareholders in the form of 
dividends and share repurchases. Against that background, it is 
impossible to take the industry's attacks on Dodd-Frank seriously.
    The Committee should, therefore, reject the financial industry's 
unsubstantiated claims and requests for massive deregulation and 
demolition of the Dodd-Frank Act. The Committee should focus its 
attention on finding real solutions to the real problems associated 
with speculative short-termism and persistent misallocation of capital, 
which impede economic growth. Devising such solutions is challenging 
but necessary in order to make finance serve the Nation's long-term 
economic goals.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BROWN
                    FROM ROBERT R. HILL, JR.

Q.1. Your testimonies cited certain metrics for measuring your 
banks' compliance costs. Of course, there are a variety of ways 
to measure a bank's costs and compliance burden. To help the 
Committee better understand the overall compliance burdens on 
your institutions:
    Please provide the ratio of total employees in your bank's 
workforce to employees.

A.1. In 2009 and 2010, our compliance employees were housed in 
the Compliance Department. After the enactment of Dodd-Frank, 
the number of employees dealing with compliance grew 
dramatically; however, the growth was through employees 
throughout the bank and company, and not just in the Compliance 
Department. At the time, we did not endeavor to keep track of 
the number of compliance-related employees. In the last several 
years, however, we have endeavored to do so. The data below is 
a good faith effort to provide the requested numbers, but we 
would caution that they are conservatively stated in that we 
have employees in virtually every area of the bank working on 
compliance issues. As you will see, even on a conservatively 
stated basis, the number of compliance employees has gone up 
over eightfold.

 
----------------------------------------------------------------------------------------------------------------
                     2009        2010        2011        2012        2013        2014        2015        2016
----------------------------------------------------------------------------------------------------------------
     Full time         700       1,015       1,071       1,324       2,106       2,081       2,058       2,055
    equivalents
         (FTEs)
Compliance FTEs          6           6         N/A         N/A         N/A         N/A          40          51
         Ratio       0.86%       0.59%         N/A         N/A         N/A         N/A       1.94%       2.53%
----------------------------------------------------------------------------------------------------------------


Q.2. Please provide your bank's compliance costs for each year 
from 2009 to the present.

A.2. In reviewing the data below, please refer to the response 
above. As stated above, the data is difficult to capture with 
total precision. As noted above, the compliance costs in 2009 
or 2010 were largely contained in the Compliance Department. 
Today, they are spread over various areas of the bank and 
company. Again, this is our good faith effort to be responsive.

 
----------------------------------------------------------------------------------------------------------------
                   2009        2010        2011        2012        2013        2014         2015         2016
----------------------------------------------------------------------------------------------------------------
  Estimated      $780,000    $840,000         N/A         N/A         N/A         N/A   $5,800,000   $7,500,000
       Total
  Compliance
       Costs
----------------------------------------------------------------------------------------------------------------


Q.3. Please provide the combined dollar value of your bank's 
stock dividend payments and share repurchases for each year 
from 2009 to the present.

A.3. Below is the stock dividend information you requested. In 
reviewing these numbers, however, there are several factors you 
should bear in mind so you will know that the growth of the 
bank and the number of its shareholders has changed 
dramatically over the course of the years for which you have 
asked us to provide information. For example, in 2013, the bank 
almost doubled in size and its number of shareholders, and 
capital, increased by roughly 40 percent. As a result, the 
dollar amount of dividends went up significantly. The change 
did not reflect an equivalent increase in dividend income to 
individual shareholders; it was simply the function of the 
bank's growth through acquisition.

 
----------------------------------------------------------------------------------------------------------------
                     2009        2010        2011        2012        2013        2014        2015        2016
----------------------------------------------------------------------------------------------------------------
Combined value       $8,623      $8,935      $9,856     $11,080     $16,207     $20,702     $25,072     $33,136
       of stock
       dividend
   payments and
          share
 repurchases (in
     thousands)
----------------------------------------------------------------------------------------------------------------


Q.4. Please provide your bank's efficiency ratio for each year 
from 2009 to the present.

A.4. Below is the data on the bank's efficiency ratios for the 
period in question. As you review this data, you should bear in 
mind that efficiency ratios are a function not just expenses 
but also revenue. Thus, as the bank grew through acquisitions, 
its revenue increased. In other words, it makes comparisons 
difficult. Further, in 2010, the bank recorded a nonrecurring 
gain. Absent that gain, the 2010 efficiency ratio would have 
been 69.89 percent, not 46.68 percent.

 
----------------------------------------------------------------------------------------------------------------
                     2009        2010        2011        2012        2013        2014        2015        2016
----------------------------------------------------------------------------------------------------------------
   Efficiency       61.17%       46.68%      68.77%      72.20%      75.85%      71.41%      64.19%      64.16%
         Ratio
----------------------------------------------------------------------------------------------------------------


Q.5. Please provide your bank's revenue from interchange fees 
linked to debit cards for each year from 2009 to the present.

A.5. Below is the requested data. As I testified, South State 
Bank, for the relevant years, was under $10 billion. Thus, the 
Durbin Amendment interchange fee caps did not affect the bank's 
interchange fee revenue. Also, as noted above, the bank grew 
significantly during the time period in question. As a result, 
the revenue from interchange grew significantly for that 
reason.

 
----------------------------------------------------------------------------------------------------------------
                    2009         2010        2011        2012        2013        2014        2015        2016
----------------------------------------------------------------------------------------------------------------
  Interchange       $3,717       $7,261      $9,467     $11,178     $18,143     $25,192     $27,939     $31,801
   Fee Revenue
           (in
    thousands)
----------------------------------------------------------------------------------------------------------------


Q.6. During your testimony, you said ``Under Dodd-Frank, 
crossing the $10 billion in asset threshold has had very harsh 
implications for midsize banks For example, South State was 
impacted by over $20 million per year, a significant sum for a 
bank our size. What impacts does this have on our local 
communities? For us, that equates to 300 jobs. Approximately 10 
percent of our branches were closed, and even more jobs were 
diverted from lending to regulatory compliance.''
    Your bank appears to have grown from roughly 50 branches 
before the passage of Dodd-Frank, to about 180 this year, 
assuming completion of your proposed merger with Park Sterling. 
The Park Sterling transaction will be the ninth merger or 
acquisition by your bank of another bank or its branches since 
the beginning of 2010.
    As you know, branch closures can occur for a variety of 
reasons not related to regulatory costs, for example, in 2010, 
your bank closed 10 of the 36 branches that it acquired through 
the purchase and assumption agreement related to Community Bank 
& Trust, well before you passed the $10 billion threshold. (In 
another example, you closed two branches in Orangeburg, SC, 
after acquiring 12 Bank of America branches, reportedly because 
they were in close proximity to existing South State branches.)
    Finally, it appears that you closed 13 of 140 branches in 
2015, or about 9 percent, before you crossed the $10 billion 
threshold, and nine of your 127 branches last year and one so 
far this year, or about 8 percent of your branches. This 
compares to 2010, when you closed 10 of 86 branches, a rate of 
nearly 12 percent.
    Please explain the rationale behind the 10 percent closure 
number that you cited, and please provide supporting evidence 
that explains why these closures were caused by the various $10 
billion thresholds contained in Dodd-Frank, as opposed to other 
potential factors.

A.6. As it relates to our branch closing strategy, well before 
officially crossing the $10 billion asset threshold in early 
2017, we began estimating the costs associated with, and 
resources required, to operate a bank with assets over $10 
billion. Beginning approximately 3 years ago, we started 
examining the magnitude of these expenses and thinking through 
steps to pay for them. In my testimony, I stated that we closed 
about 10 percent of our branches in order to cover these 
increased costs of growing to over $10 billion. Closing 
branches does reduce cost and can help pay for this burden, but 
this step alone does not pay for the costs of crossing $10 
billion. As you can see in the data above, the incremental 
compliance costs are approximately $6-8 million per year for 
our company plus we will lose approximately $17 million dollars 
in interchange income beginning in 2018 due to impact from the 
Durbin amendment. In total, we will realize an approximate $25 
million pre-tax negative impact to earnings by crossing this 
threshold. On average, it costs us approximately $500,000 
annually to operate a branch. If we were to accomplish all of 
the savings through branch closures alone, we would have to 
close roughly 50 branches and eliminate over 250 jobs. Whether 
we close branches or find other ways to pay for these expenses, 
the burden is considerable. The $25 million represents 
approximately 15 percent of the net income of our company in 
2016.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR SASSE
                    FROM ROBERT R. HILL, JR.

    [From Robert R. Hill, Jr.--We have prepared responses to 
many of the follow up questions submitted by Senators Brown, 
Sasse, and Tillis. Some of the questions pertained to banks 
larger than South State or touched on macro-economic issues 
that we did not feel equipped to answer and therefor 
respectfully did not supply an answer. What follows are the 
questions to which we do offer an answer.]
Q.3. As you know, Dodd-Frank imposed new stress test 
requirements on banks above $10 billion.
    How should policymakers balance providing more transparency 
and guidance to regulated entities about passing stress tests, 
without enabling regulated entities to, as some have suggested, 
``game'' these processes?

A.3. We believe that, in general, policymakers should focus on 
minimum acceptable capital ratios as opposed to arbitrary 
stress tests.

Q.4. Do stress tests accurately depict how a firm would perform 
during a financial crisis? If not, what should be done, if 
anything, to improve their accuracy?

A.4. To help improve the accuracy of stress tests, focus on the 
amount of risk weighted assets each firm holds would, in our 
opinion, be beneficial.

Q.5. Are stress tests properly tailored to match the unique 
risk profile of smaller financial institutions?

A.5. Stress test are currently structured based on the asset 
size of financial institutions and do not focus on the risk 
profile of the institutions. As stated above, focusing on the 
amount of risk weighted assets each firm holds would more 
properly align with the institution's risk profile.

Q.6. As you know, House Financial Services Chairman 
Hensarling's legislation, the Financial CHOICE act--in part--
would allow banks to opt-out of various regulatory 
requirements, in exchange for meeting a 10 percent leverage 
ratio.
    What are the most persuasive arguments for and against 
relying upon a leverage ratio as a significant means of 
reducing systemic risk in the financial system?

A.6. The most persuasive argument for relying upon a leverage 
ratio as a significant means of reducing systemic risk in the 
financial system is the 10 percent leverage ratio, which is a 
simple approach and represents a significant amount of capital. 
The most persuasive argument against relying on the ratio is 
that the leverage ratio does not take into consideration the 
risk rating of the assets and the loan loss reserve.

Q.7. Under this legislation, is the 10 percent leverage ratio 
the right level? If not, where should policymakers set the 
level at?

A.7. A 10 percent leverage ratio is the right level.

Q.8. What evidence do you find or would you find to be the most 
persuasive in discerning the proper capital levels under this 
proposal?

A.8. Different asset categories carrying different degrees of 
risk, so focusing on risk rating the assets, rather than cash 
and loans being equal, would seem logical.

Q.9. I'm concerned that our Federal banking regulatory regime 
relies upon arbitrary asset thresholds to impose prudential 
regulations, instead of an analysis of a financial 
institution's unique risk profile.
    Should a bank's asset size be dispositive in evaluating its 
risk profile in order to impose appropriate prudential 
regulations?

A.9. No, a bank's asset size should not be dispositive in 
evaluating its risk profile in order to impose appropriate 
prudential regulations.

Q.10. If not, what replacement test should regulators follow 
instead of an asset-based test?

A.10. As a replacement test, regulators should focus on the 
levels of risk based capital and the amount of debt the 
financial institution has, as better tests for evaluating a 
bank's Risk Profile.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR TILLIS
                    FROM ROBERT R. HILL, JR.

Q.1. I'm a proponent of tailoring regulations based off of the 
risk profiles of financial institutions, as opposed to having 
strict asset thresholds that do not represent what I believe is 
the smart way to regulate. But, my question here is really 
about the importance of ensuring that we have a system that is 
rooted in fundamental, analytical, thoughtful regulation so 
that we can achieve and execute on goals, whether balancing 
safety and soundness with lending and growth, or encouraging 
more private capital in the mortgage market to protect 
taxpayers and reform the GSEs.
    On the latter point, I would like for you to comment on the 
down-stream consequences that the wave of new mandates have on 
housing finance reform--whether Dodd-Frank, regulatory rules 
and/or Basel prudential requirements--and, specifically, the 
ability to bring private capital as we look to reform the GSEs?

A.1. Recent regulatory reform which specifically impacts the 
mortgage industry has placed a wave of burden and uncertainty 
on us as originators of mortgage loans. The Dodd-Frank reforms 
specifically limited access to credit for many borrowers. 
Borrowers who fit into the credit box of the GSEs are exempt 
from some of the QM requirements as long as the GSEs are in 
conservatorship or until 2021. Due to the unknown liability and 
litigation expenses, our bank has tightened our credit box in 
our portfolio lending, specifically around the 43 percent DTI.
    Basel Requirements have burdened many institutions in their 
ability to originate new loans which they service themselves. 
This has forced them to sell loans to aggregators that they 
would desire to retain as customers and earning assets on the 
books. These are not large institutions and their holding of 
MSRs is not a driver of the performance of their institutions, 
however it is restricting how they do business and forcing them 
to send more loans to what are likely SIFI.
    Other regulations such as TRID, HMDA, and other CFPB 
enforcement has been implemented with many questions still 
unanswered. This causes disparities in practices in our 
industry which put institutions that are playing by the rules 
at a competitive disadvantage. This lack of clarity has also 
increased the cost to originate a loan, which today is now 
above $7,000 where it was close to $4,000 6 years ago. This is 
increasing the cost to the customer and limiting competition in 
the mortgage space as it has driven consolidation.
    Regulations should be based more on the type of lending 
that is done and should focus on firms who are purposely 
defying regulations rather than institutions afraid of clerical 
errors which can cost exorbitant enforcement fees and personnel 
costs.
    GSE reform is absolutely necessary as we continue to 
rebuild a sound secondary mortgage market. The GSEs perform a 
critical task in offering a 30-year fixed option that is liquid 
and with clear guidelines. The GSEs have done a great job in 
the past few years of focusing on their customers and what can 
enable us to lend to more borrowers. The ability of the 
benefits the GSEs bring the market is imperative to continue 
into the future. With that said, taxpayers should not be 
exposed to the risk present in this market and credit risk 
should be transferred to the private sector. We would hope that 
the GSEs or their future state can continue with some mandate 
to offer affordable housing support with low-down payment 
options and less restrictive credit standards than private 
entities would likely offer.

Q.2. Can you give me your opinion on where the current credit 
box is, how consumers get loans both for personal, business, 
etc., how about in the mortgage space? Is it harder to get a 
mortgage today versus in years past?
    How does this impact underserved and underbanked 
populations in the U.S.?

A.2. Underbanked and underserved borrowers are not being fully 
served today. Borrowers with little or no credit are 
immediately not within the credit parameters set forth by 
programs offered by the GSEs, FHA, and USDA. The current FICO 
models reward borrowers with very established credit that 
underbanked populations do not necessarily possess. Buyback and 
compare ratio risks from the agencies have forced lenders to 
place overlays on the agency credit parameters which limit an 
underserved borrower's ability to find lending options. It is 
critical for the FHFA to continue to promote access to these 
programs and find ways to encourage responsible but broad 
lending across the credit spectrum.

Q.3. Can you tell me how, in addition to other macroeconomic 
variables that affect lending, the regulatory environment has 
played a role in lenders' willingness/ability to extend 
mortgage credit? What needs to change?
    I see evidence that suggests that nonbanks now make up the 
predominate percentage in the mortgage market, what is your 
view of how this affects the stability of servicing mortgages 
in a crisis environment and how does this affect access to 
financing?

A.3. Nonbanks now make up more than 50 percent of originations 
based on 2016 HMDA data. These loans are typically sold to SIFA 
institutions and large national servicers. These servicers will 
continue to be slow to react in a crisis and not able to meet 
the needs of all customers.
    Nonbank mortgage lenders are typically regulated by States 
and do not receive the scrutiny as a federally regulated bank 
and enforcement for noncompliance is rare. A smaller nonbank 
lender offering riskier products that may be taking advantage 
of borrowers may never see the types of audits a bank does. A 
bank will err on the side of caution in order to remain in 
compliance while making decisions that hurts its ability to 
compete fairly in the marketplace.

Q.4. Just to be clear--from my perspective I'm not advocating 
to return to the lending standards of the sub-prime/pre-crisis 
era, but I do believe that we need to evaluate some the 
regulations such as the use of the False Claims Act, having 
unified servicing standards, TILA-RESPA, etc., so that we can 
help expand credit safely to both first-time buyers and 
refinancers, and I would like your perspective on how we (1) 
address larger regulatory reform in the banking ecosystem; and 
(2) how your institutions and similarly situated ones play a 
role in providing credit to consumers.

A.4. A bank like ours has shown through years of prudent 
lending, low complaints, and positive financial performance our 
ability to properly run our business while meeting the lending 
needs of the communities we serve. We agree that the lending 
standards pre-crisis were well below where they should have 
been, however the pendulum has swung too far alongside 
regulation by enforcement that quite frankly scares prudent 
lenders like us from offering anything but the basic products 
for our customers. The uncertainty in recent regulations has 
forced us to take a competitively disadvantaged position to our 
nonbank peers. Regulation uncertainty has also put our teams in 
a position to constantly question what is right or the intent 
of the law. Loans are taking longer to close, at a higher cost, 
and with more uncertainty sometimes to the borrower due to 
recent regulations, namely TRID.
    Regulatory reform in the mortgage market should be based 
not just on size, but on the types of lending. The biggest help 
that our regulators can give us is clarity. Confusion leads us 
to always take the most conservative route which has downstream 
effects such as limited access to borrowers and higher costs to 
lenders.

Q.14. Are assets alone the single most important factor for 
determining systemic risk? If not, why use that as a threshold 
at all?

A.14. Yes, assets are the single most important factor for 
determining systematic risk, but the focus should be on the 
type and risk of assets rather than just the total amount of 
assets.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BROWN
                     FROM SAULE T. OMAROVA

Q.1. Can you please describe the nature of banking agencies' 
so-called ``safety and soundness'' authority? Would you be 
concerned by any proposals to interfere with the existing 
safety and soundness regime?

A.1. Ensuring ``safety and soundness'' of the banking system 
is, and has always been, the fundamental substantive goal of 
U.S. bank regulation. In addition to performing vital functions 
of taking deposits and facilitating payments, banks play a 
critical role in the transmission of monetary policy. Yet, the 
very nature of their business makes banks especially vulnerable 
to runs and other shocks that can quickly bring them down. 
Traditionally, banks' primary liabilities are short-term (e.g., 
demand deposits), while their assets are long-term and illiquid 
(e.g., loans). The concept of ``safety and soundness'' reflects 
the long-standing recognition of this built-in vulnerability of 
the banking business model and the importance of preserving 
banks' solvency and ability to operate uninterrupted.
    Accordingly, Federal and State banking agencies' authority 
to continuously monitor, evaluate, and act to enhance 
individual banks'--and the entire banking system's--safety and 
soundness is very broad. The agencies' mandate to maintain and 
ensure safety and soundness permeates and underlies the entire 
regime of U.S. bank regulation and supervision. In that sense, 
it is difficult to describe precisely the scope or the specific 
nature of that authority. In effect, every specific rule 
governing banking institutions' activities represents a 
particular articulation of the safety and soundness 
requirement. Moreover, it is impossible to reduce the safety 
and soundness mandate to any specific, limited, quantifiable 
factor or rule. It empowers and obligates the regulatory and 
supervisory agencies to exercise an inherently context-specific 
judgment as to whether any particular activity, transaction, or 
business practice potentially threatens stable and reliable 
operation either of an individual bank or of the banking/
financial system more generally. Most, if not all, legal rules 
applicable to U.S. banks expressly provide for the relevant 
regulators' authority to make a particularized substantive 
determination of permissibility or legality of an otherwise 
permissible action based on its potential safety and soundness 
consequences.
    Put simply, this authority may be analogized to the medical 
professionals' maxim of ``Do no harm.'' And just like any 
attempt to limit or qualify that principle would undermine not 
only the integrity but the very efficacy of medical care, so 
would any attempt to limit or qualify bank regulators' 
authority to ensure safety and soundness of the banking system 
undermine that system's integrity and efficacy.
    Reflecting the dramatic lessons of the latest financial 
crisis, the Dodd-Frank Act strengthened Federal bank 
regulators' mandate to ensure safety and soundness of the U.S. 
financial system. The creation of the Financial Stability 
Oversight Council (FSOC), heightened prudential oversight of 
certain large bank holding companies (BHCs) and nonbank 
financial firms designated by FSOC as systemically important 
financial institutions (SIFIs), mandatory periodic stress 
testing and submission of ``living wills'' by large BHCs and 
SIFIs--all of these post-crisis regulatory innovations are 
merely an updated version of the centuries-old safety and 
soundness regime. They constitute a coherent framework for 
ensuring vital stability of today's complex and dynamic 
financial system. Regulators need all of these tools to be able 
to monitor the levels of risk in the financial system and to 
prevent potentially destructive systemic shocks. Taking away or 
in any way limiting regulators' and supervisors' flexibility 
and ability to exercise discretion in determining how and when 
to act in the name of the safety and soundness of the U.S. 
financial system would be unacceptably reckless. It will 
effectively guarantee another systemic financial crisis.
    Any legislative reform that seeks to eliminate, limit, or 
weaken the Dodd-Frank Act's regime of system-wide prudential 
oversight, therefore, goes directly against the most important 
public interest in preserving the safety and soundness of the 
American financial system. The list of such dangerous reforms 
includes proposals to limit FSOC's power to designate SIFIs and 
the Federal Reserve's power to supervise them, to lower 
existing capital adequacy requirements, to make stress testing 
more easily predictable and thus subject to ``gaming,' to 
replace the Orderly Liquidation Authority, and so forth. None 
of these proposed reforms will strengthen our financial system. 
To the contrary, they will make it a lot more vulnerable and 
dysfunctional.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR SASSE
                     FROM SAULE T. OMAROVA

Q.1. Federal Reserve Governor Powell testified at the April 14, 
2016, Senate Banking Committee hearing entitled ``Examining 
Current Trends and Changes in the Fixed-Income Markets''. He 
said that ``some reduction in market liquidity is a cost worth 
paying in helping to make the overall financial system 
significantly safer.''
    Is there also a risk that reducing liquidity in the 
marketplace also makes the marketplace unsafe?
    If so, how should regulators discern the difference between 
an unsafe reduction in liquidity and a safe reduction in 
liquidity?

A.1. There are trade-offs in every regulatory choice. For 
example, prohibiting distribution of marijuana protects people 
from serious drug addiction, but it also reduces availability 
of marijuana for medical or recreational purposes. How should 
we discern the difference between an unsafe reduction in 
availability of marijuana and a safe reduction in such 
availability? In that context, lawmakers often don't seem to 
spend too much time on finding the precise scientifically 
proven level of ``safeness'' and take a principled normative 
stand: one public policy goal is more important than the other.
    The same logic should apply to this theoretical debate on 
``safety vs. liquidity'' in financial markets. There is no 
objective, scientific mark for an absolute optimal level of 
market liquidity. It all depends on the context and the 
consequences. There was plenty of liquidity in the years before 
the latest crisis, and then that liquidity evaporated 
overnight. ``Liquidity'' was merely another word for 
unproductive churning and excessive speculation. It was bad for 
the market and for the American economy. So, clearly, we cannot 
use the pre-crisis ``liquidity'' measures as our reference 
point for ``safe vs. unsafe'' determinations. That choice is 
not scientific; it is fundamentally normative. We as a society 
should make a normative, political choice whether it is more 
important for us to enable uninhibited financial speculation 
(for which ``market liquidity'' is often a euphemism) or to 
prevent financial crises.

Q.2. As you know, regulators imposed numerous capital 
requirements after the 2008 financial crisis.
    Have Federal regulators sufficiently studied the cumulative 
impact--including on liquidity in the marketplace--of these 
various changes?
    If not, how should Federal regulators resolve this issue? 
For example, some have called to delay the imposition of new 
financial rules and regulations in order to facilitate a 
broader study of these issues.

A.2. Industry actors' calls for delaying the application of 
capital rules, ostensibly for the purposes of ``studying'' 
their impact, are merely a strategy to avoid higher capital 
requirements--and thus to continue to operate with high levels 
of leverage. There is no absolute, scientifically precise level 
of capital that is perfectly optimal under any circumstance. 
How much equity (i.e., capital) a particular bank should have 
at any single point depends on how volatile the value of its 
assets is--and that can change quickly in response to various 
internal business decisions and external forces in the markets. 
That is why, for example, countercyclical capital buffer 
requirements are especially important: they provide the 
necessary cushion for absorbing sudden losses when an asset 
price boom turns to the inevitable bust.
    Thus, financial regulators and supervisors should have 
sufficient flexibility and discretionary authority to 
determine, on the ground and in the context of a particular 
institution, whether that institution has sufficient capital to 
withstand the loss of asset value without hurting its 
creditors. Regulators and supervisors are best equipped to 
render such determinations. They should be given a broader 
authority to do just that. Saddling regulators with the 
inherently meaningless task of studying ``cumulative effects'' 
of all capital requirements on all financial firms will 
effectively render them incapable of doing their job. The only 
real-world effect of that strategy will be more leverage, more 
risk, and more instability in the financial system. No real new 
knowledge produced as a result of any such studies will be even 
remotely worth that risk.

Q.3. As you know, Dodd-Frank imposed new stress test 
requirements on banks above $10 billion.
    How should policymakers balance providing more transparency 
and guidance to regulated entities about passing stress tests, 
without enabling regulated entities to, as some have suggested, 
``game'' these processes?
    Do stress tests accurately depict how a firm would perform 
during a financial crisis? If not, what should be done, if 
anything, to improve their accuracy?
    Are stress tests properly tailored to match the unique risk 
profile of smaller financial institutions?

A.3. I discuss the issue of stress tests' transparency at 
length in my written statement.
    To add to that discussion, I would like to emphasize how 
misguided it is to judge the efficacy or public benefits of 
stress tests by reference to how ``accurately'' they depict the 
actual behavior of any specific firm in an actual crisis. No 
such predictions or assessments can be made, and that is not 
the purpose of stress testing. Stress tests play out a variety 
of scenarios, including extreme ones, as a way of identifying 
serious weaknesses in the institution's financial condition and 
risk management. Going through the process of stress testing is 
just as important as passing the tests. It is that aspect of 
stress testing--the dynamic, learning, procedural aspect--that 
is critical for preserving financial stability more broadly. 
Forcing the Federal Reserve to be more ``transparent'' about 
its methodologies and assumptions will significantly weaken, or 
even eliminate, that beneficial effect of stress testing. It 
will only benefit financial institutions, but not the financial 
system--and not the American economy.

Q.4. As you know, House Financial Services Chairman 
Hensarling's legislation, the Financial CHOICE act--in part--
would allow banks to opt-out of various regulatory 
requirements, in exchange for meeting a 10 percent leverage 
ratio.
    What are the most persuasive arguments for and against 
relying upon a leverage ratio as a significant means of 
reducing systemic risk in the financial system?
    Under this legislation, is the 10 percent leverage ratio 
the right level? If not, where should policymakers set the 
level at?
    What evidence do you find or would you find to be the most 
persuasive in discerning the proper capital levels under this 
proposal?
    If the leverage ratio was set at the right level, do you 
find merit in eliminating a significant portion of other 
regulatory requirements, as with the Financial CHOICE Act? Are 
there any regulations that you would omit beyond those covered 
by the Financial CHOICE Act?
    What impact would this proposal have on liquidity in the 
marketplace?

A.4. A straight leverage ratio is important as a useful 
baseline for judging the level of capital adequacy of financial 
institutions. Unlike risk-based capital ratios, the leverage 
ratio does not allow for risk-weighting of asset values, which 
can be easily and dangerously miscalculated (either 
intentionally or unintentionally). In that sense, it provides a 
critical corrective to the malleable risk-based capital ratios.
    As explained above, there is no scientifically derived, 
theoretically ``perfect'' level of capital for all banks at all 
times. True, the leverage ratio of 10 percent would be a 
significant improvement over the current requirement of 5 
percent-6 percent at maximum. However, it is not a magical 
number that will somehow eliminate the need for close 
regulatory and supervisory oversight, stress tests, and other 
systemic risk-reducing measures.
    To the extent we do have any sort of an ``objective'' 
benchmark for judging the functional leverage ratio levels, the 
market gives us a number much higher than 10 percent. A 10 
percent leverage ratio is woefully low compared to the level of 
equity at nonfinancial firms. Thus, publicly traded 
nonfinancial firms typically have 30 percent-40 percent in 
shareholder equity on their balance sheets: i.e., their 
leverage ratio is in the 30 percent-40 percent range. If a 
company has less equity, it has to pay higher price for its 
debt. This is how the free capitalist market operates in the 
absence of a public subsidy.
    Banks enjoy such a subsidy, which is precisely why they 
prosper with such extremely low levels of true equity. The 
multifaceted system of bank regulation and supervision exists 
as the necessary substitute for the missing market discipline. 
Any attempt to weaken such system of oversight will only free 
banks to incur more leverage and risk, and to shift the risk 
and the ultimate losses onto the American taxpayer. A 10 
percent leverage ratio will not prevent that result. Perhaps a 
30 percent-40 percent leverage ratio would, but even that is 
debatable.

Q.5. I'm concerned that our Federal banking regulatory regime 
relies upon arbitrary asset thresholds to impose prudential 
regulations, instead of an analysis of a financial 
institution's unique risk profile.
    Should a bank's asset size be dispositive in evaluating its 
risk profile in order to impose appropriate prudential 
regulations?
    If not, what replacement test should regulators follow 
instead of an asset-based test?

A.5. In my written statement, I discussed at length the reasons 
why it is fundamentally misleading to characterize asset size-
based thresholds for enhanced prudential supervision as 
``arbitrary.'' We live with a myriad of ``arbitrary'' but 
practically necessary threshold-based rules every day: the 
legal age for voting is 18, the legal age for drinking is 21, 
and so forth. If all such numerical thresholds were deemed 
unacceptably ``arbitrary'' and replaced with ``tailored'' 
determinations of every single person's individual ability to 
exercise voting rights or consume alcohol, it would create a 
far more arbitrary, unpredictable, and chaotic world. Nobody 
would ever seriously propose such a ``reform'' in the name of 
``tailoring'' law to every person's ``unique'' circumstances. 
Similarly, replacing clear bright-line rules by a requirement 
that Federal regulators assess each financial firm's unique 
risk profile and circumstances would be impractical and 
ineffective. Doing so will impose unbearable costs on the 
public and essentially eliminate the entire regime of enhanced 
oversight of systemically important financial institutions. 
That would be an extremely dangerous result.
    A better, more pragmatic way to accommodate the inevitable 
differences between megabanks and smaller institutions, which 
currently fall into the same SIFI category, could be to allow 
for a discretionary downward adjustment of the intensity of the 
enhanced supervision regime for certain institutions, based on 
a combination of their size and business activities. In other 
words, it may be desirable to have a formalized process 
whereby, e.g., a traditional midsized bank with assets above 
$50 billion could petition the regulators for a lighter 
regulatory or supervisory treatment. The petitioning bank would 
have the burden of proving to the regulators why such special 
dispensation would be reasonable in its case--and why it would 
not create any unreasonable risks to the safety and soundness 
of the U.S. financial system.
    This approach would properly place the burden of securing a 
special private benefit (lower compliance costs) on those 
private entities that seek it, and not on the public that 
finances Federal regulatory agencies. Moreover, this system 
would be in line with the fundamental free-market principles: 
the firms that want to have their own, uniquely tailored law 
will have to pay for it and bear responsibility for its 
outcomes.
                                ------                                


         RESPONSES TO WRITTEN QUESTIONS OF SENATOR REED
                     FROM SAULE T. OMAROVA

Q.1. This Committee heard testimony last week from Professor 
Adam Levitin that since the Wall Street Reform and Consumer 
Protection Act, the cumulative pre-tax return on equity in the 
banking sector has been 225 percent for community banks and 320 
percent for megabanks. At the same time, since 2010, real 
income has actually fallen by 0.6 percent for the average 
American family. These statistics highlight that banks, and 
especially large banks, have done very well in the years since 
the Wall Street Reform Act, while the typical American family's 
real income is now less than before the bill. In order to grow 
the economy, wouldn't pursuing policies that increase 
productivity and lift middle class wages be better than 
deregulating banks?

A.1. This is absolutely correct. To stimulate healthy long-term 
growth of the national economy, it is critical to ensure that 
the maximum number of Americans actually receive wages that are 
regular, stable, and sufficiently high to enable them to 
increase their spending--without incurring potentially 
dangerous amounts of debt. Higher incomes for more ordinary 
Americans will translate directly into higher demand for 
consumer goods and services, which will stimulate expansion in 
production of such goods and services. That, in turn, will 
translate into broader industrial growth, further job creation, 
technological innovation, and research and development. It is 
in that fundamental sense that, ultimately, consumer demand is 
the key catalyst of the Nation's economic growth.
    Importantly, however, financing demand through consumer 
debt is an unsustainable and extremely dangerous strategy. As 
the financial crisis of 2007-09 demonstrated, cheap credit 
booms inevitably lead to wealth-destroying economic crashes. 
Only by lifting Americans' real income levels can we create the 
conditions necessary for spurring sustainable long-term growth 
of the American economy. Currently, Americans are forced to 
resort to borrowing to make up for their steadily declining 
real incomes, so that the aggregate consumer debt now stands at 
a record high of about $13 trillion. Such high debt burden, 
combined with stagnating wages and continuing erosion of 
America's manufacturing base, is bound to depress consumer 
demand and, as a result, hold back economic growth.
    Deregulating banks will not remedy this underlying dynamic. 
Banks currently have plenty of cash available for lending. The 
real problem here is not some alleged contraction of banks' 
lending capacity because of regulatory compliance costs: it is 
the lack of effective and sound demand for credit from over-
extended consumers and struggling businesses in the sluggish 
real economy. Deregulating banks will only enable them to use 
more of their money for speculative trading, shareholder 
dividends, and executive bonuses. It will not magically create 
a robust real economy that can put that cash to productive use.

Q.2. Many of us have come to recognize that the Orderly 
Liquidation Authority is an incredibly important part of the 
Wall Street Reform and Consumer Protection Act. Could you 
please explain why OLA is so important to our constituents, 
especially those who may be working multiple jobs just to make 
ends meet?

A.2. The Orderly Liquidation Authority (OLA) is a special new 
regime for handling the failure of a major financial 
institution. It was created in response to the financial crisis 
of 2007-09, which made it clear that large financial firms--
banks, securities firms, insurance conglomerates, etc.--are 
fundamentally different from any regular private company in a 
free-market economy. When a nonfinancial company fails, the 
ordinary bankruptcy process--governed by the general Bankruptcy 
Code and administered by bankruptcy courts--aims to use the 
company's remaining assets to satisfy claims of its direct 
creditors: lenders, employees, suppliers, utility providers, 
etc.
    When a large financial institution like JPMorgan or Goldman 
Sachs fails, however, this time-consuming court-administered 
process does not work as well. Large financial institutions are 
highly leveraged, much more so than nonfinancial firms. Their 
debt obligations are much more varied, complex, and difficult 
to value. Many of these institutions' creditors trade in 
financial markets and, therefore, cannot afford to wait for the 
bankruptcy court to decide how much money they will get from 
the bankrupt firm. If these trading counterparties don't get 
paid on time, they may default on their own obligations or try 
to avoid that by rapidly selling their own financial assets 
(such as stocks, bonds, etc.): in either case, these creditors' 
behavior may trigger a dangerous chain reaction. Financial 
institutions provide services of critical public importance: 
they are central to the smooth operation of the payments and 
clearing systems, they manage ordinary Americans' savings and 
investments, they insure against various risks, etc. The 
bankruptcy of a large financial institution threatens to 
disrupt performance of these functions and thus cause much 
unanticipated distress in the broader economy.
    OLA is designed to provide a tailored approach to handling 
the failure of such an institution. It is simply a special 
version of corporate bankruptcy, which shifts the primary focus 
toward minimizing systemic disruptions that are likely to occur 
when a large, systemically important financial firm goes down. 
Among other things, OLA enhances the ability of the relevant 
Federal regulatory agencies to (1) monitor the financial 
condition, solvency and liquidity of all big banks, investment 
banks, and other financial firms; (2) mandate that all such 
financial firms have in place reliable plans for raising money 
and addressing any sudden shocks to their solvency or 
liquidity, before such shocks actually hit them; and (3) put in 
place the necessary ``safety net'' (i.e., access to last-resort 
emergency funding, international agreements with other 
countries' regulators, etc.) to ensure that the failure of a 
systemically important financial institution does not cause a 
major breakdown in the provision of financial services to the 
public.
    Put simply, the OLA regime is designed to ensure that, even 
if a major bank is about to collapse, ordinary Americans can 
keep going about their daily business without worrying about 
accessing their cash at ATMs, having their checks cleared, 
getting their wages deposited and their credit card payments go 
through. By strengthening the resilience of the financial 
system to the failure of any single firm, the OLA regime is 
critical for preventing full-on financial crises and subsequent 
economic depressions. It is a well-established fact that 
working-class and middle-class people get hit the hardest by 
such crises. That means that every hard-working American 
directly benefits from the existence and proper functioning of 
the OLA regime and other complementary elements of the Dodd-
Frank regulatory system. Repealing or weakening the Dodd-
Frank's OLA provisions, by contrast, will weaken and expose the 
American economy to increasingly frequent and devastating 
financial crises. Therefore, it is in the interest of every 
hard-working American to keep the OLA regime in place.


              Additional Material Supplied for the Record
              
              
              
  STATEMENT SUBMITTED BY THE INDEPENDENT COMMUNITY BANKERS OF AMERICA


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        STATEMENT SUBMITTED BY THE AMERICAN BAMKERS ASSOCIATION


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                STATEMENT SUBMITTED BY FIFTH THIRD BANK



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


     STATEMENT SUBMITTED BY THE INSTITUTE OF INTERNATIONAL BANKERS


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


               STATEMENT SUBMITTED BY TEXAS CAPITAL BANK


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              GSIB SCORES


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
